<html>
<title> - NOMINATION OF PENNY PRITZKER TO BE SECRETARY OF THE U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 113-619]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-619

                      NOMINATION OF PENNY PRITZKER
                         TO BE SECRETARY OF THE
                      U.S. DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-056 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2013.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     6
Statement of Senator Warner......................................    52
Statement of Senator Fischer.....................................    54
Statement of Senator Scott.......................................    55
Statement of Senator Blunt.......................................    57
Statement of Senator Klobuchar...................................    59
Statement of Senator Cowan.......................................    62
Statement of Senator Cantwell....................................    64
Statement of Senator Begich......................................    66
Statement of Senator McCaskill...................................    68
Statement of Senator Cruz........................................    70

                               Witnesses

Hon. Richard Durbin, U.S. Senator from Illinois..................     1
Hon. Mark Kirk, U.S. Senator from Illinois.......................     3
    Letter dated May 15, 2013 to Hon. Mark Kirk from William M. 
      Isaac......................................................     3
Penny Pritzker, Nominee to be Secretary, U.S. Department of 
  Commerce.......................................................     8
    Prepared statement...........................................    10
    Biographical information.....................................    11

                                Appendix

Response to written questions submitted to Penny Pritkzer by:
    Hon. John D. Rockefeller IV..................................    77
    Hon. Maria Cantwell..........................................    78
    Hon. Frank R. Lautenberg.....................................    80
    Hon. Mark Pryor..............................................    82
    Hon. Mark Begich.............................................    84
    Hon. Brian Schatz............................................    84
    Hon. William Cowan...........................................    89
Response to written questions submitted by Hon. John Thune to 
  Penny Pritzer regarding her Questionnaire Responses............    89
Response to written questions submitted to Penny Pritzker by:
    Hon. John Thune..............................................    91
    Hon. Roy Blunt...............................................    97
    Hon. Marco Rubio.............................................    97
    Hon. Kelly Ayotte............................................   100
    Hon. Dean Heller.............................................   101
    Hon. Dan Coats...............................................   102

 
                      NOMINATION OF PENNY PRITZKER
                         TO BE SECRETARY OF THE
                      U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                         THURSDAY, MAY 23, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning, and this hearing will come to 
order. Because we are confronted here by two incredibly 
important and busy Senators facing us, it would never occur to 
Senator Thune and I to do what we ought to do, which is to give 
our statements first and make you wait. So what we are going to 
do, if it is all right with you, is ask each of you to give 
your statements, then we will give our statements, and then we 
will go to Ms. Pritzker.
    Senator Durbin.

               STATEMENT OF HON. RICHARD DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Chairman Rockefeller and Senator Thune, 
thank you, as well as other members of the Committee, for 
allowing Senator Kirk and I to come here today to introduce the 
nominee that the President has offered to this committee and to 
Congress for the important position of Secretary of Commerce.
    I know that you are leaning in our direction, Mr. Chairman, 
because of your wonderful Illinois-born wife and your 
connections to our great State. And we thank you for that.
    The Chairman. Actually it is not that. It is that you are 
in the leadership, and I do not want to mess around with you.
    [Laughter.]
    Senator Durbin. That will be a first.
    [Laughter.]
    Senator Durbin. Mr. Chairman, it is an honor to introduce 
Penny Pritzker, the President's nominee to be Secretary of 
Commerce. She is here with her family, whom she will introduce, 
I am sure, when the time is right for that.
    What you see when you consider Ms. Pritzker is not only 
decades of business, entrepreneurial, and civic experience, 
which make her a strong candidate for this position, but also a 
warm, compassionate person who has really given back to the 
committee in Illinois and across the Nation. Ms. Pritzker has 
built five businesses from scratch, served on numerous 
corporate boards, and has been an effective leader of major 
corporations. She ranks as one of the most influential women in 
corporate America, and that is quite an achievement when you 
consider the glass ceilings and other obstacles which women 
face.
    Her lifetime of business experience includes her current 
role as Founder, Chairman, and CEO of PSP Capital Partners and 
Pritzker Realty Group. She also serves on the Board of Artemus 
Real Estate Partners and Hyatt Hotels Corporation, previously 
served on the boards of William Rigley, Jr. Company, Marmon 
Group, and the LaSalle Bank Corporation. Her decades of 
business experience will serve her well in leading this 
Agency's primary mission, which is to work with businesses, 
universities, and communities to promote job creation and 
economic growth.
    Ms. Pritzker's business experience is only enhanced by her 
service to the community in Illinois and across the country. 
She has led initiatives that improve education and help connect 
people with job opportunities. She leads Skills for America's 
Future, a national program that brings together businesses, 
community colleges, and others to prepare workers for 21st 
century jobs and to help them find employment.
    In addition to education, she is an ardent supporter of the 
arts. Ms. Pritzker is a Member of the American Academy of Arts 
and Sciences, a Trustee of the Kennedy Center, and former 
Chairman of the Board of the Museum of Contemporary Art in 
Chicago. President Obama appointed Ms. Pritzker to the 
President's Council for Jobs and Competitiveness, and she 
previously served on the President's Economic Recovery Advisory 
Board.
    Well, you just might think in the process of serving so 
many charities and so many boards and managing so many 
businesses that she would be a pretty busy person. Well, she 
is. But for fun, she trains for and competes in iron man 
distance triathlons in her spare time, Senator Thune. I know 
you do that yourself.
    Penny Pritzker's business know-how and intelligence make 
her an excellent candidate to serve as Secretary of Commerce. 
Her humor, warmth, and humanity only underscore those 
qualifications. Her wide-ranging perspective will prove 
worthwhile to the future of our Nation as we compete in the 
global marketplace and as we continue to get our economy back 
to work.
    Ms. Pritzker's contributions to the business world, and 
especially to the state of Illinois, are truly appreciated.
    It is my pleasure on behalf of myself and Senator Kirk to 
introduce to this committee Ms. Penny Pritzker. I fully support 
her nomination and look forward to working with her as she 
becomes President Obama's Secretary of Commerce.
    The Chairman. Thank you, Senator Durbin. Senator Kirk, do 
you have any remarks?

                 STATEMENT OF HON. MARK KIRK, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Kirk. I do. Mr. Chairman, I want to say that I am 
very enthusiastic for Penny's nomination. I have seen her as a 
voice for business that the President will have to heed.
    Let me just point out a few things that Senator Durbin 
mentioned, that she started a new business from the ground up 
called Classic Residence by Hyatt that already employs 3,500 
Americans. I have a letter for you that I would like to submit 
for the record by President Reagan's former Chairman of the 
FDIC, William Isaac, that I think will help you.
    And just to say to my Republican colleagues----
    The Chairman. The letter will be included.
    [The information referred to follows:]

                                                       May 15, 2013
Hon. Mark Kirk,
United States Senate,
Washington, DC.

Dear Senator Kirk:

    I am writing to support the confirmation of President Obama's 
nominee to be Secretary of Commerce, Penny Pritzker. I have known Ms. 
Pritzker for over a decade and believe she will be an outstanding 
Secretary of Commerce and a great ambassador for the U.S. throughout 
the world. In my view she will be among the most able in President 
Obama's cabinet--someone with considerable experience in business and 
job creation.
    Since her nomination, some have said that her experience as Chair 
of Superior Bank in Illinois--an S&L that failed in 2001--disqualifies 
her for the cabinet post. I was not involved at Superior Bank or with 
the Pritzker family prior to the bank's failure but was quite involved 
after its failure so I believe I have a unique vantage point from which 
to comment on those events.
    I had the opportunity and the honor of serving at the FDIC under 
two Presidents. I was appointed to the FDIC board in 1978 by a 
Democrat, President Jimmy Carter, and became Chairman of the agency in 
1981 under a Republican, President Ronald Reagan. It was a tumultuous 
time for the economy and financial system with some 3,000 banks and 
thrifts failing during the decade of the 1980s.
    In 2001, about 15 years after I left the FDIC, I was approached by 
Penny Pritzker. She had left the Superior board and had no active role 
beginning in 1994, seven years before the bank failed, but her family 
retained 50 percent ownership of the bank. She wanted to find a way to 
pay for the collapse and to make sure that those customers who were 
affected got as much of their money back as possible and as quickly as 
possible. She requested my help in reaching out to the FDIC, which at 
the time preferred a full investigation prior to bringing any claims 
and discussing possible litigation or settlements. That approach would 
have cost millions of dollars and delayed resolution of the failed bank 
and the return of creditors' funds.
    The case I stated to the FDIC was that it was far from clear that 
the Pritzkers, as shareholders of Superior, had any liability to the 
FDIC, as the bank's receiver. I said the Pritzkers wanted to pay the 
FDIC a lot of money as soon as possible without the delay and expense 
of protracted investigations and litigation. The FDIC agreed and 
ultimately we reached a resolution with the FDIC in which Penny and her 
family paid the FDIC $450 million. I'm not aware of a larger bank 
settlement in FDIC history.
    While I believe FDIC may have lost some money in the failure of 
Superior Bank even after the payment from the Pritzker family and 
settlements with other parties, the intention at the time was to cover 
the entirety of the FDIC's likely losses, which were uncertain because 
they would be affected by future market conditions relating to the 
value of the bank's assets, potential settlements by the FDIC with 
other parties, and the timing of the FDIC's disposition of the bank's 
assets. I should note that the FDIC is funded by the banking industry 
and no taxpayer funds were involved. Moreover, I would note that I am 
not aware of Penny personally profiting in any way from the activities 
that brought down Superior Bank.
    I said publicly at the time of the Pritzker settlement that in all 
my years of dealing with bank failures, I had never known any investor 
in a failed bank to take responsibility as the Pritzkers had done. I 
stand by that statement.
    Their actions are even more noteworthy given that the Pritzker 
family owned only half of the bank. The other half of the bank was 
owned by a New York based real estate developer who I understand 
controlled the bank's operations. Had the FDIC chosen to bring suit 
against the Pritzkers after completing a lengthy investigation, it's 
far from clear that the FDIC could have prevailed in court.
    Understandably, there has been public discussion about Penny 
Pritzker's background following President Obama's nomination of her 
last week. She is a business woman with a strong record of success 
international in scope. She and her family are also philanthropic and 
civic leaders on a major scale. Part of the measure of a person should 
also be how they react in times of stress and of crisis--when things go 
awry. In their actions after the failure of Superior Bank, Penny and 
her family demonstrated a commitment to taking responsibility and 
treating the FDIC and others involved fairly.
    Although the U.S. economy has been stabilized since the crisis of 
2008-2009, we are still living in perilous economic times and the 
incoming Secretary of Commerce will have a great deal of work to do to 
help businesses grow, add jobs, and compete globally. In my view, 
President Obama has selected an outstanding person to carry out this 
mission at a critical time.
    Please do not hesitate to reach out to me if I can provide any 
additional information.
            Respectfully,
                                           William M. Isaac

    Senator Kirk.--I will be whipping each one of you on behalf 
of Penny's nomination coming up when the vote comes, hoping 
that this voice for business becomes our next Commerce 
Secretary.
    The Chairman. Great. All right. Now, you two distinguished 
senators have a choice. You can listen to Senator Rockefeller 
and Senator Thune----
    Senator Durbin. I am afraid we have to go, Mr. Chairman.
    [Laughter.]
    Senator Durbin. But we appreciate--we so appreciate that 
offer.
    The Chairman. Yes.
    Senator Thune. That is the correct answer.
    Senator Durbin. Thank you very much.
    The Chairman. Now, Senator Thune and I will give our 
opening remarks. And then what we are going to do is what we 
did yesterday, and that is that other colleagues on both sides 
will not give opening remarks, but all questioning periods will 
go for 7 minutes so you can kind of do quite a lot with that, 
all right? Is that all right with you, sir?
    Senator Scott. Yes, sir, Mr. Chairman.
    The Chairman. Thank you.
    Senator Scott. Yes, sir.
    The Chairman. I would like to call this nominations hearing 
to order. It is an important one. We are meeting today to 
consider a distinguished nominee to be the next Secretary of 
Commerce. We have not had a Secretary of Commerce in a while, 
and if I can be just a bit rash, we have not had a strong 
Secretary of Commerce in quite a while.
    Ms. Pritzker's nomination comes at an important time during 
our Nation's economic recovery. While we have the lowest levels 
of unemployment in 4 years, that is fine, too many people are 
still out of work in my state, and Senator Thune's, and all of 
our states. Across the board budget cuts imposed in March are 
creating a new drag on the economy.
    Our nominee understands these challenges. She is a business 
woman. She follows the world about her very closely. In fact, 
your decades of experience in the private sector, in my 
judgment, investing in and managing numerous companies have 
given you the skills to manage a very large department, and 
that is what you are going to get, a very large department, 
bifurcated in many sections, not all of them communicating with 
each other, in need of good, tough leadership.
    You come from the business community, and you understand 
their needs. But your long track record as a civic leader is 
also going to serve you very well in this position should you 
be confirmed. As many already know, and as has been said, you 
served on the President's Council on Jobs and Competitiveness 
and the President's Economic Recovery Advisory Board. You also 
served as Chairman of the Aspen Institute Skills for America's 
Future Project. I did not know that, and I am pleased by that 
because it has fostered partnerships between more than 40 
employers and 200 community colleges across our country.
    Each of these experiences will be important to your task at 
Commerce should you be confirmed. The Commerce Secretary is in 
charge of 12 different bureaus and over 40,000 employees. To do 
the job well, you will need to reach far beyond the people 
under your direct management. The Department of Commerce serves 
very different constituencies that touch all corners of our 
country, remarkably different--the Arctic Ocean, to all kinds 
of fish, to telecommunications--everything.
    You will need to appreciate the immediate financial 
struggles facing fishermen, not in West Virginia, but in the 
northeast and in the southwest, which is a very tricky. At the 
same time, you are going to be managing and conserving the 
Nation's fisheries for all of us for the future. You will need 
to find ways to improve the resilience of our coastal 
communities who face increasing threats from storms, and sea 
level rise. Sea level is rising. Some do not believe that. I 
do. You will need to work directly with businesses and 
communities, partnering with them, and to create jobs, and 
expand opportunities.
    Collaboration between the public and private sectors is one 
of the centerpieces of the Department's work, whether it is the 
creation of cybersecurity standards, which we do some of in 
this committee or the creation of those standards or the 
development of manufacturing hubs for small-and medium-sized 
businesses. The private sector has to rely on and trust the 
Commerce Department's work. This trust is crucial to the long-
term competitiveness of the United States. Ms. Pritzker, we 
will be depending on you to continue this collaboration and 
strengthen it where necessary.
    One crucial area of public/private collaboration is the 
development of the wireless economy. The Commerce Committee 
closely follows the Department's efforts in this area. 
Expanding the spectrum that is available for wireless services 
and relieving the so-called spectrum crunch will be vital to 
jobs and growth in the Nation in the years to come. At the same 
time, smart spectrum policy includes protecting vital Federal 
operations. Not all Federal operations want to give up any of 
their spectrum. You will be running into the Department of 
Defense on that, and good luck.
    I expect that the Department will continue to work in close 
cooperation with Federal agencies and the private sector to 
open up more spectrum to meet our just burgeoning spectrum 
needs, and you cannot create it. You cannot create it.
    Finally, the Department manages our Nation's severe storm 
warning system and weather satellites. This has been a troubled 
area for us, especially with satellites. The terrible tragedy 
in Oklahoma is a stark reminder to us that the vital role that 
the National Weather Service plays in extreme weather events. 
In severe conditions, like we saw in Oklahoma earlier this 
week, minutes matter. And I am convinced that as bad as the 
devastation was, the timely emergency warnings issued by the 
National Weather Service probably saved some lives.
    Even as it faces budget cuts imposed by the sequester, not 
something we expected, but it is something that we have. We 
expected to come to a grand bargain. We have not, so sequester 
is part of the lives of all of us. We need a new weather-ready 
Nation initiative to improve communications during severe 
weather events and to build community resilience in the face of 
increasing vulnerability to extreme weather.
    Ms. Pritzker, you have had a very, very full, hard-
charging, highly successful life. I am one who profoundly 
believes in public service. You obviously do because of all of 
these boards that you belong to that deal with youth training 
and jobs and all of that. So I look forward to your testimony 
and hearing from my colleagues, especially my ranking 
colleague, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you for 
holding this hearing today on the nomination of Penny Pritzker 
to be the next Secretary of Commerce. And I want to welcome Ms. 
Pritzker to our committee.
    Ms. Pritzker has an extensive background in the private 
sector, and I look forward to hearing how she will apply that 
experience to achieve positive results at the Department of 
Commerce and for the Nation's economy should she be confirmed.
    The Department of Commerce is tasked with promoting 
business, facilitating job creation, and spurring economic 
growth. Unfortunately, our Nation's unemployment rate is still 
at an unacceptable level: seven and a half percent. In December 
2007, the unemployment rate measured at five percent, and it 
peaked at 10 percent in October 2009. Clearly much work remains 
to be done to get the unemployment rate to pre-recession 
levels, particularly when you factor in the 21.9 million 
Americans who are unemployed or underemployed.
    Despite positive reports in other areas of the economy, job 
growth remains very slow, and so far in 2013, monthly job 
growth has lagged behind the monthly averages experienced last 
year.
    We in Congress must make jobs and the economy our top 
priority, and that means we must strive to do what we can to 
unleash the great American entrepreneurial spirit. We need to 
remove needless and outdated regulation and reduce burdensome 
tax rates for businesses of all sizes. We must craft policies 
that spur the private sector to take risks, to create jobs, and 
we must also seek to restrain the government's inclination to 
intervene in the marketplace. In other words, we should let the 
free market choose economic winners and losers rather than 
having the government do so. That is why I believe it is 
critically important to have a Secretary of Commerce who has a 
strong record of accomplishment in creating jobs in the private 
sector, someone who knows the challenges and how to overcome 
the barriers the private sector faces in creating jobs.
    I believe the next Commerce Secretary must be a strong 
advocate for trade and open markets for America's farmers and 
manufacturers. The next Commerce Secretary must also work to 
create a more business-friendly environment. It is no secret 
that the Obama Administration has been criticized for adopting 
a negative attitude toward business, which I believe 
contributes to some of the economic problems we have observed 
over the last several years. There is a significant uncertainty 
in the private sector, and many within the business community 
are wary of the Obama Administration's predisposition to have 
the government intervene in the free market and its failure to 
adopt pro-growth policies.
    I believe we must have a Cabinet official who is strongly 
committed to economic expansion, trade promotion, and policies 
that strengthen our competitiveness. So I look forward to 
hearing Ms. Pritzker discuss her priorities with respect to 
these issues. I am particularly interested in hearing about Ms. 
Pritzker's experience serving on the President's Council for 
Jobs and Competitiveness. I am also interested in Ms. 
Pritzker's views on making more Federal spectrum available for 
commercial use, as you mentioned, Mr. Chairman.
    The Commerce Department is uniquely situated to play a role 
in this matter, particularly with one of its agencies, the 
National Telecommunications and Information Administration. 
Should Ms. Pritzker be confirmed, I would ask that she focus 
some of her time and energy on dealing with this issue, 
especially with respect to freeing up the 1755 to 1780 
megahertz band.
    I hope that we can work together to resolve this issue 
because if we are successful, it will ignite a great deal of 
economic activity across the country, assist in funding a 
nationwide public safety network, and ultimately help to ease 
the Nation's debt by bringing billions of dollars into the 
treasury from the auctioning of this valuable spectrum to the 
private sector.
    Finally, I would note that some concerns have been raised 
about Ms. Pritzker's role with and position as a beneficiary of 
an offshore tax haven, as well as her role in the failure of 
Superior Bank back in 2000-2001. I have been in communication 
with her on these matters. I would appreciate her continuing to 
work with us after the hearing to answer all the questions I 
and other members of the Committee may have before we report 
her nomination.
    Should she be confirmed, I hope that Ms. Pritzker will be a 
strong voice on the President's Cabinet for lowering regulatory 
burdens, lowering tax rates on businesses large and small, and 
promoting job creation in the private sector.
    On a personal note, Ms. Pritzker, I want to thank you for 
your willingness to serve our country. While I do not expect we 
are going to see eye to eye on every issue, it is important 
that we have individuals with experience in business who are 
willing to put that experience to work in the service of our 
Nation.
    Thank you again for holding this hearing, Mr. Chairman. I 
look forward to hearing Ms. Pritzker's testimony. Thank you.
    The Chairman. Thank you, Senator Thune.
    Ms. Pritzker, the floor is yours.

  STATEMENT OF PENNY PRITZKER, NOMINEE TO BE SECRETARY, U.S. 
                     DEPARTMENT OF COMMERCE

    Ms. Pritzker. Thank you. Thank you for those kind words of 
introduction, Chairman Rockefeller, Ranking Member Thune, and 
members of the Committee. I am honored to be under 
consideration for Secretary of the United States Department of 
Commerce.
    With me today is my husband, my rock, and my best friend, 
Dr. Bryan Traubert, as well as my son, Don, who just graduated 
from college, and my daughter, Rose, who just returned from her 
first year at college.
    Over the past few weeks, I have had the privilege to meet 
with many of you to discuss the Department and how we can work 
together to give entrepreneurs and businesses the tools they 
need to create jobs and keep our economy growing. Thank you for 
your valuable time, insights, and perspectives.
    American entrepreneurship is at the heart of my family's 
history. My great grandfather came to the United States from 
czarist Russia, dirt poor, at the age of 10. He taught himself 
English, worked several jobs, and earned his law degree at 
night, and opened a law practice at the age of 30. My father 
was the founding president of Hyatt Hotels. When I was a child, 
he took me to work with him at the motels on weekends. I would 
play on his adding machines at his office and help out with 
inspections of our property. As an entrepreneur and a business 
builder, he has been my inspiration.
    My father died when I was just 13, so in high school as my 
interest in business grew, I turned to my grandfather. On his 
80th birthday, my mother said I could give him anything I 
wanted as a gift, so I decided to write him a note on my green 
stationery. In it, I asked him why he only talked to the boys 
about family business when I was AS interested in business as 
they were. He said to me, ``Penny, I was born in 1896. How am I 
supposed to know that young women are interested in business?'' 
But he gave me a book on accounting and taught me the basics 
that summer, and I was hooked.
    I attended college at Harvard and received my MBA and law 
degree simultaneously from Stanford. Then I began working with 
my grandfather, my uncle, and my cousins, in the family 
business. In the 27 years since then, I have worked as an 
entrepreneur, both starting businesses from scratch and growing 
existing ones. It has not always been easy, but I have learned 
from both my successes and my failures.
    For example, my first startup involved residential 
communities for seniors. The initial team consisted of me, a 
secretary, and a lawyer. Like most entrepreneurs, I found the 
first few years to be terrifying, particularly when the early 
90s recession hit. I held myself to high standards, even 
suggesting to my uncle that he fire me if I could not turn 
things around quickly enough. Through hard work, we survived 
and grew, and the company remains successful today, employing 
thousands of people.
    Since then, I have been involved in sectors ranging from 
hospitality, to manufacturing, to real estate, to financial 
services, and more. I have founded or co-founded five 
companies, which have created thousands of jobs across the 
country. I have also sat on five corporate boards.
    My role in civic life has been both local and national in 
scope. At the local level, I have served as Chair of the 
Chicago Museum of Contemporary Art, as a member of the Chicago 
Board of Education, and as co-founder of my family's 
foundation, which enriches the lives of Chicago's children 
through education, health and fitness, and arts and culture.
    On a broader level, I have served on the boards of the 
Council on Foreign Relations, Stanford and Harvard 
Universities, the Kennedy Center for the Performing Arts, and 
others. Over the past few years, I have served on the 
President's Council on Jobs and Competitiveness and the 
President's Economic Recovery Advisory Board, both of which 
have helped to stabilize our economy and support job growth. 
Flowing from this, I launched Skills for America's Future. This 
initiative promotes partnerships between employers and 
community colleges to address the skills mismatch. In our first 
local model launched last September, Skills for Chicagoland's 
Future, we have already secured commitments from companies to 
hire 1,000 unemployed Chicagoans.
    If confirmed, I intend to leverage the sum of these 
experiences as an entrepreneur, as a business leader, and as a 
citizen deeply committed to American competitiveness in my 
service as Commerce Secretary.
    I should note that I have had firsthand experience with the 
Commerce Department over the years. For example, the 
information from the Census Bureau was the foundation for the 
decisions I made when starting the Senior Living Company I 
described earlier. Moreover, I know that thousands of 
businesses get the information, tools, and support they need 
from the Commerce Department each year. This includes patents 
for new products, support for small manufacturers, help for 
exporters who want to break into new markets, assistance for 
entrepreneurs from underserved communities, support for our 
fisheries and coastal economies, dissemination of timely and 
accurate weather forecasts, and much more.
    Overall, my vision is that the Commerce Department will 
continue to use all its assets to protect, promote, and 
anticipate what America needs to be competitive and innovative 
in the 21st century. If confirmed, I intend to serve as an 
active and visible part of the President's economic team. I 
will bring both concerns and ideas from the business community 
to the forefront, and I envision the Commerce Department 
maintaining its governmentwide leadership in areas such as 
manufacturing, attracting business investment, innovation, and 
exporting.
    Your partnership in all of these efforts will be crucial, 
so I actively seek your input, your advice, and your expertise.
    In closing, I believe very strongly that we must ensure 
that American entrepreneurs can continue to pursue and achieve 
their dreams, as my family has had that opportunity over the 
past century. If given the honor to serve my country as 
Commerce Secretary, I will work every day to support these 
entrepreneurs as they create jobs and build our Nation's 
prosperity. And I will continue to uphold the core values and 
deep sense of patriotism that has been passed down to me.
    Finally, let me say that, if confirmed, I look forward to 
working with the dedicated and driven public servants at the 
Commerce Department.
    Thank you, and I look forward to your questions.
    [The prepared statement and biographical information of Ms. 
Pritzker follow:]

     Prepared Statement of Penny Pritzker, Nominee for Secretary, 
                  United States Department of Commerce
    Thank you for those kind words of introduction.
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, I am honored to be under consideration for Secretary of the 
U.S. Department of Commerce. With me today is my husband, my rock, and 
my best friend--Dr. Bryan Traubert--as well as my son, Don, who just 
graduated from college, and my daughter, Rose, who just returned from 
her first year at college.
    Over the past few weeks, I have had the privilege to meet with many 
of you to discuss the Department and how we can work together to give 
entrepreneurs and businesses the tools they need to create jobs and 
keep our economy growing. Thank you for your valuable time, insights, 
and perspectives.
    American entrepreneurship is at the heart of my family's history.
    My great grandfather came to the U.S. from Czarist Russia, dirt 
poor, at the age of 10. He taught himself English, worked several jobs, 
earned his law degree at night, and opened a law practice at the age of 
30.My father was the founding president of Hyatt Hotels. When I was a 
child, he took me to work with him at the motels on weekends. I would 
play on his adding machines at his office and help out with inspections 
on the property. As an entrepreneur and business builder, he was my 
inspiration.
    My father died when I was just 13, so in high school, as my 
interest in business grew, I turned to my grandfather. On his 80th 
birthday, my mother said I could give him anything I wanted as a gift. 
So, I decided to write him a note on my green stationery. In it, I 
asked him why he only talked to the boys in the family about business, 
when I was as interested in business as they were. He said, ``Penny, I 
was born in 1896--How am I supposed to know that young women are 
interested in business?'' He gave me a book on accounting and taught me 
the basics that summer. I was hooked.
    I attended college at Harvard and received my M.B.A. and law 
degrees simultaneously from Stanford. Then, I began working with my 
grandfather, uncle, and cousins in the family business.
    In the 27 years since then, I have worked as an entrepreneur, both 
starting businesses from scratch and growing existing ones. It has not 
always been easy, but I have learned from both my successes and 
failures.
    For example, my first startup involved residential communities for 
seniors. The initial team consisted of me, a secretary, and a lawyer. 
Like most entrepreneurs, I found the first few years to be terrifying, 
particularly when the early `90s recession hit. I held myself to high 
standards, even suggesting to my uncle that he fire me if I couldn't 
turn things around quickly. Through hard work, we survived and grew, 
and the company remains successful today, employing thousands of 
people.
    Since then, I have been involved in sectors ranging from 
hospitality, to real estate, to financial services, and more. I have 
founded or co-founded five companies which have created thousands of 
jobs across the country. I have also sat on five corporate boards.
    My roles in civic life have been both local and national in scope.
    At the local level:

  <bullet> I have served as Chair of the Chicago Museum of Contemporary 
        Art . . .

  <bullet> as a member of the Chicago Board of Education . . .

  <bullet> and as a co-founder of my family's foundation, which 
        enriches the lives of Chicago's children through education, 
        health and fitness, and arts and culture.

    On a broader level, I have served on the boards of the Council on 
Foreign Relations, Stanford and Harvard universities, the Kennedy 
Center for the Performing Arts, and others.
    Over the past few years, I have served on the President's Council 
on Jobs and Competitiveness and the President's Economic Recovery 
Advisory Board--both of which helped stabilize our economy and support 
job growth.
    Flowing from this, I launched Skills for America's Future. This 
initiative promotes partnerships between employers and community 
colleges to address the skills mismatch. In our first local model 
launched last September--Skills for Chicagoland's Future--we have 
already secured commitments from companies to hire 1,000 unemployed 
Chicagoans.
    If confirmed, I intend to leverage the sum of these experiences--as 
an entrepreneur, as a business leader, and as a citizen deeply 
committed to American competitiveness--in my service as Commerce 
Secretary.
    I should note that I have had first-hand experience with the 
Commerce Department over the years. For example, information from the 
Census Bureau was the foundation for decisions I made when starting the 
senior-living company I described earlier.
    Moreover, I know that thousands of businesses get the information, 
tools, and support they need from the Commerce Department each year:

  <bullet> The Department helps businesses obtain intellectual property 
        protections such as patents and trademarks from the U.S. Patent 
        and Trademark Office.

  <bullet> It promotes exports and fights for a level playing field 
        through the International Trade Administration.

  <bullet> It helps infuse new ideas and innovation into manufacturers 
        and their supply chains through collaborations with the 
        National Institute for Standards and Technology.

  <bullet> It makes transformative investments that encourage 
        businesses and communities to build and grow through the 
        Economic Development Administration.

  <bullet> It helps underserved entrepreneurs get the tools they need 
        to start businesses through the Minority Business Development 
        Agency.

  <bullet> It brings more opportunity to communities and businesses 
        through broadband through the National Telecommunications and 
        Information Administration.

  <bullet> It keeps sensitive technologies out of the wrong hands while 
        also ensuring sensible export controls through the Bureau of 
        Industry and Security.

  <bullet> And it supports our coastal economies, fisheries, and the 
        daily weather information needs of people and businesses 
        through the National Oceanic and Atmospheric Administration.

    Overall, my vision is that the Commerce Department will continue to 
use all of its assets to protect, promote, and anticipate what America 
needs to be competitive and innovative in the 21st century.
    If confirmed, I intend to serve as an active and visible part of 
the President's economic team. I will bring both concerns and ideas 
from the business community to the forefront. And I envision the 
Commerce Department maintaining its government-wide leadership in areas 
such as manufacturing, attracting business investment, innovation, and 
exporting.
    Your partnership in all of these efforts will be critical, so I 
will actively seek your input, advice, and expertise.
    In closing, I believe very strongly that we must ensure that 
American entrepreneurs can continue to pursue and achieve their 
dreams--as my family has had the opportunity to do over the past 
century.
    If given the honor to serve my country as Commerce Secretary, I 
will work every day to support those entrepreneurs as they create jobs 
and build our Nation's prosperity. And I will continue to uphold the 
core values and the deep sense of patriotism that have been passed down 
to me.
    Finally, let me say that, if confirmed, I look forward to working 
with the dedicated and driven public servants at the Commerce 
Department.
    Thank you. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Penny Sue 
Pritzker.
    2. Position to which nominated: Secretary of Commerce.
    3. Date of Nomination: May 9, 2013.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 300 N. LaSalle, Suite 1500, Chicago, IL 60654.

    5. Date and Place of Birth: Chicago, Illinois; May 2, 1959.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Dr. Bryan Spencer Traubert, Ophthalmologist, Eye 
        Physicians & Surgeons of Chicago; childern: Donald Pritzker 
        Traubert, age 22; Rose Pritzker Traubert, age 20.

    7.List all college and graduate degrees. Provide year and school 
attended.

        Stanford University--JD/MBA--June 1985
        Harvard College--Bachelor's Degree--June 1981

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Horton Trust Company LLC--Vice President--Investments; 2011 to 
        present.

        PSP Capital Partners, L.L.C.--Chairman & CEO; 2010 to present.

        Pritzker Realty Group, L.L.C.--Chairman; 2009 to present.

        Artemis Real Estate Partners, L.L.C.--Chairman, Co-Founder; 
        2009 to present.

        TransUnion, LLC--Chairman; 2004 to 2012.

        CIBC Trust Company (Bahamas) Limited, Trustee--Consultant; 2004 
        to 2011.

        Hyatt Hotels Corporation--Consultant/Board Member; 2003 to 
        present.

        Jan Breyer, Trustee--Consultant to Trusts f/b/o various members 
        of the Pritzker Family; 2003 to 2011.

        The Pritzker Organization, L.L.C.--Consultant; 2003 to 2011.

        Marmon Holdings, Inc.--Consultant; 2003 to 2008.

        Pritzker Realty Group, LP--President & CEO; 1998 to 2011.

        CC Development Group, Inc. (aka Vi or Classic Residence)--
        Chairman; 1987 to 2011.

        Pritzker & Pritzker--Partner (Share of Profit/Loss); 1987 to 
        2008.

        Hyatt Development Corporation--Manager/General Analyst; 1985 to 
        1987.

    9. Attach a copy of your resume. See Exhibit A(9).
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Chicago Board of Education--Member of School Board, Chicago; 
        June 2011 to March 2013.

        President's Council on Jobs & Competiveness--Member of Council; 
        2011 to February 2013.

        President's Economic Recovery Advisory Board--Member of Board; 
        2009 to present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.
    See Exhibit A(11).
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    See Exhibit A(12).
    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Chicago Board of Education--Member of School Board (appointed); 
        June 2011 to March 2013.

        President's Council on Jobs & Competitiveness (appointed); 2011 
        to February 2013.

        President's Economic Recovery Advisory Board (appointed); 2009 
        to present.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    See Exhibit A(14).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        2013--Inducted into the American Academy of Arts and Sciences.

        2012--Woodrow Wilson Award for Public Service.

        2011--Ernest C. Arbuckle Award by the Stanford Business School 
        Alumni Association.

        2007--Harvard Business School Club of Chicago Distinguished 
        Leadership Award.

        2002--American Jewish Committee Human Rights Medallion.

        2000--John Harvard Fellows Society.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of 
personal files and searches of publicly available electronic databases. 
Despite my searches, there may be other materials I have been unable to 
identify, find or remember. I have located the following:

Articles:

  <bullet> The Business of Strengthening School Leadership; Bloomberg 
        Business; March, 2010

  <bullet> Want better economy? Fill skills gap; Politico; June, 2011

  <bullet> Unlocking the potential of small business owners: Walter G. 
        Bumphus, Penny Pritzker and Jerry Sue Thornton; Cleveland Plain 
        Dealer; September, 2012

Speeches:

    A. CBRE Women's Event. April 2005

  <bullet> Brief summary: family history, personal influences and 
        professional development, and management style.

    B. YWCA Awards Luncheon. October 20, 2005

  <bullet> Brief summary: the importance of teaching young women math, 
        science, and technology.

    C. Chicago Finance Exchange. November 2005

  <bullet> Brief summary: how to be a successful business woman, what 
        qualities and skills are needed to be successful, and how to 
        measure success.

    D. Harvard Business School Club of Chicago 2007 Distinguished 
Leadership Award Acceptance Speech. October 26, 2007

  <bullet> Brief summary: definition of leadership, personal influences 
        and professional development, the importance of philanthropy, 
        and approach to community service and philanthropic efforts.

    E. Stanford Board of Governor's Speech. June 22, 2008

  <bullet> Brief summary: management style and how corporate boards 
        should successfully prepare for leadership transitions.

    F. Entrepreneurial Women's Conference, Women's Business Development 
Center. September 16, 2009

  <bullet> Brief summary: overview of the current economic climate, 
        professional development, lessons learned about the qualities 
        that are necessary to be a successful entrepreneur.

    G. National Investment Center (NIC) Speech. September 24, 2009

  <bullet> Brief summary: the housing and credit markets, the 
        Administration's initiatives impacting the senior living 
        industry, and observations on the future of the senior living 
        industry.

    H. Roosevelt College Speech, Marshall Bennett Institute of Real 
Estate Keynote: ``Recession, Recovery & Real Estate: A National 
Perspective.'' October 28, 2009

  <bullet> Brief summary: the current state of the economy, the 
        economy's impact on the real estate market, government action 
        to stem the crisis, and suggestions for future public and 
        private sector action.

    I. National Urban Debate League Keynote: ``A Collaborative Approach 
to Improving Public Education.'' April 22, 2010

  <bullet> Brief summary: the importance of education in creating a 
        skilled and competitive workforce, the Administration's 
        workforce development initiatives, and personal commitment to 
        improving public education.

    J. Pension Real Estate Association Speech. October 6, 2010

  <bullet> Brief summary: analysis of the economy and its impact on the 
        real estate market, suggestions on what government policies 
        could create opportunities in real estate.

    K. President's Economic Recovery Advisory Board Meeting Remarks. 
October 4, 2010

  <bullet> Brief summary: the Skills for America's Future initiative--
        collaboration between the private sector, labor, Federal 
        Government agencies, and community colleges to address 
        workforce development challenges.

    L. White House Summit on Community Colleges Remarks. October 5, 
2010

  <bullet> Brief summary: the Skills for America's Future initiative--
        collaboration between the private sector, labor, Federal 
        Government agencies, and community colleges to address 
        workforce development challenges.

    M. White House Summit on Community Colleges Break Out Session 
Remarks. October 5, 2010

  <bullet> Brief summary: the Skills for America's Future initiative--
        collaboration between the private sector, labor, Federal 
        Government agencies, and community colleges to address 
        workforce development challenges.

    N. Address to Association of Community College Trustees, Opening 
Session of the 2011 Community College National Legislative Summit 
Speech. February 14, 2011

  <bullet> Brief summary: the Skills for America's Future initiative, 
        specifically the importance of community colleges and how they 
        can work with the private sector, labor, and government to 
        create a workforce with the skills needed to succeed in today's 
        economy.

    O. Acceptance Speech, 2011 Recipient of the Ernest C. Arbuckle 
Award. March 2, 2011

  <bullet> Brief summary: the importance of workforce development, 
        including the Skills for America's Future initiative, as well 
        as personal commitment to improving public education.

    P. Urban Land Institute. April 27, 2011

  <bullet> Brief summary: personal influences, the key attributes of 
        being a leader, guidelines for success, and the Chicago real 
        estate market.

    Q. Automotive Communities Consortium Meeting, Indianapolis. 
September 6, 2011

  <bullet> Brief summary: the importance of workforce development, the 
        Skills for America's Future initiative, and how the initiative 
        can work with organizations like the Automotive Communities 
        Consortium.

    R. 10,000 Small Businesses Advisory Council Press Conference with 
Mayor Rahm Emanuel. September 13, 2011

  <bullet> Brief summary: the Skills for America's Future initiative 
        and the important role of community colleges.

    S. DLA Piper Real Estate Summit: Suggested Talking Points for a 
panel entitled ``What's Really Happening in Washington.'' October 4, 
2011

  <bullet> Brief summary: the importance of travel and tourism to the 
        U.S. economy, what the U.S. government can do to boost travel 
        and tourism, and the potential role that green jobs can play in 
        the economic recovery.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I appeared as a witness before the U.S. House of Representatives 
Committee on Financial Services Subcommittee on Capital Markets, 
Insurance and Government Sponsored Enterprises regarding ``The Future 
of Terrorism Insurance'' on July 27, 2005.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have over 25 years of management experience in industries 
including real estate, finance, and hospitality, and I have been an 
entrepreneur who has built businesses from the ground up. I know what 
it takes to create jobs. If confirmed, I will apply the skills and 
experience I have gained in the private sector to my work as Commerce 
Secretary to help American businesses and workers achieve success in 
the global marketplace.
    Additionally, I have had the opportunity to serve our Nation 
through my work on the President's Council on Jobs and Competitiveness 
and the President's Economic Recovery Advisory Board. After recognizing 
the critical importance of a skilled workforce, I also helped launch 
Skills for America's Future, a program aimed at filling the millions of 
open positions across the U.S. by linking about 40 employers with over 
200 community colleges.
    I am honored to be nominated and would like to serve as Commerce 
Secretary because I believe my background and experience will enable to 
me to contribute to the work the Commerce Department does every day to 
promote economic growth and job creation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Twenty-five years of business experience gives me a solid 
foundation to manage the Department of Commerce. I am chair or former 
chair of seven different companies with responsibility for thousands of 
employees and for investments across the globe. I have also founded or 
co-founded five different companies, and served on five corporate 
boards and those of numerous nonprofits. I believe the top executive at 
any organization, whether it is a business or the Commerce Department, 
must take full responsibility for wise and sound employee and financial 
management.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Fulfilling the Commerce Department's vital mission to 
        promote jobs and growth in a budget constrained environment. If 
        confirmed, I will make certain that the Commerce Department 
        continues to lead the President's agenda in promoting U.S. 
        manufacturing, innovation, exports, and investment in the U.S. 
        by U.S. and foreign companies. Commerce also plays a vital role 
        in scientific research, providing economic data, and weather 
        and climate information that are the foundations of innovation 
        and business and government decision making. In a budget 
        constrained environment, this leadership requires sound 
        management, strategic vision, prioritization and close 
        consultation with stakeholders and Congress.

        2. Raising awareness of the Department's services and 
        strengthening partnerships with businesses and communities. I 
        believe the Commerce Department performs many valuable services 
        that enable businesses and workers to achieve success in the 
        global marketplace. These include promoting exports of U.S. 
        goods and services, safeguarding intellectual property, 
        enforcing our trade laws to enable American workers and 
        companies to compete on a level playing field, and investing in 
        R&D and infrastructure, to name a few. If confirmed as 
        Secretary, one of my main responsibilities will be to 
        communicate broadly the value of the Department's many services 
        and functions to enable the Department to reach new businesses 
        and promote economic growth.

        Strengthening partnerships with businesses and communities will 
        also improve the delivery and impact of the Department's 
        services. Partnerships with communities, businesses, and 
        vocational and research institutions that promote the 
        Department's priorities are already a hallmark of many 
        Department of Commerce programs. If confirmed, I will work with 
        Congress and all stakeholders to ensure these partnerships are 
        effective in creating good jobs that keep U.S. companies, 
        institutions and workers at the cutting edge of innovation and 
        competitiveness.

        3. Continue improvements to the Commerce Department's 
        operational management and efficiency. At the operational 
        level, the Commerce Department reduced administrative costs by 
        $185 million in FY12, an estimated $176 million in FY13, and a 
        projected $194 million in Fiscal Year 2014. Especially in the 
        current budget environment, such administrative savings are 
        necessary to achieving Commerce's mission. Looking ahead, 
        Commerce must continue to implement reforms to operate more 
        efficiently. If confirmed, I will continue to focus on getting 
        the most out of the taxpayers' dollars by engaging with 
        employees and stakeholders on ways to achieve greater 
        efficiency and asking tough questions of senior managers at 
        every opportunity.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I participate in the following: (1) the Pritzker Realty Group, 
L.L.C. 401(k) plan ($1,223,835); and (2) the Wm. Wrigley Jr. Co. 
deferred compensation plan, which will become available to me in 2020 
($102,053.24).
    I also own 8,197 shares of Hyatt Hotels Corporation Class A Common 
Stock, (restricted stock units) with Hyatt Hotels Corporation pursuant 
to the Hyatt Hotels Corporation Non-Employee Director Compensation 
Program & the Hyatt Hotels Corporation Deferred Compensation Plan for 
Directors. The restricted units will be settled in Class A Common Stock 
upon the termination of my service as a Director.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I appeared as a witness before the U.S. House of Representatives 
Committee on Financial Services Subcommittee on Capital Markets, 
Insurance and Government Sponsored Enterprises regarding ``The Future 
of Terrorism Insurance'' on July 27, 2005.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes, See Exhibit C(3)--In addition, I have been associated with a 
number of corporations and other entities and, from time to time, such 
entities (including, in some instances, their directors, officers and 
employees) have been involved, in the ordinary course, in judicial or 
regulatory proceedings relating to their businesses.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
              Exhibit A(9)--Resume of Penny S. Pritzker
Education

        Harvard College, Cambridge, MA
        1981--Bachelors

        Stanford Business School/Stanford Law School, Palo Alto, CA
        1985--MBA/JD
Work History

    2011-Present

        Horton Trust Company LLC
        300 N. LaSalle, Suite 1500
        Chicago, IL 60654
        Position: Vice President--Investments

    2010-Present

        PSP Capital Partners, L.L.C.
        300 N. LaSalle. Suite 1500
        Chicago, IL 60654
        Position: Chairman

    2009-Present

        Pritzker Realty Group, L.L.C.
        300 N. LaSalle, Suite 1500
        Chicago, IL 60654
        Position: Chairman

    2009-Present

        Artemis Real Estate Partners, L.L.C.
        5425 Wisconsin Avenue
        Suite 802
        Chevy Chase, MD 20815
        Position: Chairman and Co-Founder

    2004-2012

        TransUnion
        555 West Jackson, 7th Floor
        Chicago, IL 60606
        Position: Chairman

    2003-2011

        The Pritzker Organization, L.L.C.
        71 South Wacker Drive, Suite 4700
        Chicago, IL 60606
        Position: Consultant

    2003-2008

        Marmon Holdings, Inc.
        225 West Washington
        Chicago, IL 60606
        Position: Consultant

    2003-Present

        Hyatt Hotels Corporation (Global Hyatt Corporation)
        71 South Wacker Drive
        Chicago, IL 60606
        Position: Consultant/Board Member

    2003-2011

        Jan Breyer--Trustee (Trusts f/b/o various members of the 
        Pritzker Family)
        71 South Wacker Drive, Suite 4700
        Chicago, IL 60606
        Position: Consultant

    2004-2011

        CIBC Trust Company (Bahamas) Limited
        Goodmans Bay Corporate Center
        West Bay Street
        Nassau, Bahamas
        Position: Consultant

    1998-2011

        Pritzker Realty Group, L.P.
        71 South Wacker Drive, Suite 4700
        Chicago, IL 60606
        Position: President & CEO

    1987-2011

        CC Development Group, Inc. and Classic Residence Management 
        Limited Partnership--d/b/a Vi
        71 South Wacker Drive
        Chicago, IL 60606
        Position: Chairman

    1987-2008

        Pritzker & Pritzker
        200 West Madison Street
        Chicago, IL 60606
        Position: Partner (Share of Profit/Loss)

    1985-1987

        Hyatt Development Corporation
        200 West Madison
        Chicago, IL 60606
        Position: Manager/General Analyst
                                 ______
                                 
    Penny Pritzker is a civic and business leader. An active investor, 
Ms, Pritzker is founder, chairman and CEO of PSP Capital Partners and 
its affiliate, Pritzker Realty Group (PRG), as well as chairman and co-
founder of Artemis Real Estate Partners.
    PSP Capital Partners, headquartered in Chicago, is a private, 
family owned firm that invests in dynamic businesses and with funds 
managers worldwide to create long term value. Pritzker Realty Group, an 
operator of and investor in commercial properties, is focused on a 
broad range of direct equity and debt investments in real estate 
assets, portfolios and joint ventures. Artemis Real Estate Partners, 
located in the Washington D.C. area, is a real estate investment 
company that manages institutional capital to generate attractive, 
risk-adjusted returns.
    With more than 25 years of experience in the real estate, 
hospitality, senior living, financial services and private equity 
industries, Ms. Pritzker previously developed such diverse companies as 
Vi (formerly Classic Residence by Hyatt), a leader in luxury living for 
older adults, The Parking Spot, a large U.S. network of off-site 
airport parking facilities, and Centergate Residential, a vertically-
integrated, multifamily development, investment and management company.
    President Obama appointed Ms. Pritzker to the President's Council 
for Jobs and Competitiveness which advises the Administration on 
economic growth and job creation. Ms. Pritzker previously served on the 
President's Economic Recovery Advisory Board. She was National Co-chair 
of Obama for America 2012 and was National Finance Chair of the 2008 
Barack Obama for President Campaign.
    She serves on the board of Hyatt Hotels Corporation. She's a former 
board member of the Wm. Wrigley, Jr. Company, Marmon Group and LaSalle 
Bank Corporation. She's past chairman of TransUnion, a global financial 
services information company.
    Much of Ms. Pritzker's civic work focuses on public education. She 
was a member of the Chicago Board of Education from June 2011 through 
March 2013. She's advisory board chairman of Skills for America's 
Future, The Aspen Institute. SAF is a national initiative that brings 
together businesses, community colleges and others to prepare workers 
for 21st century jobs. In 2012, she helped launch Skills for 
Chicagoland's Future, the first city model of SAF. She's past chair of 
the Chicago Public Education Fund, the first venture philanthropy to 
raise private equity to invest in public schools. She and her husband, 
Dr. Bryan Traubert, through The Pritzker Traubert Family Foundation, 
fund innovative initiatives to improve public education and strengthen 
school leadership. As well, she serves on the Civic Committee of the 
Commercial Club of Chicago.
    Ms. Pritzker is a board member of the Council on Foreign Relations 
and of The Economic Club of Chicago. She serves as trustee of Stanford 
University and of the John F. Kennedy Center for the Performing Arts. 
She's a newly elected member of the American Academy of Arts and 
Sciences. She's an advisory board member of Brookings institution's 
Hamilton Project, a former chairman of the board of the Museum of 
Contemporary Art in Chicago, and a former member of the Harvard 
University Board of Overseers.
    Ms. Pritzker earned her bachelor's degree in economics from Harvard 
University and J.D. and M.B.A. degrees from Stanford University.
                                 ______
                                 
Exhibit A(11)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Exhibit A(12)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Exhibit A(14)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Exhibit C(3)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Ms. Pritzker. I will ask the first 
one, and it relates to cybersecurity, which is sort of 
embarrassing, I think, for the Congress because for four years 
now, all the defense and intelligence people have declared it 
the greatest national threat to our security. Not Al-Qaeda, not 
other threats, but cybersecurity coming from computers. We made 
computers, now we all use them, and now they are threatening 
us.
    So we are trying to put together a cybersecurity bill. 
There are three committees that have jurisdiction. We are one 
of them. And the Department of Commerce obviously plays a very 
key role in a wide range of cybersecurity efforts, including 
setting international standards.
    You will be conducting technical research and working with 
businesses to improve risk management. In fact, NIST is 
currently leading the effort with the approval of all parties 
so far. Not that many people know NIST, but it is just 
incredible the brains that they have over there and the 
experience that they have. It is an extraordinary place.
    They are leading the effort to develop a cybersecurity 
framework within industry to protect our most critical 
infrastructure from cyber-attack. And that is a tricky subject: 
critical infrastructure.
    Ms. Pritzker. Yes.
    The Chairman. If confirmed, what priority will you give to 
the Department's cybersecurity work, and how will you bring the 
full range of the Department's capabilities to NIST, the Bureau 
of Industry and Security, and the National Trade 
Administration, and NTIA to the problem?
    Ms. Pritzker. Senator, thank you for that question. I 
absolutely understand the threat of cybersecurity. One of the 
businesses that I have been involved in experiences 3.8 
billion--yes, billion--cyber incidents a month. That is three 
times what it experienced 3 years ago. And the complexity of 
those cyber incidents are 50 times greater than it was 3 years 
ago. So I fully appreciate what we are up against here. And if 
I am confirmed, I will work closely with NIST, and use the full 
resources of the Commerce Department to make sure that we help 
develop a cyber-framework, as NIST has been charged with, as 
well as develop a close working relationship with the business 
sector to make sure that we are addressing these cybersecurity 
threats.
    The Chairman. Thank you. I had--I would say to my friend, 
Senator Thune, a very, very good talk with the chairman of the 
appropriate committee handling cybersecurity in the House. And 
we have had lots of conflict over here about, you know, what is 
voluntary, who sets the standard, do you have to meet a certain 
standard, all this kind of thing.
    And as he spoke, I said, every word that you have just said 
to me, I agree with. I have never met him before, and we are 
going to meet. But it is, I think, for the first time I think 
we see a real opportunity of getting a bipartisan cybersecurity 
bill. It will be a miracle if we do it, but as I say, it is the 
greatest national threat.
    I will ask one more question, and this is on forensic 
science. I have a fascination for forensic science, and I am 
finding that some of my fascination is misplaced; that the more 
studies that go on, and NIST is every important in this as 
well, that our system is badly in need of renewal; that there 
are a lot of people who are in prison who should not be in 
prison. There are a lot of people who are not in prison who 
should be in prison, because forensics, which through, you 
know, TV programs we take as absolute--here is a follicle of 
hair, bang, he is guilty, or she is guilty. Well, it is not 
quite that easy, and we are discovering that now.
    So getting forensics right is of enormous importance. So if 
confirmed, what do you see as your role in supporting NIST as 
it collaborates with the Department of Justice to increase the 
reliability of forensic science?
    Ms. Pritzker. Senator, forensic science is something I know 
firsthand. In the State of Illinois, I was involved with making 
sure that we used all the DNA kits, and that they were actually 
evaluated. And that had significant implications on various 
outcomes in our justice system. So I appreciate how important 
it is to get it right because there are consequences of using 
forensic science.
    If I am confirmed as Secretary of Commerce, I will work 
with NIST and the entire Commerce Department to make sure that 
we bring to the forefront the best science and that we are 
working with the Department of Justice to bring that forward as 
quickly as possible.
    The Chairman. But it is stunning, is it not, that for a 
couple of decades we thought that it was an absolute science. 
It was just clear. You look through the microscope, you saw 
what you saw, and then you made your judgment from that. And it 
just does not work that way. So, I think it is not talked about 
much in public discussion, but I think getting forensic science 
up to date is of enormous importance. So I appreciate your 
answer.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Ms. Pritzker, the 
justifiable public outrage over the actions taken by the IRS 
against conservative organizations underscores how critical it 
is for government leaders to scrupulously honor the public 
trust. My question is, what, if anything, can you pledge this 
committee regarding your commitment to safeguard the trust that 
would be bestowed upon you as a Cabinet Secretary?
    Ms. Pritzker. Well, Senator, I think it is important that I 
bring my core values to the table if I am confirmed as 
Secretary of Commerce. And for me, being known as someone who 
is trustworthy, someone of high integrity and high ethics is 
what I strive to be. And so, if I am confirmed, I hope that I 
will set the tone at the Commerce Department, such that the 
taxpayer, and all Americans as well as the Senate and the House 
have trust and full faith in the work of the Commerce 
Department.
    Senator Thune. OK. We have all watched this week with what 
happened in Moore, Oklahoma, and our hearts and prayers go out 
to the people who were struck by that deadly and devastating 
tornado this week. At the same time, we can be grateful that 
the warnings and alerts issued by the Commerce Department's 
National Weather Service helped to save lives.
    As you learn firsthand, if confirmed--you will learn, I 
should say--every department and agency is making tough choices 
in the face of necessary budget cuts. And so it does require 
proper planning and prioritization. It is no longer an option 
to do that.
    Can we have your commitment that if confirmed, you will 
ensure that budget cuts are made in ways that prioritize 
funding for the Department's public safety missions, like the 
delivery of timely warnings about severe weather?
    Ms. Pritzker. Senator, the work of the National Weather 
Service is vital, as we know, to not just property, but, 
frankly, to lives, most importantly, to the lives of Americans. 
We have seen this, as you said, in Oklahoma. We have seen it in 
Hurricane Sandy. We have seen it in the floods that we have 
been experiencing in the Midwest. They remind us of the 
critical mission of saving lives that the National Weather 
Service does.
    If I am confirmed, I will work with the National Weather 
Service to make sure that the impacts on our budgets do not 
impact the critical mission that the National Weather Service 
provides.
    Senator Thune. And can you pledge to us as well that you 
will work with this committee to find efficiencies and ways to 
stretch taxpayer dollars further when it comes to the various 
responsibilities of the Commerce Department?
    Ms. Pritzker. Senator, in my 27 years in business, I have 
had to learn to stretch dollars, and so that is something that 
I, if I am confirmed, have experience in.
    I think the first thing that is required is to put in place 
good leadership throughout the organization that shares the 
same approach, and then work with that leadership to be able to 
identify ways that the Commerce Department can be as effective, 
but more efficient.
    Senator Thune. OK. As I mentioned earlier in my opening 
remarks, some have criticized the Administration as being anti-
business. In 2010, the Chairman of the Business Roundtable and 
COO of Verizon famously said the Administration was fostering 
this, and this is, I quote, ``an increasingly hostile 
environment for investment and job creation.''
    If confirmed, you would bring a track record of 
entrepreneurial activity in the private sector as well as 
service on the President's Jobs Council to the position of 
Secretary. If confirmed, what will you do to foster a more pro-
business attitude within the Administration? And maybe as a 
follow up to that, can you provide some examples of actions 
that you have taken or strategies that you have used 
successfully to create jobs in the private sector?
    Ms. Pritzker. Well, Senator, when the President asked me if 
I was interested in being nominated for this position, we 
discussed very clearly his desire that I serve as a bridge 
between the Administration and the business community. He felt 
that if I could play that role as part of his economic team, 
that the relationship would be improved. And that is something 
that I look forward to working very hard on.
    In terms of examples of when I have created jobs, Senator, 
I started a senior living company that today employs about 
3,500 people. I have started a real estate investment firm that 
today employs dozens of people. I have started a number of 
businesses, as well as grown businesses, and grown the number 
of employees.
    When I think about my job as a business person, the thing 
that made me most nervous was to try and make the best 
decisions that I could because I knew how many lives were 
impacted by those decisions. And the ability to be not just a 
business leader, but a job creator is something that I have 
been very proud of and I will bring that experience to the role 
if I am confirmed as Secretary of Commerce.
    Senator Thune. Thank you. And, Ms. Pritzker, I need to ask 
this question. There has been a lot written about this as you 
know. But with regard to the failure of Superior Bank in 2001, 
it was a bank that was one of the early leaders in subprime 
lending. Some of your defenders have stated that you had no 
active role in management of the bank for 7 years prior to the 
bank's failure. But according to a report issued by the FDIC's 
inspector general, concerns were raised by the Office of Thrift 
Supervision about the bank's mortgage banking practices as 
early as 1993 when you were still Chair of the bank's board.
    In addition, others have pointed out that you continued to 
serve as a board member for Superior Bank's holding company and 
sat on the bank's audit company--or audit committee until its 
failure.
    Could you just tell us what role you played at the bank in 
the years leading up to Superior Bank's failure in 2001?
    Ms. Pritzker. Well, Senator, thank you for giving me the 
opportunity to tell the story.
    So, my Uncle Jay and a friend of his bought a bank in 1989. 
It was a failed bank. I was never an officer of the bank, nor 
was I involved in management. I was chairman of the board from 
1991 until 1994, when the primary purpose or activity at the 
bank was to clean up the balance sheet of the bank, which had a 
lot of problem loans. I stepped down as chairman of the bank, 
and the bank maintained its own separate bank board, seven 
years before the bank failed.
    Regulators concluded in 2000 that certain assets on the 
bank's balance sheet were overvalued after a change in 
accounting rules. On the holding company, what one looks at is 
the balance sheet and the financial statements, and deals with 
all the subsidiaries of the holding company.
    Unfortunately, when the problems arose, my uncle had 
recently passed away. So I stepped in on behalf of the 50 
percent ownership of my family to try to salvage the situation. 
Unfortunately, those negotiations failed and the bank failed. 
And so then, shortly thereafter, I went to the FDIC 
voluntarily, as the family only owned 50 percent of the bank. 
But I voluntarily went to the FDIC and said, this was post-9/
11, and that I come from a family that is very patriotic. And I 
said to the head of the FDIC, this country has been very good 
to our family, and we need to make this situation right. We 
would like to negotiate something to make this right for the 
depositors. And that negotiation ensued, and my family 
voluntarily agreed to pay $450 million.
    I was not on the audit committee of the board. That is 
something that is not right. And it was the right thing for us 
to do both for the depositors and for us as a family.
    Senator Thune. Let me just--a quick follow-up, if I might--
--
    Ms. Pritzker. Sure.
    Senator Thune.--just a minute here, Mr. Chairman. So 
ultimately there were a number of the bank's uninsured 
depositors that had claims that they lost over $100,000 worth 
of savings, including one who reportedly deposited her entire 
retirement account with Superior a month before it failed.
    My question is, and it is two parts. What do you have to 
say to those depositors who lost significant sums of money 
because of this venture, and what lessons did you learn from 
your experience at Superior Bank that will inform your role as 
Secretary of Commerce, if you are confirmed?
    Ms. Pritzker. Well, Senator, I regret the failure of 
Superior Bank. It is--it was not an outcome or a situation that 
I am--you know, I feel very badly about that.
    The lessons that I have learned are really about good 
management, good governance structure, the importance of 
diversification and risk management, and transparency.
    Senator Thune. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, and welcome, Ms. 
Pritzker.
    Ms. Pritzker. Thank you, Senator.
    Senator Warner. My hope is that this committee will 
recommend you and that you will be able to serve, I think, as 
someone who--a deep background in business. This is a voice 
that will be needed in the Administration and will help us 
again--help this economy recover, and focus again on greater 
job creation. Toward that end, I want to raise a couple of 
quick questions.
    One, one of the areas that will not directly fall within--
at the Department, but down a bit, is the National 
Telecommunications and Information Administration, NTIA, and 
part of that was spectrum management. The President has laid 
out a very ambitious goal to try to get 500 megahertz spectrum 
available over the next 10 years.
    I would like for you to speak a little bit about how we can 
make sure that we keep that on track. And one of our challenges 
is to make sure that our Federal entities are a little more 
responsive in terms of spectrum sharing and trying to make sure 
that we take full opportunity and get full economy-wide value 
of this public asset. I would like you to speak to that issue, 
if you might.
    Ms. Pritzker. Well, Senator, I support your belief in the 
President's effort to try to find the 500 megahertz of spectrum 
to make available for commercial use. It is my understanding 
that, at this point, NTIA has made available from the 
government side about 100 megahertz of spectrum.
    Now we have to look harder and at the various 
opportunities. Spectrum sharing is something that is, I know, a 
high priority for the NTIA. If I am confirmed, I will continue 
to look and see how we can find more spectrum that can be made 
available for commercial use.
    I appreciate how important it is that we have spectrum 
available for the explosion of the wireless world that we are 
all living in.
    Senator Warner. Well, I might just add, I know there is 
some spectrum in that 1755 to 1780 megahertz range, that 25 
megahertz of spectrum that we could move quicker on. I will not 
ask you to speak to that today. We are just starting to get 
into the weeds already, but there have been some that say let 
us take a bigger block. We ought to take what we can while we 
can, and move forward on that.
    Another area that you are going to have at least oversight 
over is the Patent and Trade Office. I think we are all 
concerned of the increased amount of litigation in the patent 
field. I think we are all concerned that entrepreneurs are 
victims more and more often of patent trolls. I think we have 
seen unfortunately in my old industries massive allocations of 
capital to basically build patent arsenals that could be better 
utilized in terms of innovative and breakthrough technology 
rather than simply building up arsenals to--in what could be, 
frankly, litigation wars.
    I do not know if you might want to have some general 
comments about what we can do to try to make sure that we get 
better ideas into the marketplace and try to decrease the--what 
I think is the dramatic increase of patent litigation, much of 
it not geared at real innovation protection, but really just 
about trying to sometimes transfer wealth between large 
entities.
    Ms. Pritzker. Well, Senator, I share your concern about 
that.
    In terms of innovation, as an entrepreneur, I know that 
time to market and speed to market are so important. And the 
Patent Office and the patent reform legislation that you all 
passed is extremely important in that way, and in helping the 
Patent Office become more and more efficient.
    In terms of the large amount of litigation that seems to be 
emanating from various non-producing organizations, that is a 
real challenge and something that I need to look into more, and 
if I am confirmed, something that I would focus on.
    Senator Warner. Two other quick areas. One, and I just--
this is a more editorial comment than specific question. But, 
you know, the Commerce Department has a wide array of programs. 
I candidly believe this is an agency that is ripe for program 
consolidation and review. We need to be thinking smarter. I 
personally believe that we ought to give the President's--this 
President and future presidents the ability that any Governor 
has had to do executive reorganization. I will not open that 
can of worms at this hearing today, but my hope would be is 
that you will come in with a fresh look--an entrepreneur's and 
business person's look--at the wide variety of programs within 
the Commerce Department, look at where there can be 
streamlining, look where there can be consolidation, look where 
we can better bang for the buck.
    And I might just, you know, again, editorialize and 
highlight one area that we have worked on and we had an 
opportunity to have a brief conversation about. We do a very 
bad job in this country of supporting insourcing of jobs back 
into America. Most of that economic development activity is 
done at the State and local level. I have been trying to get 
this Administration for years to actually look at how we might 
support State and local economic development efforts at a 
Federal level to bring jobs back into America for a whole host 
of reasons, jobs that had been outsourced over the past few 
years. Companies are looking at bringing manufacturing and 
other production jobs back to this country particularly in 
rural areas.
    My hope is you will, one, as my time ticks down, look at 
streamlining all programmatic areas within the Commerce 
Department, and, two, work with me and other members--this is 
some bipartisan legislation I have actually got with 
Congressman Frank Wolf in the House, at how we can do a better 
job at the Federal level to support insourcing of jobs back 
into this country.
    Ms. Pritzker. Well, Senator, I think insourcing is a great 
opportunity, particularly as you see energy costs falling in 
the United States, and our strong rule of law, our terrific 
labor force, and our great patent protection. So I think there 
is a terrific opportunity. I look forward to working with you 
on that.
    Senator Warner. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warner. I should warn my 
colleagues that the floor is not behaving properly, and they 
are talking about a 12 vote. We are trying to do everything we 
can to get them to push it back. But what I would suggest is on 
my side of the dais here, that we cut our 7 minutes down to 5 
minutes, and the other side of the aisle will have 7 minutes.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you so much, Mr. Chairman. I will 
try to take five to help out here.
    Senator Thune asked you about finding efficiencies. And 
when we had the pleasure of meeting and having a good 
conversation, I also brought up about looking at streamlining 
the Department, looking for efficiencies, and asked if you had 
any examples at that time. Have you thought of any specific 
examples or maybe in different program areas where you would 
look to find some efficiencies?
    Ms. Pritzker. Well, Senator, I commit that I am very 
interested in focusing on this. I have to confess that I have 
been tied up having the pleasure of meeting you and all your 
colleagues, and so I have not been able to dig in yet. But I do 
look forward, if I am confirmed, to having the opportunity to 
do that.
    Senator Fischer. That would be great. Thank you.
    Ms. Pritzker. Thank you.
    Senator Fischer. Also we have a manufacturing sector here 
in this country that has faced challenges for many, many years. 
I believe that we have to level the international playing 
field. If we are going to ensure that our manufacturing sector 
is competitive, I think we have to look at regulations. We have 
to look at trade as well. Would you agree with that?
    Ms. Pritzker. Senator, I agree completely. I think that 
leveling the playing field and making sure that our good 
American companies are able to play globally on a level playing 
field is extremely important.
    Senator Fischer. Would you commit to looking at those 
regulatory policies, and I believe especially the trade 
policies that we have in this country, so that we can ensure 
that we have a more level playing field?
    Ms. Pritzker. Senator, if I am confirmed, I will spend a 
lot of time focused on trade and regulation.
    Senator Fischer. Thank you. I happen to believe that trade 
is vital for not just manufacturing, for ag products as well. 
And I see that as a definite area for growth and job creation, 
so I appreciate your focus on that.
    Senator Warner was asking you about spectrum, and as you 
know from our discussion, that is an important issue, I 
believe, for the country, that we have to look at add spectrum.
    There has been some discussion on how accurate the cost 
estimates have been with regards to spectrum. I believe the 
Department of Defense in the past has estimated that it would 
cost $4.6 billion to clear that 1755 to the 1850 band. And NTIA 
estimates that it is going to cost $18 billion.
    How are we going to have more accurate estimates with that? 
Do you see any way forward?
    Ms. Pritzker. Well, Senator, I must confess I am not 
precisely familiar with that particular band, but I know that 
is something NTIA is very focused on, and if I am confirmed, I 
would work with the head of NTIA to make sure that we are 
getting the best estimates of what it cost if we were to share 
spectrum or move spectrum. I realize the importance of trying 
to make more spectrum available for commercial use. And I 
endorse that endeavor. And so, if confirmed, I will push the 
organization to make sure that we look carefully, and that the 
information is accurate.
    Senator Fischer. Thank you. Thank you very much, and I look 
forward to working with you in the future. Thank you.
    Ms. Pritzker. Thank you, Senator.
    Senator Fischer. Thank you, Mr. Chair.
    The Chairman. That is all?
    [Laughter.]
    Senator Fischer. I am helping you.
    [Laughter.]
    The Chairman. You are, Senator Fischer, especially to 
Senator Blunt, because if he leaves, this is going to be a 
disaster. I see Senator Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Rockefeller. We are always 
prepared to work in a bipartisan fashion in reducing the time, 
at least in questioning Ms. Pritzker.
    I enjoyed our conversation just in the last couple of days, 
and we hit on a couple of topics that I thought were very 
important to the future of America, one being trade. I am a big 
free trader. I know there are folks who believe in fair trade. 
And we had a robust conversation about China, which I think is 
important to consider, from currency issues to enforcing parts 
of our free trade agreements that have already been passed.
    But what comes to my heart very quickly is the issues that 
we face in South Carolina. I believe that South Carolina's 
manufacturing base is a part of the solution for our future. If 
we as Americans do not continue to make things that are 
tangible, we have a very long road ahead of us.
    So Mr. Warner and I will be working on the Subcommittee of 
Competiveness, Innovation, and Export Promotion. I hope that we 
will have many opportunities to work with you as well if you 
are confirmed.
    In South Carolina, we are proving the fact that Americans 
can make things again. We have BMW in the Greenville market. We 
have Boeing that continues to expand in the Charleston market. 
And then we have the second highest tire concentration with 
companies like Michelin, Bridgestone, Continental coming to our 
state as well and expanding.
    And as we consider the topic of insourcing, having jobs 
come back to America, we can look no further than UTC and Otis 
Elevators, that now have a presence in Florence, South 
Carolina, with 400 jobs that have been insourced back.
    My question to you is, I would like to hear from you your 
thoughts on how we can further promote U.S. industry and 
encourage more foreign investment to come to places throughout 
the country, and of course, specifically, South Carolina.
    Ms. Pritzker. Well, Senator, I support your enthusiasm for 
American manufacturing. My family has been in the manufacturing 
business for over 50 years, and my uncle, who ran that effort, 
used to bemoan the fact that we had lost so many manufacturing 
jobs, and that the implications for the United States were not 
good because, as you know and you are well aware, innovation 
comes from being close to the factory floor. I think it is 
something like 72 percent of private R&D dollars are from the 
manufacturing sector, and 90 percent of new patents are from 
the manufacturing sector.
    So, if I am confirmed, bringing manufacturing jobs back to 
the United States will be a high priority. You know, I think 
that we sit in a very competitive position. We as Americans are 
extremely competitive with our low energy costs, with our 
terrific labor force, with our great rule of law, with our 
patent system. I think there is an enormous opportunity to 
really grow and encourage companies to put a new plant in the 
United States. And if I am confirmed as Commerce Secretary, 
that is something that I will work very hard to advocate for.
    Senator Scott. Thank you. The second question really helps 
us bridge the gap and create more opportunities as it relates 
to our ability to track more investment to our country. And 
that has to do with the enforcement of our trade laws.
    Ms. Pritzker. Yes.
    Senator Scott. We certainly see that the enforcement of our 
trade laws is one of the common challenges that we face from 
things like transshipment of U.S. goods to Iran, to protection 
of our pharmaceutical companies' intellectual property, to 
proper classification of imported goods. As Secretary of 
Commerce, if you are confirmed, how would you prioritize the 
enforcement of our trade laws?
    Ms. Pritzker. Well, Senator, I think you have highlighted 
the variety of challenges around our trade laws. We have both 
incoming import challenges with some of our trade laws, as well 
as export challenges. But I think that the Commerce Department, 
if I am confirmed, should focus on both. We cannot afford to 
focus on one and not the other because we need to create a 
level playing field for American corporations globally.
    Senator Scott. Final question, more of a comment. I think 
there is a grand opportunity. One of the things that we have 
done well in South Carolina is the notion of synergy of our 
economic assets, realizing that having one of America's 
greatest ports in Charleston gives us an opportunity to attract 
that industry, like the BMWs and the Boeings. The 
infrastructure needs plus the transportation needs, whether it 
is transit or the Port of Charleston or other ports. With the 
Panamax ships coming through the Panama Canal starting in 2015, 
2016, will provide a real opportunity, a robust opportunity, 
for us to move forward on meeting our expectations of doubling 
our exports over the next few years. I would love to hear your 
comments on that economic synergy.
    Ms. Pritzker. Well, Senator, I agree with you on the 
importance of economic synergy. And if you think about it, only 
1 percent of American corporations actually export today, and 
58 percent of them only export to one country. So imagine if we 
could work both in terms of supporting infrastructure creation, 
but also at the Commerce Department, if I was confirmed, 
working with those companies. What if we had 58 percent 
exporting to two countries, three countries? What if 2 percent 
of American companies were exporting? Think of the job creation 
opportunities associated with that.
    I think that is a great opportunity for the Commerce 
Department. And if I am confirmed, I would definitely focus on 
that.
    Senator Scott. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. I would not have 
thought I had gotten this done before I had to leave, but I am 
glad to get a chance to, one, welcome you to the Committee, 
and, two, welcome what you potentially bring to the Commerce 
Department. I actually think the Acting Secretary has done an 
admirable job under difficult circumstances, and I think that 
this important Department needs somebody who is confirmed, and 
in charge, and ready to take hold. And I am hopeful that we are 
going to see that happen here pretty quickly.
    On transshipment, which Senator Scott mentioned, you know, 
actually it is an issue I have been pretty involved in because 
we have had several companies that get the ruling they need, 
the Chinese or someone else. Most of these cases I am thinking 
of is the Chinese were not in compliance with trade laws. They 
get a sanction against them, and then somehow these same 
products just keep--start coming from somewhere else in a 
different box.
    The Commerce Department has, as a matter of stated policy, 
said that it will not address evasion of duties through 
transshipment. So we have got a bipartisan bill that was 
introduced in the last Congress, the Enforce Act. Whether it is 
that or whatever else you need to address this problem. I hope 
that you will look into this and find out why that would be the 
stated policy of the Commerce Department. Maybe they just think 
they have got too many things to keep track of, but this is a 
problem that many members of the Senate want to work with you 
to help solve.
    Ms. Pritzker. Well, Senator, I am familiar with the 
transshipment problem, but I am not familiar with the statement 
from the Commerce Department. So if I am confirmed, that would 
be something I would look into.
    Senator Blunt. Good. Let us go back to another thing that 
Mr. Scott mentioned, was manufacturing. You mentioned some of 
the advantages we had. Could you talk a little bit about the 
energy potential in the country today and how that may--might 
have an impact on manufacturing?
    Ms. Pritzker. Senator, one of the most significant inputs 
to the cost of manufacturing today is energy costs. Given the 
falling costs of energy in our country, there is an enormous 
opportunity for chemical companies and other significant users 
of energy as they are manufacturing products to place their 
plants here in the United States. If I am confirmed, that would 
be something that I would work to encourage, endorse, and 
support, because manufacturing jobs are good jobs and jobs that 
we want to grow in this country.
    As you know, the importance of being close to the 
manufacturing floor is something that improves the opportunity 
for innovation.
    Senator Blunt. Well, that is good. And as we mentioned the 
other day when we were visiting, I think that there is no more 
logical advocate for good cost-based energy policies than the 
Secretary of Commerce. And I am glad that you are headed in 
that direction and you are thinking as well--trade tax, the 
rule of law.
    Another thing I might mention as I try to not take 
advantage of my--is travel, something you know a lot about. 
Senator Klobuchar and I have been very involved on these travel 
issues. When I was still in the House, we creates something 
that is now called Brand USA, and I think it has great 
potential, but clearly needs somebody in the Department paying 
attention to be sure that everything they do is justified.
    But, you know, foreign travelers are the low-hanging fruit 
for our economy. Again, you probably know more about that than 
anybody in this room, and your sense of how important travel is 
to the economy, and particularly foreign travel, if you want to 
say anything about that.
    Ms. Pritzker. Well, Senator, I appreciate your asking about 
that. You know, unfortunately the United States has lost market 
share in the long haul travel business, and that is something 
that we need to regain. When I was on the President's Jobs 
Council, I spearheaded the effort to reduce visa wait times, 
which were ridiculous, from some of the major countries whose 
citizens want to come and visit and travel throughout the 
United States.
    And we were able to point out to the State Department that 
interviewers for foreign travelers coming to the United States, 
more than pay for themselves. They bring in through visa fees 
around a half a million dollars each, so that if we could just 
create more posts and more interviewers, we would be able to 
increase travel.
    And as you are well aware, Senator, the travel industry 
creates good jobs. I think the average traveler to the United 
States spends about $6,000. So for every family of five that 
wants to come to Disneyworld that is $30,000, which is 
potentially the creation of a new job in this country. So it is 
a really terrific opportunity.
    As for Brand USA, I think Brand USA is a really exciting 
opportunity. I believe half of the money comes from the private 
sector, and half comes from the government to promote travel to 
the United States. And that is something we should be out 
promoting because we are good at this, and it is something that 
is a great source of exports as well as a terrific job creator. 
So I look forward to working on that.
    Senator Blunt. Well, when people travel, the foreign 
travelers stay longer than domestic travelers. They spend more, 
and when they leave, they almost always like us a whole lot 
better than they did when they came.
    [Laughter.]
    Ms. Pritzker. Yes.
    Senator Blunt. And so this has all kinds of positive 
reverberations. And again, in this job, you understand all of 
the impact of this throughout the economy, and look forward to 
working with you on that, assuming you are confirmed.
    Ms. Pritzker. Thank you, Senator.
    Senator Blunt. Thank you, Chairman.
    The Chairman. Thank you, Senator Blunt.
    And now, Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman. 
I note they are even happier if they visit Branson, Missouri, 
correct?
    All right. Well, I want to thank you so much, Ms. Pritzker. 
I enjoyed our meeting and working with you in the past. And 
Senator Blunt and I have worked together extensively on 
tourism, and I appreciate your knowledge. I thought you 
answered that well, so I am not going to go over that again, 
but I appreciate that. I think you know this is a huge 
opportunity for our country to gain jobs, tens of thousands of 
jobs for every point that we gain back of the international 
tourism market. And we are finally headed in the right 
direction.
    When you and I talked, I spoke about the ability of the 
Commerce Secretary, particularly someone with your background, 
to really being an advocate for business as a whole, not just 
the things under your Agency, but that I see this need that we 
have right now for someone to look at, I had suggested to you, 
our top 15, 20 exporting industries, and figure out while they 
all have some things in common, they also each have individual 
things that can help: tourism, the visa wait times, a medical 
device. There are FDA wait times that we are working on to 
solve.
    You literally can go through the list and find unique 
things, and I wondered if you could comment on that, the bigger 
role the Commerce Secretary could play and that you could 
envision yourself playing.
    Ms. Pritzker. Well, Senator, if I am confirmed, the role of 
being an advocate for American business is one that I will take 
absolutely seriously. I think it is one of the main reasons 
that I am really interested in this job, and I think the 
President felt that I could bring all the experience that I 
have had in a variety of businesses, and my ability to relate 
to businesses. As you said, there are many, many industries, 
and the Department has the ability to work on helping our 
companies to export or gain technical knowledge so that they 
can continue to innovate, or to get access to a patent more 
quickly so that their time to market is reduced. Those are some 
of the areas that I look forward to having the opportunity to 
focus on.
    Senator Klobuchar. Thank you very much. You mentioned 
exports, and I think that the--part of this is, of course, the 
Foreign Commercial Service, and I just hope you will be 
committed to continuing that. We would love to see it expanded 
every time we get some new business for one of our small-and 
medium-sized businesses that cannot afford to have their own 
trade expert on Morocco, but can do a lot of business there. We 
actually have a trade surplus for Morocco.
    I think we have a good thing going, and it is really one of 
the best things we can invest in. So I hope you will continue 
to expand that to help those small and medium-sized businesses.
    Ms. Pritzker. Senator, I completely agree with you. I think 
the Foreign Commercial Service is one of the great assets of 
the Commerce Department, among many great assets, and one that 
if I am confirmed, I would look forward to working with and 
encouraging their growth and their continued outreach with not 
just small-and medium-sized businesses, but with all American 
businesses.
    Senator Klobuchar. Some of my colleagues asked you about 
manufacturing, and I just had a hearing on the Joint Economic 
Committee on women in manufacturing, and we had three women in 
business as witnesses. And as the recent book Lean In has 
pointed out, there is a lot of room for women to grow in 
business. Across manufacturing, women only hold 17 percent of 
the board seats, are only 12 percent of the executive officers, 
and are just 6 percent of CEOs.
    And then you go on the front line workers, the share of 
women workers in the manufacturing industry has been declining 
actually, even though we are seeing an upsurge in hiring right 
now since 1990 and is now 27 percent at its lowest level since 
1971.
    And so these are really two things I am getting at. One is, 
as you know, we have job openings right now in manufacturing in 
states like mine that have a 5.4 percent unemployment rate. And 
the manufacturers are trying to get women to go into this with 
the argument, this is no longer your grandpa's manufacturing 
floor anymore. So we have that side of it.
    But then we have just overall in business. You are someone 
that has been successful in business, but how we get more women 
into the boardroom and running companies.
    Ms. Pritzker. Well, I think there are two things I would 
like to comment on, Senator. One is I have spent significant 
time focused on the skills issue and the skills mismatch in our 
country, and so making sure that Americans are well trained for 
the jobs that are open is a personal priority. In terms of 
making sure that we have more women in manufacturing, it starts 
with encouraging more women to get a STEM education, and that 
is something I have been involved with in my role on the Board 
of Stanford and on the Board of Harvard. I have been very much 
a proponent of that.
    And you see much greater mentorship occurring, which is a 
significant part of how I think that we can end up with more 
women in leadership in manufacturing.
    Senator Klobuchar. Very good.
    Ms. Pritzker. So I look forward to working with you on 
that.
    Senator Klobuchar. One last very quick question. The 
Commerce Department and the Economic Statistics Administration, 
as you know, provide critical up-to-date information about the 
social and economic needs of communities. And that all sounds 
like a bunch of gobbledygook, but most people are not aware 
that business leaders heavily rely on this for demographic and 
socioeconomic data so they can do business. It is a tool for 
market evaluation. And I just want to get your commitment 
because I know these kind of surveys can be under attack at 
times, but your understanding that they go to very good use to 
help the American economy and people in business.
    Ms. Pritzker. Well, Senator, I am well aware of the 
importance of the data that is collected because some of the 
businesses that I founded, particularly our senior living 
business, totally relies upon the kind of demographic and 
income data that is collected in those surveys. For example, 
where we locate our properties because you do not want to build 
a property and have it not be successful. It depends upon that 
kind of critical data.
    So I have an enormous appreciation for that work, and if I 
am confirmed, I will continue to make sure that data collection 
is effective.
    Senator Klobuchar. Thank you. And thank you for the 
commitment earlier with Senator Warner to continue the strong 
Patent Office. We have one company, 3M, that literally has so 
many patents, they have a patent for every employee. And so it 
is very important for our State, and we want to continue that 
in a strong way, as well as look at some of the patent troll 
issues with litigation. So, thank you.
    Ms. Pritzker. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Cowan, to be followed by Senator Cantwell.

               STATEMENT OF HON. WILLIAM COWAN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Cowan. Thank you, Mr. Chairman, Ranking Member 
Thune, Secretary-designate Pritzker. Good to see you again. 
Welcome to the Committee. Congratulations on your nomination, 
and thank you and your family for your willingness to serve. 
Obviously I and several in the Committee as a whole, I think, 
are confident that the breadth and depth of your experience in, 
both the private and the public sector, will be a tremendous 
added bonus to the Commerce Department at this important time 
in our Nation's history.
    You will be taking over the Department at a critical time 
for our economy, and I hope that as Secretary you will use all 
your experiences to create jobs and expand economic opportunity 
in the Nation.
    You know, from our conversation the other day and your 
impressive resume, I know that you are well prepared to lead 
the Department, which is encouraging. And it is important to us 
in Massachusetts because we have some challenges right now, one 
of which you and I spent an extensive amount talking about. And 
it will surprise no one on this committee that I now wish to 
engage you on the issue of the fishing industry.
    Ms. Pritzker. Yes.
    [Laughter.]
    Senator Cowan. As you know, the fishing industry in 
Massachusetts is 300 years strong, and it is not just the boats 
and the men and women who serve on those, but the seaside 
businesses that are important to us, but are also struggling 
because of changes in the fishing economy.
    Right now, fishermen in the northeast are living under a 77 
percent cut in the number of fish they can catch, and the 
situation imperils the very existence of the industry. You and 
discussed this last week.
    And as I mentioned to you, there are some challenges, some 
of which are manmade, and that the fishing industry in my neck 
of the woods believe that they have not had a good partner in 
the Commerce Department, and NOAA in particular, in recent 
years. And I talked to you about the need for Commerce and NOAA 
to have a much more comprehensive and thoughtful and inclusive 
plan with our fishing industry to help save this industry and 
bridge a gap toward its--a brighter future.
    And so I want to ask at this time if you are willing to 
make a commitment to work with those of us who represent the 
great and proud fishing industry in the northeast to plan for a 
brighter future and to address the realities that we are facing 
right now, and help us find a way forward collaboratively, 
because we believe that has been missing.
    Ms. Pritzker. Senator, I have great respect for the 
fishermen all over our country, and partnerships with those in 
the northeast. Fishermen are entrepreneurs, and I have affinity 
for entrepreneurship. There are also many, many fishermen in 
family businesses. And heaven knows I come out of a family 
business organization. So I appreciate the challenges that the 
fishermen are facing in the northeast.
    If I am confirmed as Secretary of Commerce, NOAA needs to 
improve its relationship with fishermen and with the citizens 
in the northeast so that there is more understanding, better 
communication, greater transparency, and more trust so that if 
decisions are being made, there is an understanding really of 
what exactly is the data.
    And so, Senator, I look forward to working with you on 
that. We discussed that when we were together, and it is 
something that is very important to me.
    Senator Cowan. Thank you for that. And I, of course, would 
invite you to come up to Gloucester, New Bedford, any of our 
ports at any time to meet with our fishing community and the 
municipal leaders who are so supportive of that industry. And I 
am happy to host you in that regard.
    Ms. Pritzker. Well, thank you, Senator, for the offer. I 
appreciate it.
    Senator Cowan. If I could just go back to a topic that has 
been raised by the chairman and a few issues, the issue of 
cybersecurity. As a business leader yourself, and you mentioned 
the cyber hits that your current business has received in the 
billions. You know the importance of this issue.
    One of the issues as we grapple with this in Congress is 
what is the best way to move forward constructively, 
particularly around the issue of information sharing between 
the private and the public sector? And it seems to be a 
particular sticking point. And I am wondering what is your 
viewpoint on that particular issue, both as a business owner 
and as someone who is going to be charged with leading the 
Commerce Department?
    Ms. Pritzker. Well, Senator, I think it is very important, 
first, to begin the dialogue with the business community and 
explain to them really what is at stake. Each business 
understands what is at stake for them individually, but I think 
we need to discuss what is at stake in terms of our critical 
infrastructure, things that businesses maybe at times take for 
granted. We should talk about how we need to come together, and 
it is important that they have a seat at the table. We should 
invite the private sector to be involved in the dialogues 
around creating a framework. And they need to take advantage of 
that, and that would be something that I will promote and 
advocate for.
    Senator Cowan. Great. And I would encourage you, again, 
during your visit to Massachusetts, you might want to visit 
with some of our elite higher ed institutions, including your 
alma mater and the folks over at MIT and at Northeastern, where 
you are going to find a wealth of experts in the area of 
cybersecurity. I am sure they would be willing to work with you 
and the Department to help us find a way forward.
    And with that, I am going to yield the remainder of my 
time, Mr. Chairman, but thank Ms. Pritzker for her willingness 
to serve.
    The Chairman. Senator Cowan, some of us are feeling a 
little hurt because you have declined to invite any of your 
colleagues to go up and look at your fishing.
    [Laughter.]
    The Chairman. I mean, you know, yesterday and today you 
were very clear. But we are just sitting here ready to be 
helpful.
    Senator Cowan. I am--Mr. Chairman, I am penning handwritten 
notes even as I speak to each of you inviting you to the great 
Commonwealth of Massachusetts.
    [Laughter.]
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. I am ready to go. I am not sure they want 
us up there, but I am ready to go.
    [Laughter.]
    Senator Cantwell. Ms. Pritzker, welcome. Welcome to your 
family. Having been in business myself, I can tell you there 
are many pluses that come to bringing private sector experience 
to the public sector realm, but also you have to face the 
challenges and be accountable for some of the things that 
happened in the private sector, and people bring up all sorts 
of things.
    So my first question is, you know, our state AFL-CIO and 
many others have a boycott of the Alaska National Hyatt. And 
one of the issues is that they are concerned about minimum wage 
jobs or the subcontracting of minimum wage jobs as a way to 
just keep the workforce at a lower rate. And some concerns 
about safety and workload issues.
    So, one of the things you are going to face as Secretary is 
how to maintain and get high wage jobs into our economy. So, do 
you want to comment on the former, or how we do the latter, and 
look forward to----
    Ms. Pritzker. Well, Senator, I have been in business for 27 
years, and I know the cornerstone of a successful business is 
that you have to have a good relationship and a good balance 
between management and labor. There is no success in business 
without a good relationship between management and labor, and I 
support the right of workers to organize if that is what they 
want to do.
    And I think that it is extremely important that, as I said, 
management and labor work closely together on issues of good 
jobs and creating sustainable jobs.
    Senator Cantwell. So this is a--the notion of 
subcontracting out to keep minimum wage jobs as a way to 
maintain a workforce is not something you support.
    Ms. Pritzker. No, Senator.
    Senator Cantwell. OK. And as far as high standards for 
safety and workload issues?
    Ms. Pritzker. Senator, I support high standards for safety, 
absolutely. The workforce is part of one's business family and 
you have to have a business that operates in a way that works 
for everyone--management, labor, all the stakeholders. And to 
me, safety and security of one's labor force and one's 
management is absolutely the number one priority.
    Senator Cantwell. Well, one issue that I would love to see 
you take a leadership role on within the Department, and one 
that you and I had a chance to talk about, and one in which I 
think you could bring a huge private sector focus to that would 
be very, very helpful is this issue that the chairman brought 
up in his opening statement about a weather-ready Nation.
    To think that literally NOAA was getting Weather Service 
information from Europe because they were further ahead--I 
think it was 4 days ahead of predicting what Sandy was going to 
be, than NOAA was capable of. That is because they have 
instituted new technology and used an ensemble model, which 
basically analyzes the storm and information data in a new way, 
and then presents it.
    What do you think you can do to help bring us to a better 
weather-ready Nation and institute new technology? I know that 
we just passed a Sandy bill, and there will be more 
supercomputing time, but this is an issue where we have to keep 
competitive. And the last couple of days just showed us. I 
mean, the difference between knowing 15 minutes ahead of time 
and an hour ahead of time is a huge difference.
    So what do you think you can do to help us modernize that?
    Ms. Pritzker. Senator, we all have been reminded over the 
last several months of the importance of having a top quality 
and best in class Weather Service. Between Hurricane Sandy, 
between the hurricanes in Oklahoma, the flooding in the 
Midwest, we have all seen how our weather can threaten lives as 
well as property. If I am confirmed as Secretary of Commerce, 
making sure that our Weather Service is best in class is 
something that I would make a high priority.
    Senator Cantwell. And so do you think that it could include 
working with the Department of Defense? Part of the issue is 
that they have great satellite technology information, but it 
is often secure. So what I guess I am looking for is your 
leadership ability coming in and bringing agencies together as 
well, and figuring out how to get the best information into 
public officials' hands so that we can do a better job of 
helping people prepare, because the technology is there to know 
the power of these storms.
    Ms. Pritzker. Well, Senator, one of the things I prided 
myself on in my business career is working in partnership with 
others. And so whether it is the weather or many other aspects 
of what the Commerce Department is engaged in, if I am 
confirmed, good partnerships with other agencies would be 
something that I would take very seriously and work hard to 
achieve, particularly on the area of the Weather Service.
    Senator Cantwell. Thank you. And like Senator Cowan, I can 
guarantee you that fish are important.
    Ms. Pritzker. Yes.
    Senator Cantwell. And the late Ron Brown once said that he 
was Secretary of Commerce, but if a member of Congress was 
calling him, he guaranteed it was about fish. And I have the 
same concern and want to know what your thoughts are on the 
Bristol Bay pebble mine, which is a mine that is in Alaska that 
has--basically it is at the head of one of the largest sockeye 
fisheries and the largest Chinook fisheries, which is basically 
the head waters for Puget Sound salmon. So we want to make sure 
that you are going to be very adamant about good science 
leading the way to protecting against undue development that 
might impact those fisheries.
    Ms. Pritzker. Senator, I know the importance of salmon--you 
and I talked about that earlier--to your state and, frankly, to 
our country, and to my dinner plate at times. And finding a 
balance to make sure that we protect the salmon is very 
important to me.
    I do not know the specifics of the mine situation, but if I 
am confirmed, that would be something I would look into.
    Senator Cantwell. Well, I guess what I am interested in is 
whether you will have good science help engaged in the process.
    Ms. Pritzker. Absolutely, Senator. The importance of 
science and technology used throughout the Agency is important, 
particularly in that area.
    Senator Cantwell. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Begich, to be followed by Senator McCaskill, to be 
followed by Senator Cruz.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Ms. Pritzker, for 
being here. Thank you for taking the time to meet with me a few 
days ago. Again, appreciate your willingness to be subjected to 
all these process to be a public servant, so I know that takes 
some time.
    Let me--we talked about several issues, and I actually want 
to follow up on fish because, as you know, Alaska produces the 
wild cod American fish product, about 60 percent, 50-something 
percent of the fish. So we have a huge interest obviously 
economically and otherwise. And I agree with my colleagues that 
the calls you will get will be about fish. You will think they 
are about trade, and about agreements, and tourism, and other 
things. It is going to be about fish. And I want to make that 
clear.
    As the Chair of the Committee that deals with it here, you 
know, we are going to be going through the Magnuson-Stevens 
rewrite, so it is obviously something we will be engaged with 
you on.
    But let me ask you, you know, we are going to lose, or you 
are going to lose, some of your appointed--the National Marine 
Fisheries Services, Eric Schwab, who is now stepping down. And 
there has been a lot of issues to make sure we have good, 
strong leadership there, obviously also in NOAA.
    I guess I want a commitment that you will make this a 
priority as quickly as possible because of the work that we 
have to do on the Magnuson-Stevens reauthorization bill and the 
fisheries issues that are in front of us right now.
    Ms. Pritzker. Well, Senator, one thing I know from my 27 
years in business is it is important to have good expertise 
around me. And so, if I am confirmed, I will want to make sure 
that the Agency has the best in class folks in those positions, 
because I know how important the fishing industry is to you and 
to many of your colleagues here. I will commit to make sure 
that we have the right people in place to work with you on 
this.
    Senator Begich. And the key to me is as quickly as possible 
because----
    Ms. Pritzker. Yes, absolutely.
    Senator Begich.--you are going to have these empty 
positions. And it is, honestly, getting us nervous as we move 
forward with the reauthorization.
    Let me also--we talked a little about satellites, one that 
you are learning quite a bit about. Your role would be to 
manage satellites. And there is a group of independent review 
from the aerospace executives that call the program somewhat 
dysfunctional. That is actually the phrase they used.
    I just make sure that you are committed to looking at this 
program. It is a multi-billion dollar program, as you know. 
Timing is critical. It makes a difference on our weather 
forecasts and when we do them so we do not have to depend on 
other people.
    Will you commit to make sure that you will spend the 
appropriate time to dive into how to make the system better 
than it is today? Lots of it is around allocations or getting 
the resources for them, and helping us understand what we 
should be doing to help make that better.
    Ms. Pritzker. Senator, I thoroughly appreciate the critical 
mission of our satellites, and we have seen how important they 
are to protecting life as well as property over just the last 
week, let alone with the horrible tragedy in Oklahoma, let 
alone with Hurricane Sandy, and with the floods in the Midwest.
    Making sure that we have best in class technology, that we 
can understand what is going on with the weather, and getting 
the information out as quickly as possible and as accurately as 
possible is a very important priority. If I am confirmed as 
Secretary of Commerce, it is something that we will make sure 
to focus on.
    Senator Begich. One area also on satellites, obviously the 
weather. Since 2010, the National Weather Service has lost 
about 300 positions, about 6 percent. Actually in the 
President's Fiscal Year 2014 budget, he eliminates another 103 
positions in the forecast offices, about now an 80 percent 
reduction. There is a hiring freeze in place.
    I can tell you in Alaska, this is now creating some 
problems. We are in flood season. We have severe issues 
occurring already. We are about to hit fire season in many 
parts of the country. We have in Alaska missing entire shifts 
worth of people. Now they are bringing people in on overtime.
    You know running a business that when you start doing 
overtime, there are a lot of costs--fatigue and other costs--
that are hard to measure until something bad happens. And then 
you realize they were working too many hours or the fatigue 
occurred.
    Can I get a commitment from you that you will reexamine the 
decision of the hiring freeze and how they are handling 
furloughs in the Weather Service? To me, the way they--I mean, 
you know, I have run businesses. I ran a city. This is not the 
best way to do it. It is going to have a negative impact on the 
outcome, the product that we need for situations like in 
Oklahoma or Sandy and otherwise.
    Ms. Pritzker. Well, Senator, I share your concern to make 
sure that we have the appropriate staffing, and I am aware that 
NOAA is working to mitigate the impacts of the staffing 
challenges and budget issues on its critical mission. If I am 
confirmed as Secretary of Commerce, making sure that our 
Weather Service is appropriately set up and operational is a 
high priority.
    Senator Begich. Great. Let me go to another issue, and it 
is kind of a selection here. This is one, and we talked about 
this, on the Arctic oil and gas issues and the EIS, the 
environmental impact statement, that NOAA has their 
supplemental draft out right now. It is--it was issued a few 
weeks ago. The definition, when you look at it, it defines it 
almost as if the drilling program is to limit each company to 
only one drill well at a time in the theater, meaning two areas 
of theater, one rig, one well total.
    That is not going to work based on the 600 leases that we 
have up there. Basically by that action, you could economically 
determine the outcome, which is nothing will happen.
    So will you--and I know we talked about this. Again, I am 
not asking for your position because you need to be confirmed 
first. But will give some assurances, at least here, that you 
will work to ensure that the people who have leases up there 
can fully utilize those leases under the conditions we set 
obviously and the environmental conditions and everything else, 
but not be--and this is my phrase. It is not, I think, what 
NOAA was doing, but back dooring it by collapsing their ability 
to move forward by saying, well, sorry, you can only do one, 
that is it. Well, we need them to look at that whole air shed 
at one time, not just single applications that are coming in.
    Would you commit to look at the broader picture and making 
sure that we do not something that negatively impacts their 
ability to move forward on oil and gas exploration of the 
Arctic?
    Ms. Pritzker. Senator, I know how important oil and gas 
exploration is to your state as well as to the country, and it 
is something I would need to look into. I just am not yet 
familiar with it. But I will look into it, and I look forward 
to working with you on that.
    Senator Begich. Fantastic. I will leave it at that, and I 
want to just say that when you start to talk about Pebble Mine, 
a mine in Alaska, we would encourage you to talk to us also. I 
appreciate my colleagues' interest in this issue. There is only 
one state that has the strongest interest. It is us, so I will 
leave----
    Ms. Pritzker. Senator, I will try to speak--make sure that 
all stakeholders have a voice.
    Senator Begich. Very good. And as the chairman always 
knows, we invite you to Alaska.
    [Laughter.]
    Ms. Pritzker. Appreciate that.
    The Chairman. Thank you, Senator Begich.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Ms. Pritzker, for being here 
today. I am aware that for a lot of good reasons, a lot of 
Americans have a very cynical view of the Federal workforce and 
us. They look at people who work for the Federal Government at 
large and make assumptions that many times are unfair that 
there are Federal employees that are bureaucratic bozos, and 
not working very hard, and making way too much money, and 
soaking off the taxpayers.
    And I have got to tell you, I find it very refreshing to 
find someone who is stepping up like you are in this position. 
I think it is pretty obvious that you are not coming to this 
job for a paycheck. I think it is pretty obvious you are not 
coming to relax and soak off the taxpayers. You are not coming 
because you see this as an easy challenge. I think you are 
really coming because you have a desire to serve this country, 
and your business background is one that I think can serve this 
country very well.
    The President has proposed to do away with the Commerce 
Department and combine the Commerce Department, the Small 
Business Administration, USTR, and other agencies that have 
various intersections with business in this country. Proposing 
to do away with part of the Federal Government is difficult. 
And I would ask you, do you have some ideas on how your service 
in this job could help move that goal forward in terms of 
identifying some strong bipartisan arguments that can made? And 
one of the problems is we have lots of committees that deal 
with these various agencies that are not excited about the idea 
of us trying to avoid some of the duplication and overlap.
    I am wondering if you have given that any thought and if 
you see, based on your business background, when sometimes 
streamlining, and selling, and merging are essential, because 
you have the discipline of a bottom line. Unfortunately we do 
not have a bottom line discipline in Washington. And I wonder 
if you have any ideas about that.
    Ms. Pritzker. Senator, I appreciate your question. I 
support the President's request for reorganization authority. I 
know his objective is to try to make the government more 
streamlined, more effective, and more efficient. I am not 
exactly sure how I personally, if I am confirmed as Secretary 
of Commerce, could assist in that effort. If Congress were to 
give the President that authority, I would work to support him 
and give him my best advice, which is what he has asked me to 
do in this job.
    In the meantime, if I am confirmed, I would look to figure 
out how we can streamline and be more effective and efficient 
within the Department's current setup.
    Senator McCaskill. Well, I would look forward to working 
with you on an ongoing basis, particularly when you find issues 
of duplication and overlap. My colleague, Senator Coburn, has 
worked hard on this duplication issue. And it is real. I mean, 
you know, some people on my side of the aisle do not want to 
confront it, but there is duplication. I mean, just look at the 
broadband issue.
    Ms. Pritzker. Right.
    Senator McCaskill. We have it in agriculture, we have it in 
Commerce, two programs with ostensibly the same goals, but two 
different sets of personnel, and rules, and procedures dealing 
with the pots of money in both places. So I would love to work 
with you as you identify with an eye towards a business mindset 
how we could whack away a little bit.
    Ms. Pritzker. Senator, I look forward to working with you 
on that.
    Senator McCaskill. The other thing I just want to mention 
to you is that I have discovered there was an idea a while ago 
about creating a Federal workforce called Senior Executive 
Service. And Senior Executive Service was created ostensibly to 
develop great talent in the Federal Government to compete with 
the private sector. And the idea is these would be highly 
qualified employees with a broad background and knowledge, and 
that they would move around the government basically with a lot 
of excellence, helping us do a better job performing the 
services that we must as the government.
    I do not think that has actually come to pass. I think that 
most of the Senior Executive Service in the Federal Government 
is not moving much. I think many of them are burrowed in in 
agencies. And it has come to my attention that they have 
continued to get very, very large bonuses, even in this 
economic climate.
    I have put in a piece of legislation to stop the bonuses to 
Senior Executive Services employees. By the way, the average 
bonus here is somewhere--it is five figures. They are healthy 
bonuses for the government. I think the average bonus was 
around $16,000, and the salaries for these people range between 
$119,000 and $180,000 a year. So these are la creeme de la 
creeme of--even though they only make up, I think, 1 percent of 
the work force, I think they were getting certainly more than 
that in terms of bonuses they were receiving.
    And what I really found troubling about it is that in some 
agencies, everyone in SES got the bonus. There was no 
performance evaluation going on. It was a rite of passage. It 
was pro forma. You got your bonus.
    I would ask you to take a look at SES in the Commerce 
Department, and particularly the legislation I have introduced 
would prohibit those bonuses from being given in the 
environment of sequestration, because most--we have got line 
employees that are having to take days off without pay, and 
then we have this little upper crust of Federal employees that 
are still getting five figure bonuses. And that does not, I 
think, make sense from a business perspective.
    So I would love you to take a look at the SESs in the 
Commerce Department and look at the bonus proposals and 
procedures, and get back to my office as to what you think--I 
think GSA has reformed it on their own. I think they have quit 
doing it when we discovered this. And I would love to see the 
Commerce Department follow suit.
    Ms. Pritzker. Well, thank you, Senator. I am not familiar 
with SES, but I look forward to learning about it. And 
certainly I know from my private sector days that bonuses 
should be earned if one has performed and not otherwise. And 
certainly at a time of a tight government budget, we need to 
watch every penny and make sure that it is appropriately spent. 
So I will look into it and learn more.
    Senator McCaskill. Welcome to the pit.
    Ms. Pritzker. Thank you.
    Senator McCaskill. Thank you, Ms. Pritzker.
    The Chairman. Thank you, Senator McCaskill.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman, and thank you, Ms. 
Pritzker, for joining us today, for answering these questions. 
Thank you for coming by my office this week and visiting. I 
enjoyed the chance to visit.
    Ms. Pritzker. Yes. Me, too. Thank you.
    Senator Cruz. Let me say at the outset that in a bipartisan 
note, I want to echo the comments that Senator McCaskill just 
raised about looking at the SES bonuses. I think that is an 
area that additional close scrutiny is certainly warranted.
    I would like to begin by talking about a topic you and I 
talked about in my office, which was free trade. And in the 
course of that conversation, as I understood what you said, you 
said you were an enthusiastic, unapologetic advocate of free 
trade. Is that a fair characterization, and, if so, would you 
elaborate on your views, please?
    Ms. Pritzker. Senator, I believe that trade agreements can 
be advantageous for American business. And so if I am 
confirmed, I would look forward to working with our U.S. Trade 
Representative to expand our trade agreements so that our 
businesses can grow and create good jobs for people in this 
country.
    And so I am hopeful that the European trade negotiations 
and the TPP can be good for American business and good for 
American job creation.
    Senator Cruz. Well, thank you, Ms. Pritzker. As I shared 
with you, I have been disappointed that in my judgment the 
current Administration has been less than vigorous in pursuing 
free trade. And if you are confirmed, I hope that you will be 
an effective voice for making the Administration far more 
vigorous going forward.
    A second area that we talked about that I would like to 
discuss is the area of regulation. And as you know, my top 
priority in office is restoring economic growth in this 
country.
    Ms. Pritzker. Yes.
    Senator Cruz. I think that is the most critical element to 
ensuring our long-term strength and also expanding the 
opportunity in this country for the least well off among us to 
climb the economic ladder and to achieve the American Dream. 
And we talked quite a bit about the impact of overly burdensome 
regulation and how that can harm businesses, and especially 
small businesses that are just starting and struggling and 
that, as you know, generate two-thirds of all new jobs.
    Yesterday in confirmation hearings with the nominee in this 
room, the nominee to be Secretary of Transportation, I had a 
similar conversation with him and asked him at the time if he 
would commit in his first 100 days to working to identifying at 
least three regulations that are overly burdensome, and to 
working with me and with this committee to either modify or 
repeal those. And indeed his response, which I will confess, I 
liked very much, is that he suggested that three might not be 
enough. And then he suggested instead 10, which I accepted that 
as a friendly amendment.
    And so I would ask you the same question, and, see if you 
would make the same commitment.
    Ms. Pritzker. Senator, you and I had this conversation and 
I think agree, you know, as does the President, that it is 
extremely important that we look at our regulatory environment 
and see how we can streamline regulation so that it is 
effective, but also so that businesses can grow, can be 
innovative, and can create jobs and economic growth, as you 
said.
    So I would enthusiastically look at the Commerce 
Department. I am not sure the regulations in the Commerce 
Department are as vast as the regulations of the Transportation 
Department. But I will enthusiastically work with the 
organization to find opportunities to streamline regulation.
    Senator Cruz. Well, terrific. I appreciate that. You also 
suggested in our conversation the concept of zero-based 
regulation, that rather than piling one regulation on another, 
on another, and having them continue to grow vast and unwieldy, 
that we ought to start from a zero base and ask what regulation 
is needed and sensible.
    I very much agree with that notion, and so I would welcome 
if you would perhaps elaborate on the concept as you shared 
when we visited.
    Ms. Pritzker. Well, in business, one often is required to 
start again, or take a fresh look at the situation using the 
concept of zero-base budgeting. And I think that is what the 
President was getting at with the executive order. He was 
trying to say, look, let us look at the cost benefit of what we 
have got, but let us streamline our regulatory structure. And a 
zero-based idea is basically to start from scratch and say, 
what are we trying to accomplish here with regulations and how 
do we do that most efficiently and effectively.
    Now, I am not an expert at precisely how one accomplishes 
that here, but I look forward to learning and trying to help 
with that effort.
    Senator Cruz. Well, very good. I look forward to working 
with you on that, and I hope that if you are confirmed that you 
can provide a voice in this Administration for pulling back the 
regulations that I think are so damaging to economic growth and 
in killing jobs, and really impacting in a negative way a great 
many Americans who are struggling.
    The last topic that I want to discuss very briefly is the 
topic of spectrum. And as you know, right now, the vast 
majority of usable spectrum is either owned or shared by the 
government, 60 to 70 percent. And last year's Spectrum Act 
statutorily requires the NTIA to ``promote the best possible 
and most efficient use of electromagnetic spectrum resources 
across the Federal Government.''
    In my view, Federal Government ownership of assets, be they 
spectrum, be they land, or anything else, should be the minimum 
necessary to protect our critical national interests. And on 
spectrum, in particular, I would like to see as much of it as 
possible placed in the private sector hands to allow 
entrepreneurs and businesses to put it to productive use to 
generate economic growth and generate jobs.
    Do you agree with that approach? And would you agree to 
work together to try to assess just how much spectrum the 
Federal Government needs and now much of that can be sold at 
significant profit to the government, to the private sector to 
be put to productive use for private Americans?
    Ms. Pritzker. Well, Senator, I support the President's goal 
of having the agencies look for 500 megahertz of spectrum. I 
think the NTIA to date has found 100 megahertz of spectrum to 
make available for commercial use.
    I support the effort of finding as much spectrum as is 
possible to be used for commercial use, balancing, of course, 
our national security and other needs. And if I am confirmed, 
that is something that I would work on closely with the head of 
NTIA to really make sure that we find that spectrum.
    Senator Cruz. Very good. Thank you, and I look forward to 
our working together on all these issues.
    Ms. Pritzker. Senator, I look forward to it if I am 
confirmed.
    Senator Cruz. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator, very, very much.
    Ms. Pritzker, I have one question. Well, I actually have 
two questions to ask. About 8 months to a year ago, all over 
Washington, by which I mean at the White House, and here, and a 
couple of other places, we were celebrating something called 
FirstNet. And, I mean, they were virtual cheering sessions at 
the White House. Everybody was so pleased.
    And they loved the idea because it involved a voluntary 
auction. It would not cost the taxpayers a dime. We finally got 
the House to agree to push them up to $7 billion. It really is 
about $11 billion that it would cost. But none of it comes from 
the--to lay out the whole network nationally, but the whole--
none of it comes from the taxpayers. In other words, it is kind 
of a perfect storm.
    One problem. And of course the reason for this, as you 
know, that firefighters--I mean, it goes back to the Kuwait--we 
landed at Kuwait, and the Army and the Navy, nobody could 
communicate with each other. And then we still had the same 
situation. I serve on the Intelligence Committee, and I just 
live in that situation of stovepipes where people will not 
share.
    And the first thing we passed after 9/11 in this country, 
the first law was embarrassing. We passed a law which allowed 
the FBI and the CIA to talk to each other, not that they would 
do anything, but they had to be allowed to talk to each other. 
I mean, this is--the world has changed: rapid response real 
time, all the rest of it.
    So we came up with the idea of FirstNet as a public safety 
spectrum--firefighters, police, law enforcement, FBI, EMT. You 
know, if you are a firefighter, you can see with the technology 
that would be held in hand-held devices by first responders all 
over the country, the same hand-held device. Not yet completely 
done, but they could see, you know, how many bodies were in the 
burning building. There appear to be serious injuries so that 
they could actually then send photographs onto the hospital 
where the person was being taken so they would be prepared. I 
mean, it's such a common sense idea. It is so desperately 
needed. People so want it.
    I will tell you, this room, when we had the hearing on it, 
was nothing but first responders. I mean, they just totally 
want it. And I do, too, and we are not getting it. And again, 
no tax money is required, but obviously it has some problems. 
And we created this FirstNet and a guy named Sam Ginn--do you 
know him? He is very, very good. He runs it. Fifteen people on 
the board. But we just have not been able to see enough 
movement.
    Now, maybe that is in the nature of things, that something 
that vast is just--you know, the engineers and the 
architectures of the whole approach takes time. I do not know, 
but I do not want to accept that. I want to hear feelings of 
improvement, of moving forward. I mean, at best, to spread this 
out across the Nation I would think would take maybe a decade, 
I mean, all the towers. I mean, you start thinking about it, it 
is an enormous project, but it is what our country needs 
because, as I believe, the climate is changing.
    And, you know, one of the problems in Oklahoma, I think 
they passed a rule--I am not sure if I am right in this--in 
their State legislature that you did not have to--you could not 
or did not have to build a basement. Well, that is not right. 
And FirstNet would not necessarily change that.
    But you understand the concept----
    Ms. Pritzker. Yes.
    The Chairman.--the urgency of public safety with so much 
tragedy and disruption, as well as, you know, the possibility 
or probability of attacks by Americans on our own country. They 
can do with computers what the Chinese can do with computers, 
and, you know, not everybody is affable that way.
    So all I want to know is that if you are confirmed, that 
you will set mind, body, and soul to FirstNet, to working with 
them, to understanding the problem, to understanding why more 
is not happening. And there may be a good reason for that. 
Maybe I am just impatient because I am not an engineer, 
structural or otherwise. So, but if I knew that if you are 
confirmed that the Secretary of Commerce were watching this 
very, very closely, I would feel quite good. Will you do that?
    Ms. Pritzker. Well, Senator, I share your commitment to 
FirstNet. It is a great practical idea that will benefit the 
first responders as well as people who are in distress. And so 
if I am confirmed as Secretary of Commerce, I will make sure 
that we work with the Board of FirstNet, which is in charge of 
the implementation, so that they understand the urgency and the 
need to implement this as effectively and efficiently and as 
quickly as possible.
    The Chairman. Good. Thank you very much.
    Senator Thune.
    Senator Thune. All right, Mr. Chairman. I think we are--it 
is just you and me. We are about ready to wrap this up, and the 
unpleasantness is about over for Ms. Pritzker.
    But I wanted to ask one other question, and for a minute 
here I am going to channel Senator Grassley. But some have 
criticized the fact that you are a beneficiary of some offshore 
tax avoidance schemes, and that it is hypocritical for the 
President to nominate Cabinet members who benefited from 
offshore tax havens when he has criticized that practice for 
others. How do you respond to that criticism?
    Ms. Pritzker. Senator, I am the beneficiary of offshore 
family trusts that were set up when I was a little girl. I did 
not create them. I do not direct them. I do not control them. I 
have asked the trustee to remove themselves and to appoint a 
U.S. trustee. But I have complied with all of the disclosure 
obligations that have been required of me in this process.
    Senator Thune. Let me ask you one other quick question if I 
might. One of the areas under your purview is going to be the 
Administration's enforcement of anti-dumping laws. And the law 
is intended to prevent domestic industries from being destroyed 
by imports that are sold here at unfairly low or dumped prices.
    The Commerce Department determines the precise amount of 
duties that must be collected to increase the price of dumped 
imports to a non-injurious level, and estimated $400 to $500 
million in anti-dumping duties build on four different types of 
agricultural imports from China have remained uncollected, and 
even though their payment is secured by specialized single-
entry customs bonds, which are referred to new shipper bonds, 
that were issued by well-known U.S. insurance companies.
    The question is, will you commit to provide Congress with a 
full accounting of all the new shipper bonds that secure anti-
dumping duties on these agricultural imports from China and a 
plan for collecting the unpaid dumping duties secured by these 
bonds?
    Ms. Pritzker. Senator, I am not familiar with exactly what 
you are discussing. I know what anti-dumping is. But I will 
look into it, and I will commit to work with you on this issue.
    Senator Thune. There are a number of honey producers in 
South Dakota who would be very happy to hear that answer. There 
is a lot of transshipped honey from China, and the enforcement 
mechanisms that are available to prevent that do not get 
effectively utilized. So we would welcome your help with that 
particular issue.
    Ms. Pritzker. Well, making sure that not just honey 
producers, but our American companies are all on a level 
playing field, and that our laws are not being skirted is an 
important objective. And if I am confirmed, I will work on 
that.
    Senator Thune. OK. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune. I want to thank 
you, Ms. Pritzker----
    Ms. Pritzker. Thank you.
    The Chairman.--for this hearing. I think you have one of 
the three toughest jobs in Washington. I know you do. I put the 
President and DoD maybe ahead, but I cannot think of anybody 
else. And I also want to thank you. I want to thank your family 
members for being here. I want to thank your husband for 
helping me stand up in the other room while we were waiting. He 
is a big, strong guy. It was not very hard for him.
    And I also want to thank our audience that is here. We did 
something we have never done before, and that was just because 
of, you know, the importance of this nomination. We opened up a 
whole other room, actually a Defense Armed Services room. And 
they are sitting there watching television of this, and I think 
that is very, very important.
    So I very much appreciate our audience. I very much 
appreciate our colleagues. And I very much appreciate you. I 
really wish you well on this. You will certainly have my vote. 
And so that is that.
    Ms. Pritzker. Thank you, Senator.
    The Chairman. The hearing is adjourned.
    Ms. Pritzker. Thank you.
    [Whereupon, at 1:05 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Penny Pritkzer
Rural Areas
    Too many rural areas of our country, including my home state of 
West Virginia, remain insular and isolated from the prosperity that 
more populated and urban regions take for granted and enjoy every day. 
In West Virginia, we have made significant strides in many areas with 
the support of the Department of Commerce, most especially through the 
Economic Development Administration and the International Trade 
Administration. However, our work is far from over--West Virginia and 
other rural areas across the Nation continue lag behind in job 
creation, infrastructure, and financial resources necessary to build a 
strong middle class and a healthy economy for the future.

    Question 1. What are your intentions to make sure that rural areas 
throughout the country, including West Virginia, receive the support 
they need from the Department of Commerce?
    Answer. I believe that spurring job creation and economic growth in 
rural regions across the country is absolutely essential to U.S. 
economic health and competitiveness. If confirmed, I look forward to 
continuing the important role of the Department of Commerce in 
supporting the rural economy.
    I understand that the Economic Development Administration (EDA) has 
been a strong supporter of rural economic growth. For example, EDA 
partnered with the U.S. Department of Agriculture (USDA), and the 
Appalachian Regional Commission on the Administration's Rural Jobs and 
Innovation Accelerator Challenge to strengthen rural economies. 
Similarly, I understand the Investing in Manufacturing Communities 
Partnership (IMCP) expands on Commerce's partnership with the USDA, 
helping communities--both rural and urban--to attract private direct 
investment. If confirmed, I will work with my counterparts across the 
Federal Government to make the IMCP as effective as possible in 
promoting economic growth and job creation.
    Additionally, expanding high-speed Internet services to rural areas 
was a major component of the 2009 America Recovery and Reinvestment 
Act. These projects are managed and overseen by the National 
Telecommunications & Information Administration.
    I also believe it is important to utilize on-line resources such as 
BusinessUSA to provide businesses easier access to the Commerce 
Department and other Federal Government services regardless of where a 
business is located. BusinessUSA is a one-stop, on-line platform 
designed to make it easier for businesses to access government 
resources across a number of Federal agencies.
    These are just a couple of ways the Commerce Department has been 
engaged in promoting rural economic growth. If confirmed, I look 
forward to working with Congress on supporting America's rural economy.

    Question 2. If confirmed, will you work with me to make sure that 
the West Virginia Economic Development Representative position at the 
Economic Development Agency is filled in the near future by an in-state 
representative who is intimately knowledgeable of the people, 
communities, and projects in West Virginia?
    Answer. As a nominee, I am not familiar with the status of the West 
Virginia Economic Development Representative position. If confirmed, I 
would be happy to inquire and make sure your recommendation to fill the 
position with an in-state candidate is carefully considered.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Penny Pritkzer
International Pacific Halibut Commission
    Question 1. The Department of Commerce oversees a number of key 
nominations and appointments at the National Oceanic and Atmospheric 
Administration. Mr. Bob Alverson, a halibut fisherman from Seattle, was 
nominated to be a Commissioner on the International Pacific Halibut 
Commission for the non-Alaska seat. Recreational, commercial and tribal 
Pacific halibut fisheries provide jobs to fishers, outfitters, 
processors, seafood retailers and shipyards throughout the Pacific 
Northwest. According to the International Pacific Halibut Commission's 
Annual Report, the sport halibut fishery is second only to salmon, with 
landings reaching over 370,700 pounds in 2010. In addition, the 
commercial halibut catch on the West Coast was 407,600 pounds 
supporting many commercial fishing jobs both in our coastal 
communities, in the Puget Sound and in ports up the Columbia River.
    Despite Pacific halibut's importance to our coastal economies, the 
Department of Commerce has failed to appoint commissioners. Mr. 
Alverson has been waiting over a hear and a half to hear from the 
Department.
    Ms. Pritzker, when confirmed, will you select a commissioner for 
the International Pacific Halibut Commission? By what date will you 
have commissioners selected, and notified of their selection? In your 
role as Secretary, how will you prevent long, costly, drawn out 
appointment processes at the Department of Commerce in the future?
    Answer. As a manager, I believe it is essential to have the right 
people in the right positions. If confirmed, I look forward to being 
briefed on the nominees under consideration and making a selection 
informed by expertise, skill, and endorsements, including those of 
Congress. If confirmed, I would be happy to have a conversation about 
any nominees you support at an appropriate time.
Bristol Bay Pebble Mine
    Question 2. Thousands of commercial, subsistence and recreational 
fishermen have contacted me about protecting salmon in Bristol Bay, 
Alaska. Bristol Bay is home to the largest sockeye fishery in the 
world, and one of the largest Chinook fisheries. The commercial sockeye 
fishery is worth $1.5 billion alone, supporting thousands of jobs in 
Washington State.
    According to EPA's Draft Watershed Assessment released on April 30, 
2013, ``An Assessment of the Potential Mining Impacts on Salmon 
Ecosystems of Bristol Bay, Alaska'' (EPA 910-R-12-004Ba), the proposed 
Pebble Mine threatens Bristol Bay salmon habitat.
    The Pebble Mine would be one of the largest hard rock mines in the 
world and the largest copper porphyry mine in the United States. Water 
contamination and habitat loss from the construction and operation of a 
hard rock mine in Bristol Bay would put thousands of fishery-related 
family wage jobs at risk.
    Ms. Pritzker, when confirmed you will oversee NOAA, the agency 
responsible for managing our Nation's fisheries. What is your position 
on the proposed Bristol Bay Pebble Mine? Are you prepared to direct 
NOAA fishery scientists and economists to become more engaged with the 
EPA?
    In part, we see the Secretary of Commerce as a protector of our 
marine and coastal natural resources. However, a huge part of your 
future job will be to protect the jobs, which rely on those natural 
resources. Commercial, recreational and tribal fisheries create 
thousands of jobs in Washington, supporting even more shipbuilding, 
processing, gear and other support jobs. As Secretary, how will you 
work with fishermen to ensure long-term sustainability of our maritime 
resources and our maritime economies which rely on them?
    Answer. While I am very familiar with the cultural, environmental, 
and economic importance of salmon to your state, and the Pacific 
Northwest, I am not familiar with this specific project or the EPA's 
specific work on it. I agree that NOAA has incredible scientific 
expertise it can lend to others regarding how development can affect 
fish and habitat and, if confirmed, I will support and promote NOAA's 
role in these efforts.
    My vision is for healthy fish populations that can support a 
healthy, successful and profitable fishing industry. A healthy 
environment and a healthy economy are inextricably linked, especially 
in coastal communities that are supported by the fishing industry. If 
confirmed, I look forward to working with NOAA, Congress and the 
fishing community towards that end.
Subsistence Fisheries in Bristol Bay, Alaska
    Question 3. In addition to the $1.5 billion annual economic value 
of the Bristol Bay sockeye fishery, are you aware of the importance 
Bristol Bay salmon to Alaska Native subsistence users? Subsistence 
salmon harvest is 60 percent of the overall diet of most area 
residents. Not only is subsistence salmon at the center of Alaska 
Native culture, but today, an economic imperative as well. Are you 
familiar with the cost of living in rural Alaska? The cost of one 
gallon of milk can be as high as $10.00. There is no replacement value 
for subsistence fish that is a necessary part of the subsistence diet.
    Ms. Pritzker, How do you view the Department of Commerce's role in 
ensuring subsistence salmon users have healthy salmon runs for 
generations to come? How will your agency work with Alaska Native 
people to ensure they have a voice in fisheries management and 
research?
    Have you ever consulted with a federally recognized Tribe? Are you 
aware of President Obama's stated position that tribal governments are 
political entities and entitled to government to government 
consultation?
    Answer. I support President Obama's position. I am also aware of 
the Department's ``Tribal Consultation and Coordination Policy'' 
recently signed by Acting Secretary Rebecca Blank that recognizes the 
importance and responsibility the Department has in consulting with 
tribes when it comes to the development of new policies that have 
tribal implications.
    I understand how important salmon are to Washington's economy, 
culture and environment. I also understand the importance of 
subsistence fishing. I think all of NOAA's efforts around fisheries 
management should be transparent and well communicated to all concerned 
with these issues, including Alaska Natives and American Indian tribes. 
The Department of Commerce has a Senior Advisor on Native American 
Affairs who works regularly on fisheries issues with NOAA and the 
tribes. If confirmed, I look forward to working with NOAA to have every 
voice heard throughout the fishery management process.
Halibut, Sablefish Hired Skipper Rulemaking
    Question 4. The NOAA National Marine Fisheries Service is proposing 
to expand the owner-on-board requirement in the North Pacific halibut 
and sablefish individual fishing quota program. What concerns me is 
that the rule would be applied retroactively to prevent the use of 
quota purchased in earlier concluded legal contracts. What is your 
response to concerns that the rule will run afoul of the landmark 
Supreme Court decision in Bowen v. Georgetown which clearly prohibits 
retroactive rules of this nature? How will you engage with quota 
holders to ensure that their businesses, and their rights, are 
protected?
    In addition, NOAA's proposed rule would compel disabled Americans 
to operate fishing vessels or be forced to sell their quota shares. The 
rule would also make it impossible for previously grandfathered 
corporations, virtually all of them family owned small businesses, to 
remain in the fishery. I am very concerned that this rule violates the 
Rehabilitation Act of 1973 that prohibits discrimination against 
disabled persons, and will violate the applicable standards in the 
Magnuson-Stevens Fishery Conservation and Management Act and the 
Halibut Act requiring that fishery management measures be fair and 
equitable to all fishery participants. What is your position on 
requiring disabled Americans to sell their quota because they are not 
able to skipper their vessels? What is NOAA doing to ensure they are in 
compliance with the Rehabilitation Act of 1973?
    Answer. I have not yet become familiar with the specifics of 
fishery management plans or proposed rules, but if I am confirmed, I 
pledge to look into these issues and speak with you further about your 
concerns.
North Pacific Fishery Management Council
    Question 5. The North Pacific Fishery Management Council has 
critically important responsibilities for Federal fishery management 
off the Coast of Alaska. As you know, thousands of Washingtonians make 
a living fishing off Alaska. Unfortunately, the Council voting record 
reflects the fact that, more and more, the Alaska voting majority is 
making decisions that disadvantage non-Alaskan participants in these 
Federal fisheries. Most often, the NOAA official who is a voting member 
of the Council, and who is based in Alaska, votes with the Alaskan 
majority despite the pattern of discriminatory decisions. What concrete 
steps will you take to ensure that these Federal fisheries are managed 
as the law requires, that is, fairly for all participants? What steps 
could Congress take to remedy this situation? What will you do to 
ensure that adequate oversight is occurring on the Council?
    There have also been a number of legally-questionable position 
papers coming from regional NOAA staff, not council members (see 
Amendment 80 vessel replacement white paper, the cost recovery white 
paper and the halibut/sablefish skipper rulemaking process). How will 
you improve NOAA General Counsel oversight in the Alaska region while 
maintaining a bottom-up science based fishery management process?
    Answer. I am not yet conversant in the specifics of fishery 
management. While I know that West Coast and Alaska fisheries are 
hugely important for fishermen and the communities they support, I am 
not precisely familiar with specific Council processes or votes. If 
confirmed, I will expect the Department of Commerce and the NOAA 
General Counsel to ensure that all applicable laws are being followed 
in everything that the agency does. If confirmed, I look forward to 
learning more and speaking with you again about these issues.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Penny Pritkzer
    Question 1. The James J. Howard Laboratory, which is located in 
Sandy Hook, NJ, has existed for more than 50 years and performs 
research on maintaining healthy fisheries and protecting the ocean 
environment from the impacts of climate change. In FY 2013, the 
National Oceanic and Atmospheric Administration (NOAA) proposed closing 
this lab, but the House and Senate included language during the FY 2013 
appropriations cycle prohibiting its closure.
    The Sandy Hook lab sustained significant damage during Superstorm 
Sandy, and NOAA included $2 million in its Sandy supplemental spending 
plan to begin some new construction at the lab. Will you support 
upgrading and improving the lab for the long-run?
    Answer. As a businessperson, I understand how safe facilities, 
which allow a team to perform the tasks they are charged with 
executing, are fundamental to an organization's mission. If confirmed, 
I will bring that same philosophy to the Department of Commerce. With 
respect to the Sandy Hook lab, I know that it sustained considerable 
damage in Superstorm Sandy, as did many other areas of your state. If 
confirmed, I look forward to working with Congress and NOAA on New 
Jersey's recovery.

    Question 2. New Jersey fisheries suffered as much as $121 million 
in damage from Superstorm Sandy, and Acting Secretary of Commerce 
Rebecca Blank declared a fishery resource disaster in New Jersey and 
New York on November 16, 2012. The Sandy supplemental bill the Senate 
initially passed in December included $150 million specifically for 
fisheries, but the House cut this to just $5 million, which is the 
amount the final bill included.
    When will NOAA release the $5 million in fisheries disaster funding 
to New Jersey and New York?
    Will you support additional funding beyond the $5 million already 
appropriated for fisheries impacted by Sandy?
    Answer. I know New Jersey's fishing community was deeply impacted 
by Superstorm Sandy and those dollars are important to getting the 
industry back on its feet. I'm not familiar with the Federal processes 
in place that transmit funds to the states, but pledge to look further 
into that issue, if confirmed.
    If confirmed, I also commit to doing everything possible to help 
communities affected by Superstorm Sandy to be better prepared for 
future storms by improving forecasting, and helping coastal communities 
rebuild their environment and economies in ways that are smart and 
safe.

    Question 3. I wrote the law making NOAA within the Department of 
Commerce the lead agency in conducting research on ocean acidification. 
Will you make sure that ocean acidification research continues to be a 
priority for the Commerce Department?
    Answer. Ocean acidification research is essential for supporting 
jobs by understanding how acidification impacts fisheries and 
aquaculture, and for advancing our understanding of climate change 
impacts in general. If confirmed, I look forward to lending my support 
to NOAA's work on this issue and to working with Congress on this issue 
in the future.

    Question 4. The Arab League, an umbrella organization comprising 22 
Middle Eastern and African countries and entities, has maintained an 
official boycott of Israeli companies and Israeli-made goods since the 
founding of Israel in 1948. The Department of Commerce's Bureau of 
Industry and Security (BIS) is charged with administering and enforcing 
the U.S. laws that have been enacted to prohibit U.S. companies from 
furthering or supporting the Arab League's boycott of Israel. Despite 
U.S. efforts, many Arab League countries continue to support the 
boycott's enforcement.
    How will you work to maintain Commerce's strong enforcement of U.S. 
laws enacted to combat the Arab League's boycott of Israel?
    Will preventing the Arab League from joining the World Trade 
Organization (WTO) as long as it maintains its Israel boycott remain a 
top priority for the Commerce Department if you are confirmed?
    Will the Department post self-reports of anti-boycott violations 
directly on its website, as it once did?
    Answer. If confirmed, I will have the Department work to fully 
enforce all Commerce antiboycott regulations and will follow U.S. 
Government policy to encourage boycotting countries to end their 
boycotts.
    Currently, about half of the Arab League members are also members 
of the WTO and are obligated to apply all WTO commitments to all other 
WTO members, including Israel. The U.S. Government has worked to 
eliminate domestic boycott laws when negotiating WTO accession 
agreements with individual Arab League members. If confirmed, I will 
have the Department work with USTR to continue this important work. I 
would also make it a priority to urge WTO members of the Arab League to 
end all boycott activities, including enforcement of any domestic laws 
that continue to include boycott provisions, and to remind them that 
such activities are in violation of their WTO obligations.
    U.S. firms are prohibited from taking actions that have the effect 
of furthering foreign unsanctioned boycotts, including responding to 
certain requests for information from boycotting countries. They are 
required to report receipt of any such requests to the Department of 
Commerce's Office of Antiboycott Compliance (OAC). I understand that 
OAC currently posts documents relating to closed cases involving 
antiboycott violations on its Electronic FOIA Reading Room website and 
that they are actively working to provide online access, via the 
Electronic FOIA Reading Room, to reports of boycott requests received 
by U.S. businesses and forwarded to OAC.

    Question 5. As a member of the Cabinet, you would be one of the 
President's closest economic advisers. President Obama has made clear 
that in order to pay for the investments needed to create jobs and 
provide opportunities for future growth and innovation, we need to 
increase revenue by eliminating special tax breaks and making sure the 
wealthy pay their fair share. Do you support the President's plan to 
reduce the deficit and promote job growth by closing tax loopholes and 
ending special tax breaks for the wealthy?
    Answer. Yes. I support the President's call for comprehensive tax 
reform as part of a balanced plan to reduce the deficit, bolster 
economic growth and increase job creation.
    As President Obama has made clear, comprehensive reform of both the 
business and individual tax systems should include serious scrutiny of 
tax breaks that distort economic behavior, are unfair, or inefficient. 
I support the President's approach on this issue.

    Question 6. Commerce plays a central role in ensuring sensitive 
dual-use technology does not fall into the hands of rogue nations like 
Iran. The agency conducts critical export control enforcement 
activities, including end-use checks, to identify and penalize 
violations of our export laws. While significant progress has been made 
in the last several years to stop the transshipment of U.S. goods to 
Iran, U.S. officials have noted that Iran has obtained military and 
dual-use goods that have been illegally transshipped through countries 
like the UAE, China, and Singapore. Currently, the Commerce Department 
only has seven export control agents outside the United States, 
including one in the UAE and two in China.
    How will you work to support and expand Commerce's export control 
enforcement activities, particularly end-use verifications?
    Will you support additional resources being committed to post 
additional export control agents outside of the U.S.?
    Answer. If I am confirmed, ending transshipment of sensitive dual-
use technologies to prohibited countries, such as Iran, will remain a 
top priority of the Department of Commerce. I understand that while 
there are currently only seven export control officers (ECOs) outside 
of the United States, the Department has determined the need for 
additional ECOs to be placed in Frankfurt, Istanbul, and Dubai in order 
to increase its enforcement coverage across the world. I support the 
increase in the number of ECOs. If confirmed, I will work with BIS 
leadership in an effort to find resources to increase the number of 
ECOs around the world as well as increase the Department's Sentinel 
Program footprint.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             Penny Pritkzer
Science Parks
    Section 603 of the America COMPETES Reauthorization Act established 
a Regional Innovation Program. The program has two components. A grant 
program for regional innovation clusters and planning grants for the 
development of science and research parks and a loan guarantee for the 
construction and renewal of these science and research parks.
    The Senate Appropriations Committee has twice provided some funding 
for this Regional Innovation Program. However, the Administration has 
decided not to request any funding for this program in the President's 
Fiscal Year 2014 budget request. Furthermore, the Department of 
Commerce continues to refuse to stand up the science park loan 
guarantee authorized by law.

    Question 1. Why has the Department of Commerce decided to no longer 
support the Regional Innovation Program?

    Question 2. Why did the Department of Commerce include the Regional 
Innovation Program in the Economic Development Assistance Program 
(EDAP) the past two years, which has specific strings attached, rather 
than as a separate line item in the budget?
    Answer. As a nominee, I am not familiar with the budgetary 
decisions the Department made on this issue. If confirmed, I will look 
into this issue further. However, like you, I believe that driving 
innovation and research is critical to driving economic growth in our 
country. I understand the Administration has been steadfast in its 
support for regional innovation and economic growth. Over the past four 
years, the Administration has proven--through pilots like the Jobs and 
Innovation Accelerator Challenges, i6 Challenges and other regional 
economy initiatives--the success of using coordinated, streamlined, 
multi-agency national competitions that break down silos and integrate 
Federal resources in a highly effective way and that focus on regional 
economies and specific sectors.
    I am particularly interested in the Administration's Investing in 
Manufacturing Communities Partnership proposal, which would use the 
COMPETES Act authority you reference to launch a major nation-wide 
competition. I understand this effort would reward communities for 
their policies to support local workforce skills, research, supply 
chains, and infrastructure. If confirmed, I will work with my 
counterparts across the Federal Government to make the IMCP as 
effective as possible.

    Question 3. If you agree with me that science and research parks 
are an important physical element need for translational research and 
development, what does the Department of Commerce intend to do 
regarding the loan guarantee program? Do you have an alternative 
suggestion for funding this critical link of the innovation ecosystem?
    Answer. I agree that science and research parks are an important 
component of America's innovation infrastructure because of the 
critical and necessary link they make between the creation of 
intellectual property and commercialization of new and innovative 
products that result in higher-wage jobs and globally competitive 
industries.
    It's my understanding that the Economic Development Administration 
is working on acquiring staff to help it stand up its mandated loan 
guarantee programs, and assuming that the loan guarantee program for 
science and research parks is re-authorized, it will work aggressively 
to put in place the necessary regulations, program guidance, marketing, 
accounting and oversight functions to administer this program 
effectively. If confirmed, I will certainly look into this issue 
further.
Rural Broadband
    As Chairman of the CTI subcommittee, I have jurisdiction over the 
National Telecommunications & Information Administration (NTIA), which 
is housed under the Department of Commerce. Bringing high-speed 
broadband to all rural consumers is vital to the future of the Nation. 
Broadband is the gateway to the worldwide digital economy, and offer 
access to world-class education, healthcare, entertainment, and civic 
engagement.

    Question 4. Under your leadership, how would the NTIA continue to 
support broadband deployment and adoption as the Recovery Act grant 
programs wind down?
    Answer. I recognize the importance of expanding broadband 
deployment and adoption in the United States. We need to maximize 
broadband so that businesses can compete in the global economy; 
students in even the most remote areas can access the best online 
courses and teachers; and institutions like hospitals, libraries, and 
first responders can make use of cutting-edge applications.
    Even after the completion of the $4 billion in broadband projects 
administered by the National Telecommunications and Information 
Administration (NTIA) through the Broadband Technology Opportunities 
Program (BTOP), there will continue to be significant need for 
additional steps to increase broadband access and adoption. For 
example, current data show that nearly a third of Americans do not 
subscribe to broadband, and many anchor institutions do not have access 
to the high-speed broadband they require to fulfill their missions. If 
confirmed, I am committed to working with NTIA and others to harness 
the lessons learned from BTOP and leverage these investments so that 
more Americans can take advantage of the tremendous benefits that 
broadband affords.

    Question 5. What do you think is the biggest challenges in bringing 
next generation Internet and communications networks to rural America?
    Answer. Historically, America's rural communities have been slow to 
receive high-speed Internet and communications networks because 
industry has a harder time finding the economic justification to invest 
in these higher cost and lower population density areas. Clearly, we 
must work harder to provide the benefits of broadband to rural America.
    Through NTIA's BTOP, the Department of Commerce invested $4 billion 
in grants to expand broadband networks, make public computer centers 
available, and promote broadband adoption throughout the Nation. It is 
also engaged in an extensive effort to make additional spectrum 
available for commercial wireless broadband service so that rural and 
other communities can more cost-effectively benefit from the latest in 
wireless broadband technology.
    If I am confirmed as Commerce Secretary, I will work diligently 
with NTIA, Federal agency partners, and other stakeholders to help 
rural communities benefit from the latest in broadband technologies.
Strong and Strictly Enforced U.S. Trade Laws
    Thousands of American companies and hundreds of thousands of 
American workers depend on our trade remedy laws for protection against 
unfairly traded imports. Our antidumping (AD) and countervailing duty 
(CVD) laws are an integral part of ``the rules-based international 
trading system,'' and they are the last vital defense for U.S. 
manufacturers against foreign unfair trade.

    Question 6. As Secretary of Commerce, will you commit to making 
enforcement of our trade laws a top priority of the Department?
    Answer. If confirmed, I will make enforcing our trade laws and 
agreements a top priority. American companies and American workers are 
the best in the world. U.S. firms and workers can compete and win in 
the global marketplace when we have a level playing field. If our 
Nation is going to reap the full benefits of trade, we must take 
seriously our obligation to call a foul when we see one and hold our 
trading partners accountable. I believe that we need to do everything 
we can to grow our economy through robust monitoring and enforcement of 
U.S. rights under international trade agreements and through 
enforcement of domestic trade laws.

    Question 7. Will you take the lead--in multilateral and bilateral 
negotiations--in defending, preserving and enhancing U.S. laws against 
unfair trade, and in opposing any efforts to weaken these laws?
    Answer. I believe helping American firms and workers compete on a 
level playing field and reach more global buyers is a vital part of the 
job. Strong U.S. laws against unfair trade are vitally important.
    If confirmed as Commerce Secretary, I will take full advantage of 
my leadership roles in the Joint Commission on Commerce and Trade, the 
Strategic and Economic Dialogue, and other fora to strengthen trade 
disciplines that address unfair trade practices, strengthen 
intellectual property rights enforcement abroad, expand market access 
for U.S. exporters, remove barriers to U.S. investment in foreign 
markets, and promote international travel and tourism in the U.S. among 
other priorities.
    The Commerce Department co-leads the Interagency Trade Enforcement 
Center (ITEC) with the Office of the United States Trade 
Representative. It is my understanding that the ITEC has played a 
critical role in providing research and analysis necessary to the 
initiation of a number of important legal challenges in the WTO of 
foreign unfair trade barriers and practices. If confirmed, I will fully 
support the ongoing work of the ITEC to challenge unfair trade 
practices around the world to help U.S. firms and workers succeed in 
the global marketplace.

    Question 8. If you are confirmed, will you instruct the Commerce 
Department to investigate allegations with respect to foreign 
government currency practices to determine whether they provide a 
countervailable subsidy under U.S. law?
    Answer. It is my understanding that the Department has analyzed 
currency allegations to determine whether they met the requirements for 
initiation of a countervailing duty investigation under U.S. law. In 
the past, the Department has found that petitioners have not met the 
initiation requirements under U.S. law when alleging that a country's 
currency practices constitute a countervailable subsidy.
    I can assure you that, if I am confirmed as Secretary, the Commerce 
Department will vigorously enforce our trade laws, including our 
antidumping and countervailing duty laws that address unfair dumping 
and subsidies. When a countervailing duty allegation meets the legal 
requirements for initiation, the Department will investigate.
    If confirmed, I look forward to working with Congress to provide a 
level playing field for U.S. workers and companies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                             Penny Pritkzer
    Question 1. In response to sequestration, NOAA has instituted a 
hiring freeze, and I am concerned about how the agency will keep 
weather forecast offices adequately staffed as a result. I understand 
the agency has a process for granting exceptions to the hiring freeze 
and a board to consider those exceptions. Can you tell me what 
positions that board has considered thus far and what exceptions to the 
hiring freeze have been granted?
    Answer. I know how weather events can impact the lives and safety 
of our citizens and the operations and success of our businesses. I 
have talked with NOAA's Acting Under Secretary, Dr. Kathy Sullivan, who 
has assured me that the hiring freeze will not affect critical missions 
and services, including forecasts. As a nominee, I am not familiar with 
the hiring freeze specifics. If confirmed, I look forward to working 
with NOAA and Members of this Committee to support the National Weather 
Service so that it can fulfill its critical mission to protect life and 
property with accurate and timely weather forecasts and warnings.

    Question 2. Intellectual property is crucial to the well-being of 
our economy. The U.S. is the largest recipient of R&D spending across 
the globe. In fact, 30 percent of the American workforce is employed 
directly or indirectly in IP-intensive industries. India has made a 
number of troubling decisions related to incremental innovation, 
patentability, and compulsory licensing over the last year that 
threaten to spread to other markets and slow down overall R&D 
investment. What does the Department of Commerce plan to do to ensure 
India's actions (and the possibility that other countries may copy 
India) don't have a direct negative impact on jobs here at home?
    Answer. I share your concerns about any unfair trading practices 
that hurt U.S. businesses. I know that doing business in India can pose 
challenges for U.S. companies, from intellectual property issues to a 
variety of other trade barriers. I believe we should hold every 
country, including India, to their commitments.
    I know the Commerce Department has commercial service officers on 
the ground in India and around the world who are focused on helping 
U.S. businesses deal with these challenges. If confirmed, I will 
promote U.S. exports vigorously, and support our commercial diplomacy 
efforts across the globe to address unfair trading practices on behalf 
of U.S. firms and workers. Providing a level playing field for U.S. 
exporters requires tough trade enforcement, which will be a top 
priority for the Commerce Department if I am confirmed as Secretary.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Penny Pritkzer
    Question 1. In 2012, the Secretary of Commerce, John Bryson, and 
the Secretary of Interior, Ken Salazar, announced the National Travel 
and Tourism Strategy to promote domestic and international travel in 
the U.S. The National Strategy recognizes the importance of the travel 
and tourism industry to the U.S. economy and establishes a goal of 
increasing American jobs by attracting 100 million international 
visitors annually by the year 2021. What steps will you take to promote 
travel and tourism as a national priority?
    Answer. I recognize that the U.S. travel and tourism industry is a 
substantial component of U.S. GDP, exports, and employment and efforts 
to make America the top tourist destination in the world offer a 
tremendous opportunity to create jobs and strengthen the U.S. economy.
    In 2012, more than 66 million international tourists visited the 
United States, generating an all-time record of $168 billion in 
revenue--an increase of 10 percent from 2011. This is a new record for 
expenditures by international travelers to the United States, 
supporting economic growth, job creation and contributing positively to 
our balance of trade. This sector's economic potential continues to 
grow.
    I have read the strategy and I think it provides an excellent 
framework which will increase travel and tourism in the United States. 
The strategy aims to help attract more than 100 million international 
visitors to the United States annually by 2021. These international 
visitors are projected to spend an estimated $250 billion per year, 
creating jobs and spurring economic growth in communities across the 
country. The strategy also encourages more Americans to travel within 
the United States.
    I am enthusiastic about the Administration's travel and tourism 
strategy, and if confirmed, I look forward to leveraging my more than 
27 years of experience in the hospitality industry to promote America 
as the top tourist destination in the world.

    Question 1a. Please describe how you plan to work with other 
Federal agencies, state, local, and tribal governments, and the private 
sector to meet this goal?
    Answer. If I am confirmed, I will work closely with the Commerce 
Department's interagency partners through the Tourism Policy Council to 
successfully implement the National Travel and Tourism Strategy. 
Specifically, I will seek to expand efforts through BrandUSA and other 
partnerships to communicate a welcoming message to international 
visitors. I believe the Federal Government should fully utilize its 
resources to communicate travel opportunities in the U.S. to the 
international community as well as travel and tour operators globally.
    Additionally, in coordination with the Departments of State and 
Homeland Security, I will advocate to keep visa interview wait times 
low and to expand visa processing capacity when needed to meet demand 
in key locations. I believe providing a high quality visitor experience 
at Federal sites and fostering a skilled tourism workforce are also 
important priorities. State, local and tribal governments are also 
important partners in the Administration's efforts to expand travel and 
tourism and, if confirmed, I pledge to include and engage 
intergovernmental partners moving forward in working collectively to 
achieve the strategy's goal of attracting more visitors to the U.S.

    Question 2. Tourism is a key economic driver in Hawaii and a large 
percentage of the state's service exports. For example, visitors spent 
$12.25 billion in Hawaii in 2011, and, of the $3.5 billion that 
Hawaii's service exports in 2011, $1.7 billion (48 percent) came from 
travel services. The U.S. Commercial Service's Hawaii U.S. Export 
Assistance Center has played a key role in supporting local businesses 
to develop export markets for their businesses, such as organizing 
trade missions to Asia. The return on investment for U.S. Export 
Assistance Centers in the U.S. is $215 in sales for each Federal dollar 
spent to operate the program. In Hawaii, the return on investment is 
$7,042 in sales for each Federal dollar spent. Since its establishment, 
the Hawaii U.S. Export Assistance Center has helped to generate $1 
billion in export sales. What steps will you take to ensure that the 
domestic U.S. Export Assistance Centers have the necessary support to 
provide these services that are important to U.S. economic growth?
    Answer. I agree that U.S. Export Assistance Centers (USEACs) 
provide valuable services which enable small-and medium-sized 
businesses in Hawaii and throughout the Nation to succeed by helping 
clients export their products and services. Trade professionals at 
USEACs and throughout the Commerce Department provide U.S. firms with 
market intelligence, trade counseling, business matchmaking, advocacy 
support and other services to help them achieve their exporting goals.
    The President has set a goal through the National Export Initiative 
(NEI) of doubling exports of U.S. goods and services and adding two 
million export supported jobs by the end of 2014. The services provided 
by the Commerce Department to help U.S. firms grow exports and expand 
market access are an integral part of this important effort. If I am 
confirmed, I will work to support the Commerce Department's trade 
professionals so they can have the support and resources they need to 
continue to provide quality export assistance services to benefit U.S. 
businesses and workers.

    Question 3. President Obama launched a government-wide strategy to 
promote exports that draws on the resources and expertise of the 
Department of Commerce, the Ex-Im Bank, the Small Business 
Administration, and Office of the U.S. Trade Representative. One of the 
goals of the National Export Initiative is to increase the export 
capabilities of small businesses. In Hawaii, a majority of Hawaii's 
exporters are small businesses, which reflects the strong tradition of 
small businesses in the State. However, Hawaii's small businesses have 
not been able to participate in Federal export promotion activities to 
the same degree as small businesses in other states. For example, 
between 2007 and 2013, the Ex-Im Bank only provided loans to 5 small 
businesses in Hawaii. Ex-Im Bank has a goal of reaching 5,000 new small 
businesses by 2014, but it seems that more collaboration is needed 
amongst Federal agencies to help connect Hawaii's small businesses with 
existing resources. How will you increase small businesses' access to 
export promotion resources, including financing from Ex-Im Bank, to 
ensure that small businesses from even the smallest and most remote 
regions of the U.S. are contributing to our Nation's exports?
    Answer. The National Export Initiative (NEI), led by the Commerce 
Department in coordination with other Federal agency partners, seeks to 
double exports of U.S. goods and services and add two million export 
supported jobs by the end of 2014 by removing trade barriers abroad, 
helping firms enter new foreign markets, and providing assistance with 
export financing. The Export-Import Bank partners with the Commerce 
Department and other Federal agencies to provide export financing 
assistance to U.S. firms.
    The Secretary of Commerce is a member of the President's Export 
Promotion Cabinet (EPC), which, in support of the NEI, is implementing 
a plan to increase the national base of small business exporters by 
50,000 by 2017, expand the reach of Federal export assistance, and 
better utilize the Federal footprint abroad to support our exporters. 
The Commerce Secretary also chairs the Trade Promotion Coordinating 
Committee (TPCC), an interagency committee that coordinates the export 
promotion and export financing activities of the U.S. Government. If 
confirmed, I look forward, through my position on the EPC and 
leadership of the TPCC, to gaining more insight into how Federal 
agencies are currently working in partnership to provide export 
financing assistance as well as ways the Administration can further 
enhance export financing assistance to U.S exporters, including small 
businesses. Additionally, if confirmed, I would support a ``no wrong 
door'' approach so that agency officials are trained and able to refer 
businesses seeking assistance to the agency or department within the 
Administration that is best able to provide the requested export 
assistance services.

    Question 4. The Department of Commerce's National 
Telecommunications and Information Administration (NTIA) is the 
principal advisory office on domestic and international 
telecommunications and information policies. The Middle Class Tax 
Relief and Job Creation Act of 2012 (P.L. 112-96) established the First 
Responder Network Authority (FirstNet) within NTIA to develop a 
nationwide interoperable broadband network for first responders. NTIA 
is preparing requirements for the State and Local Implementation Grant 
program as part of it support of FirstNet to assist state, local, and 
tribal governments with planning for the public safety network. As you 
may know, Hawaii has unique communications challenges that are due to 
the geographic isolation, difficult terrain, wide range of disasters, 
and limited commercial infrastructure. As NTIA supports FirstNet and 
the development of the public safety network, what steps will you take 
to ensure that the needs of rural communities are taken into 
consideration?
    Answer. Historically, America's rural communities have been slow to 
receive high-speed Internet and communications networks because 
industry has a harder time finding the economic justification to invest 
in these higher cost and lower population density areas. If confirmed, 
I will work hard to provide the benefits of broadband and FirstNet to 
rural America.
    I applaud this Committee for this important initiative. If 
confirmed, I will make sure the Department fulfills its 
responsibilities to help make the nationwide first-responder network a 
reality in all parts of our country. I understand that in the coming 
months, FirstNet will be consulting with State, tribal, local, and 
public safety communities to determine their requirements for the 
nationwide network.
    Additionally, FirstNet will be reaching out to industry 
stakeholders, working with standards-setting bodies, and conducting 
extensive technical and financial modeling and market research to 
formulate a preliminary plan for its network design. If confirmed, I 
will work with Congress and FirstNet toward the success of this vital 
project in every state and region of our country.

    Question 5. NOAA does not drive the national economy in the same 
way as other agencies that have the capacity to train the workforce, or 
offer large scale infrastructure development. On the other hand, the 
environmental intelligence it provides has an impact that is difficult 
to quantify--but for example, simple day-to-day variability in the 
weather was estimated in 2008 to have an impact of roughly $485 billion 
(in 2008 dollars), or about 3.4 percent of the 2008 gross domestic 
product. What do you see as the role of the Secretary to help ensure 
that U.S. businesses and communities alike take advantage of NOAA's 
environmental intelligence to support better resilience to weather?
    Answer. As a businessperson with 27 years of experience building 
and growing companies, I know how essential all different kinds of data 
are to one's success. American companies rely daily on a variety of 
information disseminated by the Department of Commerce including 
demographic data, weather data, coastal data, and trade data to name a 
few. If confirmed, I would see my role as Secretary of Commerce as one 
in which I am an advocate for NOAA and the other Commerce agencies in 
supporting their ability to continue providing the economic and 
environmental intelligence they do today. As importantly, I would see 
my role as a spokesperson and promoter for that information to American 
businesses and the American public. It is important for business owners 
to know the information exists, how to access it, and how to use it.

    Question 6. The Department of Commerce has the lead to implement 
the RESTORE Act in part because if its capacity to support both 
environmental and economic recovery in the Gulf. What plans do you have 
to capitalize on the experience, and to bring a balanced, science-based 
approach to bolster other regions as they are struck by natural 
disaster?
    Answer. In October 2012, in accordance with the RESTORE Act, the 
States selected and the President appointed the Secretary of Commerce 
to chair the Gulf Coast Ecosystem Restoration Council (Council). This 
selection reflects the fact that the Department of Commerce's strengths 
include the three pillars of the RESTORE Act framework: ecosystem 
restoration (National Oceanic and Atmospheric Administration); economic 
development (Economic Development Administration) and tourism promotion 
(the International Trade Administration's Office of Travel and 
Tourism). If confirmed, I look forward to serving as the Chair of the 
Council. The Council has a unique opportunity to implement a 
coordinated Gulf Coast region-wide restoration effort in a way that 
restores and protects the Gulf Coast environment, reinvigorates local 
economies, and creates jobs.
    While the RESTORE Act was passed in response to the Deepwater 
Horizon oil spill and charged the Council with implementing a 
restoration plan specific to the Gulf Coast region, if confirmed, I 
would also welcome the opportunity to bring any applicable insights and 
``lessons learned'' from the Council's work to other regions of the 
country.

    Question 7. Currently, the Nation's seafood trade deficit totals 
more than $11 billion annually. Responsible, environmentally-sound 
aquaculture is, in my opinion, a great way to correct this imbalance 
without putting additional pressure on our domestic fisheries. However, 
I understand that there is not a single aquaculture operation in U.S. 
Federal waters--even though, four years ago, the Gulf of Mexico 
Regional Fishery Management Council approved a Fisheries Management 
Plan for Aquaculture in waters 3 to 200 miles offshore in the Gulf. As 
I understand it, the stumbling block is that the Federal Government has 
still not approved regulations to implement the plan. What will you do 
to ensure the expedient review and approval of these regulations, and 
set-up of an efficient permit review process for new aquaculture 
ventures in the Gulf of Mexico waters--and to spread the model into 
other regions across the nation?
    Answer. I am aware of our country's seafood trade deficit and the 
challenge before us to reduce it. Environmentally responsible 
aquaculture is one important avenue to reducing our Nation's reliance 
on imported seafood and is an opportunity to create jobs here at home. 
I am not familiar with the current regulations or permit processes in 
place with respect to aquaculture, but, as a businessperson, I do know 
that a clear, reliable, consistent, and easily navigable set of 
processes and rules is important to entrepreneurs looking to invest in 
a new business. If confirmed, I look forward to working with Congress, 
NOAA and all stakeholders on the future of aquaculture in this country.

    Question 8. The United States of America has led the innovation in 
engineering of open ocean aquaculture cage aquaculture systems. In 
fact, one of my constituents Kampachi Farms, LLC, based in Kona, 
developed the Velella project, which was funded in part by NSF, and was 
named by TIME Magazine as one of the 25 Best Inventions of the Year for 
2012. U.S. companies and universities also led the breakthrough 
research into hatchery production of marine finfish, such as kampachi, 
cobia, and pompano.
    I was dismayed to learn that the lack of a solid regulatory 
framework in the U.S. has forced my constituent to grow its business on 
foreign shores in locations as diverse as Mexico and the Middle East. 
As I understand it, they are not alone: the University of Miami 
hatchery technicians are now consulting throughout the world, and HUBBS 
Seaworld Research Institute, based in California, now ships their 
fingerlings down to Mexico. This means we are missing the boat on open-
ocean cage aquaculture and the jobs it creates.
    What will you do to help promote open ocean aquaculture in the U.S. 
and encourage these companies to bring their environmentally sound, 
responsible aquaculture practices back to U.S. shores?
    Answer. This is a challenge faced in any industry when the 
regulatory scheme is unclear or difficult to navigate. If confirmed as 
Secretary of Commerce, it will be one of my priorities to do all that 
we can to support American businesses to keep their business in this 
country and to support American jobs. I'm not familiar with the current 
regulations or permit processes in place with respect to aquaculture, 
but, as a businessperson, I do know that a clear, reliable, consistent, 
and easily navigable set of processes and rules is important to 
entrepreneurs looking to invest in a new business. If confirmed, I look 
forward to working with Congress, NOAA and all stakeholders on the 
future of aquaculture in this country.

    Question 9. Responsibly scaled, appropriately sited open ocean net 
pen culture has been demonstrated to have no significant environmental 
impact. Yet any aquaculturist faces a significant number of permits and 
multifaceted review processes: NOAA permission, Army Corps review, 
EPA's National Pollutant Discharge Elimination System (NPDES), Coastal 
Zone Management (CZM) compliance review. The overlapping 
responsibilities and jurisdictions are extraordinarily complex and 
difficult to navigate, and are a deterrent to developing new open ocean 
aquaculture projects. What are your plans to develop an efficient, 
responsible open ocean aquaculture permit review process so that we can 
develop a U.S.-based industry that creates jobs, helps the economy, 
produces safe and healthy domestic seafood?
    Answer. I am not yet familiar with the permit process and other 
regulatory steps through which a company must progress to offer a plan. 
If confirmed, I look forward to learning more about offshore 
aquaculture and working with NOAA, other Federal agencies, states, the 
fishing industry and others with the aim of providing a regulatory 
framework and review process that supports responsible offshore 
aquaculture.

    Question 10. There is a growing market for imagery from commercial 
satellites--especially for finer and finer resolution as better 
technology becomes increasingly accessible to private enterprise. 
However, the finer levels of resolution also raise questions of 
national security--in other words, that the satellite images might 
reveal strategic locations and information to interests hostile to the 
United States. The jurisdiction to balance these competing economic and 
security interests lies in the Department of Commerce--specifically the 
National Oceanic and Atmospheric Administration's Commercial Remote 
Sensing Regulatory Affairs Office.
    As I understand it, U.S. industry is limited by regulation to 0.5 
meter resolution, while European competitors are beginning to grow into 
much finer resolution: on the order of 0.3 meters. Accordingly U.S. 
industry has a petition before this Department of Commerce regulatory 
office to weigh the economic and security interests. Regardless of the 
merits of the petition, I believe that the petitioners are entitled to 
a timely resolution one way or the other. May I have your commitment to 
ensure that this petition moves forward without undue delay?
    Answer. If I am confirmed, I commit to learn about this petition, 
look into the process and work with you.

    Question 11. I am also concerned that efforts to implement the 
International Traffic in Arms Regulations (ITAR) passed at the end of 
last Congress might somehow sidetrack this petition. As I understand 
it, imaging satellites are currently covered by ITAR, and so it is 
possible that the Commercial Remote Sensing Regulatory Affairs Office 
might hold off on adjudicating the petition regarding the limits on 
commercial imagery resolution to defer to the ITAR process.
    I have been briefed that the Department of Commerce has been 
participating in the ITAR process through its Bureau of Industry and 
Security (BIS), along with State and the Department of Defense, and so 
as Secretary you will have an understanding of both the ITAR and 
imagery resolution petition. How will ensure that the implementation of 
ITAR will not unduly hold up applications received by the Commercial 
Remote Sensing Regulatory Affairs Office?
    Answer. My understanding is that these are separate issues. The 
Commercial Remote Sensing Regulatory Affairs Office's review of license 
applications and amendments is not affected by the proposed transfer of 
certain satellites and related items from the United States Munitions 
List (USML) to the Commerce Control List (CCL). If confirmed as 
Secretary, I will work closely with BIS to complete the transfer of 
satellite-related items from the USML to the CCL in a swift, but 
thoughtful manner in order to be responsive to U.S. commercial 
interests while safeguarding national security. The Commercial Remote 
Sensing Regulatory Affairs Office's review of current and future 
license applications and amendments will follow its existing process.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. William Cowan to 
                             Penny Pritkzer
    Question 1. For the 2010 decennial, the Census Bureau spent 
approximately $900 million dollars developing its own in-house mapping 
function. Meanwhile, private sector companies are investing their own 
capital to create maps we all use every day on our mobile phones, on 
GPS devices, and in our vehicle navigation systems. These would seem to 
be largely duplicative efforts. In 2010, and again in 2012, the GAO 
recommended the Census Bureau look at private sector mapping as an 
opportunity to control costs and improve accuracy. To date, I 
understand that the Bureau has yet to work with those private sector 
sources of mapping data in a meaningful way. As we prepare for the 2020 
decennial, would you support coordinating with the private sector to 
determine if there are effective mapping functions that can be provided 
at a similar quality for less expense?
    Answer. It is my understanding that the Census Bureau has begun 
working with private sector mapping sources. If confirmed, I will be 
happy to look into this issue further.

    Question 2. We've heard a great deal about the challenges faced by 
U.S. business due to Indian industrial policies that potentially 
discriminate against foreign investment and imports for the sake of 
supporting Indian domestic industries, as well as its uncertain legal 
and regulatory environment for foreign businesses. Some have compared 
India's policies to China's--and feel that these policies are removing 
opportunities for market access in this growing economy of 1.2 billion 
people.
    In fact, it seems as if every industry has been negatively 
impacted. Indian tariffs applied to agricultural imports are among the 
highest in the world, and are inconsistently and non-transparently 
applied. The U.S. biopharmaceutical industry has had several patents 
disregarded due to compulsory licensing and patent revocation and 
unreasonable patent denials. The U.S. technology industry is in danger 
of being shut out now due to India's preferential market access policy-
and so on.
    Obviously this is a real concern for U.S. businesses in India, but 
there is additional fear that many other emerging markets may see India 
as a model to emulate. Ms. Pritzker, if confirmed, what would be your 
plans over the next year to combat the increasing challenges we face in 
India?
    Answer. I share your concerns about any unfair trading practices 
that hurt U.S. businesses. I know that doing business in India can pose 
challenges for U.S. companies, from intellectual property issues to a 
variety of other trade barriers. I believe we should hold every 
country, including India, to their commitments.
    I know the Commerce Department has commercial service officers on 
the ground in India and around the world who are focused on helping 
U.S. businesses deal with these challenges. If confirmed, I will 
promote U.S. exports vigorously, and support our commercial diplomacy 
efforts across the globe to address unfair trading practices on behalf 
of U.S. firms and workers. Providing a level playing field for U.S. 
exporters requires tough trade enforcement, which will be a top 
priority for the Commerce Department if I am confirmed as Secretary.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
          Penny Pritzer regarding her Questionnaire Responses
Regarding Questions A.8, 9, and 11 (Positions Held/Employment History)
    In your responses to Questions A.8, 9, and 11, you list your 
position as chairman of TransUnion from 2004 to 2012. As you may know, 
TransUnion is one of a number of ``data brokers'' currently under 
investigation by Chairman Rockefeller.

  (1)  Are you aware ofthis investigation, which was initiated in or 
        around October 2012, but seeks information dating back to 2009, 
        which was during your tenure at TransUnion? If so, what has 
        been your involvement, if any, with the investigation?

  (2)  During your tenure at TransUnion, were you involved in decision 
        making about the collection, use and protection of consumer 
        information that is the subject of the Chairman's 
        investigation?

  (3)  In light of your recent role as chairman of TransUnion, how 
        would you respond to Chairman Rockefeller's stated concerns 
        that such companies ''take advantage of the increasingly 
        specific pieces of information about consumers that are now 
        available'' and that consumers are ``largely unaware'' of how 
        companies like TransUnion use consumers' ``sensitive 
        information for financial gain''?

  (4)  The Committee recently held a hearing about accuracy in credit 
        reports. What, if anything, did you do during your tenure at 
        TransUnion to improve the accuracy of consumer records and 
        ensure the timely correction of erroneous records?

    Answer. I served as the Chairman of the Board of TransUnion 
(``TU'')from 2004 to February 2012, at which time the company was sold 
I was unaware, until recently, of and have no involvement with respect 
to the investigation by the Commerce Committee, which was initiated on 
or around October 10, 2012.
    The duty of the Board was, among other things, to help establish 
strategic direction for the company, toprovide oversight of the 
management's operations and performance, and to approve material 
investments by the Company. The Board was also responsible for 
establishing the direction for management's implementation of good 
practices and appropriate business policies. During my tenure, the 
Board directed management to be more responsive to consumers' inquiries 
and complaints and to implementprocedures and systems to scifeguard 
financially sensitive information of consumers. I believe it is 
important that credit reporting agencies be as accurate as 
ispracticable with consumers' records, to correct promptly any 
erroneous records, and to safeguard sensitive information.
Regarding Question C.3 (Civil Litigation)
    In response to Question C.3 (in Exhibit C(3)), you list litigation 
against you and others arising from the FDIC's closure of Superior 
Bank. In response to questions posed by the New York Times in 2008, you 
wrote:

        Business interests of my extended family, voluntarily, agreed 
        to pay the F.D.I.C. $460 million to help defray the losses at 
        Superior despite the fact we had no legal duty to do so. Even 
        though I had no ownership interest (personally or through 
        trusts) in Superior Bank, trusts for my benefit, together with 
        trusts for the benefit of many other family members, 
        participated and will participate in these payments.

    You also told the Times that a letter you wrote to Superior Bank 
employees in May 2001, assuring them about the bank, was written 
``during a period of time in which we were engaged in negotiations with 
banking regulators concerning the recapitalization of Superior.'' No 
recapitalization plan was ever implemented, and it has been reported 
that Superior's depositors incurred significant losses.

  (1)  Please fully explain your role with respect to Superior Bank, 
        including your service as Chairman of the Board. Also, please 
        fully explain your role with respect to the bank's failure, 
        including your role with and the involvement of Coast-to-Coast 
        Financial Corporation.

  (2)  What, if any, lessons did you learn from your experience with 
        Superior Bank that would inform your service as Secretary of 
        Commerce?

    Answer. I became Chairman of Superior Bank (``the Bank'') in 1991, 
shortly after the Bank was acquired by Coast-to-Coast Financial 
Corporation (``CCFC''). I left thatposition in 1994, at which time the 
Bank was in good standing with its regulators. In my role as Chairman, 
I, with other members of the Board, oversaw the activities of 
management of the Bank, the hiring of senior levelpersonnel at the 
Bank, and the establishment of appropriate policies and procedures for 
the Bank's operations. Because Superior was a successor to afailed 
savings and loan association, a substantial part of the Bank's 
operations during my tenure as Chairman involved the management, 
disposition, and liquidation of loans (or interests in loans) 
previously made by thefailed institution. I spent a great deal of time 
during my tenure as Chairman of the Bank in the oversight of 
management's resolutions of these loans.
    After I left the Superior Bank Board, I was a member of the Board 
of Directors of CCFC, which was the holding company and owner of the 
Bank. The holding company Board of Directors reviewedfinancial 
statements and results of operations of its subsidiaries, including the 
Bank. Operations and policies of Superior Bank were primarily the 
purview of the Bank's management and the Bank's separate Board. When it 
came to the attention of the Board of Directors of CCFC that Superior 
Bank was having difficulties with the regulators, I became actively 
involved in trying to work out a solution and compromise for all 
parties. My involvement included leading negotiations with 
representatives of the shareholders of CCFC, regulatory authorities, 
and other constituencies who were affected by the Bank's situation in 
an effort to recapitalize Superior. These negotiations proved 
unsuccessful and unfortunately, Superior failed. Under an agreement 
with the Federal Deposit Insurance Corporation, Superior's receiver, 
business interests of my extended family agreed topay, voluntarily, 
$460 million to help defray the losses at Superior.
    This experience, as well as my over 27 years in business, have 
taught me the importance of governance, transparency, oversight, and 
tone at the top.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Penny Pritzker
Regulatory Uncertainty
    Question 1. As I travel around South Dakota and the country, one of 
the reasons employers say they are not hiring is the uncertainty caused 
by the Federal Government, from regulation of health care to such 
things as the EPA's controversial greenhouse gas regulations. Would you 
agree that regulatory uncertainty is a contributing factor to high 
unemployment and economic stagnation, and if confirmed as Secretary of 
Commerce, how will you use that position to provide greater regulatory 
certainty for job creators?
    Answer. As someone who has spent more than 27 years in business, I 
understand the complexities and challenges of complying with government 
regulations. And I know that businesses need regulatory certainty. I 
believe it's important to regularly scrutinize our regulatory 
framework, to make sure it reflects 21st century needs, and to make 
certain we find the right balance that establishes appropriate 
protections for the American people while enhancing American 
competitiveness.
    If confirmed, I will be a voice for business in the Cabinet on this 
effort and others.

    Question 2. If another agency is taking a regulatory action that is 
detrimental to job creation and competitiveness, will you raise 
objections to those actions within the Administration on behalf of job 
creators in the United States?
    Answer. The President has asked me to be a strong voice for 
business within his Administration, and, if confirmed, I look forward 
to making sure the business perspective is heard on a range of issues, 
including regulatory policy. I also have extensive experience making 
sure the business community's perspective is heard in Washington, 
having served on the President's Council on Jobs and Competitiveness 
and Economic Recovery Advisory Board.
Spectrum (clearing the 1755-1780 MHz band for commercial use)
    Question 3. Ms. Pritzker, one of the President's key initiatives is 
to make 500 megahertz of Federal spectrum available for commercial use. 
While more spectrum is absolutely necessary, I believe that we need to 
focus on the quality of that spectrum, not just the quantity. In 
particular, the 1755-1780 megahertz band is one that many of my 
colleagues and I would like to see opened up for commercial use, but we 
have had a hard time getting all the Federal stakeholders to focus just 
on that specific band. As I noted in my opening statement, the Commerce 
Department is uniquely situated to play a role in this matter, because 
one of its agencies, the NTIA, is responsible for managing all Federal 
Government radio spectrum.
    Should you be confirmed, will you work with me to find ways, along 
with NTIA and other Federal agencies, to free up more Federal spectrum 
for commercial use in a timely manner, particularly with regard to the 
1755-1780 megahertz band?
    Answer. I agree that we must continue our efforts to make more 
spectrum available to meet the growing demand. I understand that the 
1755-1780 megahertz band is of particular interest to many 
stakeholders. At the same time, we need to be certain that Federal 
agency missions are not negatively impacted.
    Making more commercial spectrum available is a key to continuing 
the incredible pace of innovation and growth on the Internet and in 
wireless mobile devices. NTIA is working hard to meet that goal by 
working with the FCC and a wide range of other government agencies to 
find ways to move and consolidate their spectrum, so that more spectrum 
can be made available for wireless broadband. NTIA has already 
identified 115 megahertz of spectrum that can be made available for 
wireless broadband uses. NTIA is working with the FCC to identify the 
500 megahertz the President has called for, and is well on the way to 
doing so.
    If I am confirmed as Secretary, I will work with NTIA as it strives 
to meet its commitment to find the spectrum that is needed to meet 
demand for wireless broadband.
Tax Structure and Negative Impact on Industry
    Question 4. The U.S. must focus on being the best country in the 
world to locate manufacturing companies. As such, the U.S. must adopt a 
pro-manufacturing tax policy that does not discourage economic growth 
and destroy jobs. Yet, the U.S. currently has the second highest 
statutory corporate tax rate among the major Organization for Economic 
Cooperation and Development countries. Because of this, our country's 
manufacturing sector is put at a major disadvantage in the global 
market. I'm concerned that, to date, the Administration has yet to put 
forth a serious tax reform package. If this country is to maintain a 
competitive advantage and to get our economy back on track, we must 
make tax reform priority. In your view, what impact has the corporate 
tax structure had on U.S. industry?
    Answer. I agree with the Administration's conclusion, in its 2012 
business tax reform framework, that the U.S. corporate tax system is 
uncompetitive and inefficient. It is too complicated and does not do 
enough to encourage domestic job creation and investment.
    I hope there is an opportunity to make progress on tax reform this 
year, and, if confirmed, I expect to be part of the conversation within 
the Administration as a key member of the President's economic team.

    (a) To what extent is the current U.S. corporate tax structure 
discouraging manufacturing companies from locating or expanding their 
facilities on U.S. soil?
    Answer. The Administration's framework report noted how tax 
expenditures in the business tax system have disparate impacts on 
different industries. The manufacturing industry pays an effective 
corporate tax rate that is higher than some industries, such as 
transportation, and lower than others, such as construction, according 
to the report. The overall effective Federal tax rate for U.S. 
corporations was 26 percent, the same as that for the manufacturing 
industry. That's below the Federal statutory rate of 35 percent. The 
Administration's framework would cut the effective corporate tax rate 
for manufacturing, an area of the economy that will be a major focus 
and high priority at the Commerce Department, if I am confirmed.

    (b) What suggestions do you have with respect to tax reform that 
would encourage the growth of manufacturing in the U.S.?
    Answer. I support the President's call for comprehensive tax reform 
as part of a balanced plan to reduce the deficit, bolster economic 
growth, and increase job creation.
    The Administration's framework includes efforts to effectively cut 
the top corporate tax rate on manufacturing income. I support the 
President's approach on this issue.
Forced Localization of Production
    Question 5. The Indian government is engaged in a pattern of 
discrimination against foreign products, including those from the 
United States, designed to benefit its domestic corporations. It is 
unfairly compelling domestic production of everything from information 
technology and clean energy equipment to medicines and medical devices, 
and creating barriers at the expense of American jobs and exports. This 
is no way for one of the world's biggest economies to treat its second 
largest export trading partner. And there is reason to fear other 
countries may adopt similar tactics.
    If confirmed, what will you do as Secretary of Commerce to secure 
real and timely results for American manufacturers and to ensure India 
complies with its international obligations?
    Answer. I share your concerns about any unfair trading practices 
that hurt U.S. businesses. I know that doing business in India can pose 
challenges for U.S. companies, from compelling domestic production, 
intellectual property issues to a variety of trade barriers. I believe 
we should hold every country, including India, to their commitments.
    I know the Commerce Department has commercial service officers on 
the ground in India and around the world who are focused on helping 
U.S. businesses deal with these challenges. If confirmed, I will 
promote U.S. exports vigorously, and support our commercial diplomacy 
efforts across the globe to address unfair trading practices on behalf 
of U.S. firms and workers. Providing a level playing field for U.S. 
exporters requires tough trade enforcement, which will be a top 
priority for the Commerce Department if I am confirmed as Secretary.
Satellites
    Question 6. Satellite programs of the National Oceanic and 
Atmospheric Administration comprise about one-fifth of the Department 
of Commerce's total budget. Two of the largest programs are the polar-
orbiting Joint Polar Satellite System (JPSS) and the Geostationary 
Operational Environmental Satellite (GOES) R-series. These are not only 
a significant and long-term financial commitment, but these satellites 
provide critical data to support our Nation's weather forecasting 
capabilities. However, some satellite programs have been plagued by, or 
are at risk of, cost overruns and schedule delays, earning them the 
dubious distinction of being named one of the top five management 
challenges facing the Department in a recent Office of Inspector 
General (OIG) report (Report no. OIG-13-003, November 9, 2012). The 
report states, ``preventing significant cost overruns and minimizing 
the impact of satellite coverage gaps will continue to require top-
level management attention'' (emphasis added). The Government 
Accountability Office (GAO), independent assessment groups, and 
Congress have expressed concern about the management of NOAA's 
satellite programs and have offered recommendations for the future of 
these programs.
    How would you, if confirmed as the top official at the Department 
of Commerce, use your skills to responsibly shepherd these programs and 
protect the public investment in, and essential data from, NOAA 
satellites?
    Answer. As a citizen, I understand how essential accurate and 
timely weather forecasts are to protect life and property. As a 
businessperson, I understand that a successful business is based on 
reliable and timely information and technology. NOAA's National Weather 
Service provides essential information for the protection of life and 
property as we have seen with recent severe weather. If confirmed, I 
will take very seriously my management role for all of the Department 
of Commerce's programs. I am keenly aware of the importance of NOAA's 
satellites and commit to bringing my management skills to the team 
which oversees the Department's satellite programs.
Timely communication with Congress
    Question 7. Questions for the record--like this one--are an 
important way for our Committee Members to more deeply understand the 
positions of the Departments and agencies over which we have 
jurisdiction. We hope that those Departments and agencies view the 
responses to those questions as an opportunity to further educate 
Members about their challenges and views. In March 2012, our 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard held a 
hearing on the Fiscal Year 2013 budget proposals for NOAA and the Coast 
Guard. Several Committee Members submitted written Questions for the 
Record to Dr. Jane Lubchenco, who was at that time the Under Secretary 
of Commerce for Oceans and Atmosphere. Over ten months later, in 
January 2013, the Committee closed the hearing record without ever 
having received responses from Dr. Lubchenco. Regrettably, this 
acknowledgement was printed in the hearing record: ``Although Committee 
Members submitted written Questions for the Record to Dr. Jane 
Lubchenco following the March 7, 2012 hearing, NOAA did not provide 
responses to the Committee before the hearing record was closed on 
January 25, 2013.''
    If you are confirmed to be Secretary of Commerce, will you ensure 
that communications between your Department and its agencies and our 
Committee and its Members are timely and accurate?
    Answer. If confirmed, I will make sure that that the Department has 
a collaborative and productive relationship with the Committee and its 
members, which means that the Department and each of its agencies must 
provide accurate and timely answers to the Committee's questions. I 
understand that the Committee must be able to do its work in order for 
the Department to achieve its mission.
National Weather Service
    Question 8. The National Academy of Public Administration recently 
released a report entitled, ``Forecast for the Future: Assuring the 
Capacity of the National Weather Service.'' This report examined the 
National Weather Service's current operations and made concrete 
recommendations to move the Weather Service forward, including: 
improving external stakeholder engagement; assessing staff alignment; 
re-framing the relationship between management and labor; and 
streamlining research-to-operations and operations-to-research 
functions. At your nomination hearing, you recognized the importance of 
the National Weather Service, and said that ``making sure that our 
weather service is best-in-class'' would be a high priority for you if 
confirmed as Secretary of Commerce. In particular, what role could you 
play, if confirmed, in supporting the National Weather Service as it 
adopts certain reforms?
    Answer. While I'm not familiar with the specifics of the National 
Academy of Public Administration report, I understand that a successful 
business must be nimble, efficient and adaptable to its customers' 
needs. An agency like NOAA's National Weather Service must possess the 
same traits, especially given the vital life and property protection 
role it serves. If confirmed, I can work with NOAA to identify 
potential future reforms, provide leadership and management oversight, 
and ensure that any potential changes allow NOAA to continue to 
provide, and improve where possible, the level of service for the 
American people.
NOAA leadership
    Question 9. The Office of Inspector General identified high 
turnover in leadership positions at the agency as one of the challenges 
to NOAA's satellite programs. A number of key positions in the National 
Marine Fisheries Service and elsewhere in NOAA are currently filled by 
individuals in acting capacities. As you mentioned at your nomination 
hearing, ``it's important to have good expertise around me,'' and I 
appreciate your commitment to ensure these positions are filled with 
the best people to carry out these important responsibilities.
    If confirmed, how will you work to ensure that these leadership 
transitions do not negatively impact the effectiveness of the agency?
    Answer. Leadership is critical to any organization, and I share 
your feeling that it's important that the Department fill top vacancies 
at NOAA and other bureaus as quickly as possible--but that it do so 
deliberately, to make sure we make the right choices. If confirmed, I 
will make filling these vacancies a top priority. In the meantime, I am 
confident that current Department of Commerce leadership will continue 
to successfully fulfill the Department's mission.
Offshore Tax Avoidance
    Question 10. Ms. Pritzker, as we discussed during your courtesy 
visit with me and at your confirmation hearing, some have criticized 
the fact that you are a beneficiary of offshore tax avoidance schemes, 
via offshore family trusts, and have noted that it is hypocritical for 
the President to nominate cabinet members who have benefitted from 
offshore tax havens when he has criticized that practice for others.
    While you explained that you do not control these offshore trusts 
and have now asked the trustee(s) to ``remove themselves and to appoint 
a U.S. trustee,'' please respond to the following additional questions:

    (a) Were any of your trusts ever located at Ugland House in the 
Cayman Islands, which the President has described as ``the largest tax 
scam in the world''?
    Answer. No, not to my knowledge.

    (b) Your publicly filed financial disclosure form indicates that 
you collected nearly $54 million in consulting fees from CIBC Trust 
Company (Bahamas) Limited in 2012. In our prior communications, you 
have indicated that this payment was for services that you rendered 
over a 10-year period as part of a restructuring of your family's 
assets that concluded in December 2011. Can you confirm that this 
payment was a one-time payment for the aforementioned services, and not 
a payment received in lieu of a distribution from your family's 
offshore trust(s)?
    Answer. Confirmed.

    (c) Can you confirm that you have paid U.S. taxes on the consulting 
fees you have received from CIBC Trust Company (Bahamas) Limited, as 
well as similar fees you were paid by other U.S.-based trusts as part 
of your family's restructuring of assets?
    Answer. Confirmed.
Failure of Superior Bank
    Question 11. Ms. Pritzker, during your courtesy visit with me and 
at your confirmation hearing we discussed the failure of Superior Bank 
in 2001, a bank that was one of the early leaders in subprime lending. 
While you discussed the role your family had in negotiating the 
subsequent settlement with the FDIC, you did not fully answer my 
question. As I mentioned at the hearing, according to a 2002 report 
issued by the FDIC's Inspector General, concerns were raised by the 
Office of Thrift Supervision (OTS) about the bank's mortgage banking 
practices as early as 1993, when you were still Chair of the bank's 
Board.
    Were you aware of the concerns raised by the OTS in 1993 regarding 
banking practices at Superior while you were Chair of the Board? If so, 
did you take any action to address these concerns?
    Answer. I have no recollection of having been made aware in 1993 of 
the concerns raised by the OTS regarding banking practices at Superior. 
I would note that the 2002 report by the Inspector General states:

        ``As early as 1993, OTS examiners reflected some concerns about 
        the risks associated with residual assets, at the time totaling 
        $18 million, or about 33 percent of tangible assets. Yet, as 
        shown in Table 3, OTS did little to either curb growth or 
        concentrations, which reached $977 million for over 345 percent 
        of capital as reflected in the 2000 examination.'' See: Page 
        19, Office of Inspector General Report ``Material Loss Review 
        of Superior Bank, FSB,'' February 6, 2002 (``OIG Report'').

    Question 12. In addition, others have pointed out that you 
continued to serve as a board member for Superior Bank's holding 
company, Coast-to-Coast Financial (CCFC) until the bank's failure. In 
your later role with CCFC, what knowledge did you have of subsequent 
concerns from the OTS? What action did you take as the holding company 
for the bank?
    Answer. I believe that it was sometime during 2000 that I became 
aware of the concerns of the OTS as to the valuations of Superior's 
assets. I recall that the bank holding company board became actively 
involved in trying to assess the situation in the summer of 2000, and I 
was part of the team assembled by the owners of CCFC, which was 
involved in assessment of the issues and the attempt to craft 
solutions.

    Question 13. The 2002 report from the FDIC Inspector General also 
discussed Superior Bank's sale of some subprime loans to CCFC at below 
market value, which CCFC very quickly sold for a significant profit of 
$20.2 million. The FDIC determined that this sale violated regulations 
that prohibited sales to affiliates and requirements for arm's length 
transactions, and ordered the money to be returned to Superior Bank. 
While you were at CCFC, what was your role in the sale of these 
accounts, and in discussions with the FDIC about return of the money to 
Superior?
    Answer. I am unable to recall having any specific role as to the 
sale of such loans by Superior Bank to CCFC, but I was a member of the 
Board of Directors of CCFC. I would note that CCFC made a capital 
infusion in March 2001 to Superior by down-streaming CCFC's beneficial 
interest in $81 million of residual assets according to the Office of 
Inspector General 2002 Report. See: OIG Report, Appendix 4.

    Question 14. Some uninsured depositors of Superior Bank claim that 
CCFC principals took out large loans from Superior that they had no 
intention of repaying, and that they drained Superior's assets by 
directing Superior to pay CCFC $188 million in dividends over the ten-
year period from 1989 to 1999, a requirement that Superior was not able 
to withstand. You were a member of the Board of Directors of CCFC from 
1994 until the failure of Superior Bank in 2001. Did you play any part, 
either as Chairman of Superior Bank, or in your role as a member of the 
Board of Directors of CCFC, or at any time in your association with 
Superior Bank, in securing payment of dividends to CCFC over the 1989-
1999 period?
    Answer. I was Chairman and a member of the Board of Superior Bank 
from 1991-1994. After 1994, I was a member of the Board of Directors of 
CCFC but was not the Chairman of the board nor a member of the board of 
the bank during the remainder of that period. From 1991 through 1999, 
Superior Bank received clean audits from its independent auditors, 
Ernst & Young, which firm also validated the valuations of Superior's 
assets, and CAMELS Rating of 2/12222N in OTS exam completed 5/6/1991; 
FDIC Ratings of 3/32333 in exam completed 4/26/1991; FDIC Ratings of 3/
32232 in exam completed 4/24/1992; CAMELS Rating of 2/22232N in OTS 
exam completed 8/28/1992; CAMELS Rating of 2/22221N in OTS exam 
completed 8/12/1993; CAMELS Rating of 2/22222 in OTS exam completed 9/
9/1994; CAMELS Rating of 2/22212 in OTS exam completed 10/31/1995; 
CAMELS Rating of 2/22211N in OTS exam completed 11/20/1996; CAMELS 
Rating of 1/211121 in OTS exam completed 12/51997; and a CAMELS Rating 
of 2/222121 in OTS exam completed 3/1/1999. I do not have any specific 
recollections of dividends by Superior to CCFC during the period I was 
Chairman of the bank from 1991 until early 1994. After that period, any 
dividends would have been declared by the board of directors of the 
bank of which I was not a member. A loan was made by CCFC to UBH, Inc., 
an entity owned and controlled by interests of Mr. Alvin Dworman. I am 
unaware of any loan or distributions having been made by CCFC to 
interests affiliated with my extended family.

    Question 15. In your letter dated May 20, 2013, responding to my 
May 15, 2012 correspondence regarding questions about your role in the 
failure of Superior Bank, you wrote: ``When it came to the attention of 
the Board of Directors of CCFC that Superior Bank was having 
difficulties with the regulators, I became actively involved in trying 
to work out a solution and compromise for all parties. My involvement 
included leading negotiations with representatives of the shareholders 
of CCFC, regulatory authorities, and other constituencies who were 
affected by the Bank's situation in an effort to recapitalize Superior. 
These negotiations proved unsuccessful and unfortunately, Superior 
failed.'' However, you wrote a letter in May 2001 to the management and 
employees of Superior Bank announcing that an agreement had been 
reached with the Office of Thrift Supervision for a $351 million plan 
to recapitalize Superior Bank. Ellen Seidman, the director of the 
Office of Thrift Supervision at the time of the failure of Superior 
Bank, said during a Senate Banking Committee hearing held on October 
16, 2001, that ``the people who owned [Superior Bank], much to our 
surprise, walked away from it after having promised to put it back 
together again.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Senate Banking Committee Hearing on the Failure of 
Superior Bank, held on September 11, 2001, and October 16, 2001. 
Official Transcript, page 24.
---------------------------------------------------------------------------
    Why did the owners of Superior Bank walk away from negotiations on 
a recapitalization plan to rescue the bank after having promised to put 
it back together again?

    (a) Did the owners of Superior Bank understand that by walking away 
from negotiations, some uninsured depositors might lose significant 
amounts of their savings?
    Answer. The owners of the holding company understood that by not 
reaching an agreement as to the terms of a recapitalization plan, it 
was highly probable OTS would appoint the FDIC as receiver for 
Superior, which could result in losses for uninsured depositors.

    (b) Was it your decision to withdraw the recapitalization plan? If 
not, what was your opinion with regard to going forward with the plan?
    Answer. I was never the sole decision-maker with respect to matters 
involving Superior Bank on behalf of the business interests of my 
extended family, which only owned 50 percent of the bank's holding 
company. As we continued to assess the recapitalization plan and the 
terms of proposed agreements with OTS and other interested parties, we 
came to the conclusion that the plan under discussion would not 
succeed. We were unable to reach an agreement with the OTS and other 
interested parties as to a plan we thought would be successful.

    Question 16. In its own 2002 review of Superior's collapse, the 
Government Accountability Office (GAO) found that ``primary 
responsibility for the failure of Superior Bank reside[d] with its 
owners and managers,'' although GAO also faulted regulators and the 
bank's accounting firm. The FDIC's Inspector General separately 
concluded that the ``actions of the Board and executive management 
resulted in the transference of funds to holding companies, also owned 
by Superior's owners, at the expense of the institution's capital. This 
transference had the effect of unduly enriching those companies, and 
potentially their owners.''
    Ultimately, some of the bank's uninsured depositors claim to have 
lost over $100,000 of their savings--including one who reportedly 
deposited her entire retirement account with Superior a month before it 
failed.
    While I appreciate that your family agreed to pay $460 million to 
the FDIC to defray the losses at Superior, underinsured depositors 
reportedly still lost approximately $10 million.

    (a) Did you or the other owners ever consider making whole the 
depositors who lost significant sums of money because of this risky 
venture in subprime lending?
    Answer. Under applicable Federal law, once an insured bank goes 
into receivership, the FDIC is vested with the sole and exclusive 
authority to resolve claims of all depositors of the failed 
institution. Further, the operations of the bank and the collection of 
its assets and settlement of its liabilities are within the sole 
management and purview of the FDIC. Business interests of my extended 
family negotiated and entered into an agreement with the FDIC which we 
thought, and presumably the FDIC believed, was in the interests of all 
concerned. We were hopeful that the FDIC, through its management of the 
receivership, would have been able to recover sufficient monies, 
including the more than $450 million we paid to the receivership, to 
make all depositors whole. Unfortunately, this was not the result 
achieved by the FDIC, although uninsured depositors received their 
insured amounts and 81 percent of their uninsured amounts, which is 
unusually high for such situations.

    (b) Is it correct that, while your family effectively owned a 50 
percent stake in the bank, the other 50 percent owner did not 
contribute to the settlement with the FDIC? Do you know why this was 
the case?
    Answer. It is true that the Dworman interests, which owned the 
other 50 percent of the holding company, made no payments to the FDIC. 
I won't speculate as to why they did not do so.

    Question 17. In your letter dated May 20, 2013, responding to my 
questions on your role in the failure of Superior Bank, you wrote: 
``This experience . . . [has] taught me the importance of governance, 
transparency, oversight, and tone at the top.'' However, you did not 
elaborate. What specifically did this experience teach you about the 
importance of governance, transparency, and oversight, and what, if 
anything, would you have done differently?
    Answer. Hindsight is always conjectural. But, on reflection, as a 
younger career professional, I deferred to the judgment of my elders 
and placed too much faith in information that I received from the 
bank's management, accountants, auditors, and regulators. I have 
learned to ask tougher questions, to be more skeptical, and to insist 
upon more independent checks and balances.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             Penny Pritzker
    Question 1. For the past several years, the Congress has pressed 
the Administration to focus on a results-oriented strategy to address 
the problems that U.S. industry is facing by China's lack of 
enforcement of intellectual property, including in the area of 
software. We have encouraged the setting of objective, measurable 
benchmarks like sales and a timeline to show success in reducing IP 
infringement. What is your view on establishing metrics?
    Answer. Hard sales data of U.S. industry products are a good way to 
determine whether Chinese companies are reducing their use of pirated 
or counterfeit goods. It's my understanding, however, that these data 
largely derive from proprietary information that is in the hands of 
companies. Additionally, I know many industry sectors have estimates on 
piracy, counterfeit, or infringement rates; however, these rates may 
not translate easily into lost sales figures since other factors may 
also impact sales. In some cases, market access restrictions impede the 
sales of legitimate goods significantly and perhaps more than IP 
infringement. Relying on enforcement data has its risks, as well. 
Increased enforcement does not necessarily indicate that legitimate 
sales or the environment are improving. If confirmed, I will be happy 
to engage with industry to explore how we can use available data to 
assess Chinese commitments to a fair playing field for U.S. companies.

    Question 2. It appears that the Chinese Central government has made 
progress with their ``Special Campaign'' in terms of cleaning up the 
use of pirated products. However, there appears to still be a 
prevalence of IP infringement by State-owned, financially powerful and 
large enterprises, including those that are publicly-traded. Many of 
these actors engage in substantial commercial activity in China and are 
formidable in global markets. The standard practice for businesses and 
financial institutions is to implement annual, independent software 
verification. Third-party software verification might be a good way to 
move forward and remove some of the tensions that we have seen. Do you 
believe we should attempt to persuade China to establish a commonly-
recognized mechanism of independent software verification?
    Answer. I am aware that in discussions with the Chinese government, 
the Department of Commerce has advocated for benchmarks on the sale of 
legitimate software to China that are commensurate with the sale of 
software to other countries with a similar GDP to China's GDP. 
Unfortunately, sales of legitimate software to China fall far short 
compared to similar countries.
    I understand that the Department of Commerce has repeatedly pressed 
China to have its State-Owned Enterprises (SOEs) implement independent, 
third-party audits of software to verify that the software being used 
by the SOEs is legitimate. Such audits should be ongoing, not just a 
one-time event. The Department has also been encouraging all Chinese 
governmental institutions and private companies to implement 
independent third-party audits of software on an ongoing basis.
    In addition to more enforcement, pressing China to continue to make 
systemic improvements in its intellectual property system, including 
improving criminal intellectual property enforcement, will be a 
priority for me if I'm confirmed. If confirmed, I will also work to 
continue monitoring developments to ensure that improvements are 
durable and sustained.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                             Penny Pritzker
Spectrum
    Question 1. Two years ago, the Government Accountability Office 
examined NTIA's management of Federal spectrum. GAO found that:

  <bullet> NTIA's efforts in spectrum management ``have been limited'';

  <bullet> ``NTIA does not have specific requirements for agencies to 
        justify their spectrum assignments or validate data used for 
        these evaluations'';

  <bullet> ``NTIA has limited assurance that the data used to make 
        spectrum management decisions are accurate''; and

  <bullet> ``NTIA has limited ability to monitor Federal spectrum 
        use.''

    These findings are concerning. NTIA is working to address these 
findings, but as the demand for spectrum increases, it is imperative 
that the Federal Government uses its spectrum efficiently. This 
requires an effective NTIA that is fulfilling its statutory 
responsibility to manage Federal spectrum. What will you do as 
Secretary to ensure that NTIA is meeting its responsibility? What will 
you do to ensure the GAO's findings are addressed?
    Answer. As someone with more than 27 years of experience in the 
private sector, I understand accountability is important for 
successfully running an organization. If confirmed as Secretary, I will 
work with NTIA as it strives to meet its commitment to identify 500 
megahertz of spectrum as called for by the President and its 
requirement to make sure that the government uses spectrum efficiently.

    Question 2. The proliferation of smart phones and tablets has 
created an ``app'' economy, but has also led to an explosion in the use 
of bandwidth for wireless services.

  <bullet> Do you believe that there is a spectrum crunch in the United 
        States--meaning that consumer demand for wireless spectrum will 
        soon outpace supply?

  <bullet> What new actions will the Department of Commerce take under 
        your leadership to alleviate the spectrum crunch?

    Answer. I believe that we must continue our efforts to make more 
spectrum available for wireless broadband to meet the growing demand, 
which is well-documented, including in the President's 2010 Memorandum. 
Making more spectrum available is a key to continuing the incredible 
pace of innovation and growth on the Internet and in wireless mobile 
devices. The President has set a bold goal of doubling the amount of 
spectrum that the government licenses for commercial uses. NTIA is 
working hard to meet that goal by working with the FCC and a wide range 
of other government agencies to find ways to move and consolidate their 
spectrum, so that more spectrum can be freed up to license for 
commercial uses. NTIA is working with the FCC to identify the 500 
megahertz the President has called for, and is well on the way to doing 
so. Meeting the long term requirements will depend on repurposing of 
spectrum, sharing spectrum and technology improvements.

    Question 3. The Department of Commerce is responsible for managing 
the Federal Government's use of spectrum. That responsibility extends 
to all Federal agencies. Yet, at times, it seems as though other 
Federal agencies set the Federal Government's spectrum policy and NTIA 
simply rubber stamps what those agencies want. Will this trend continue 
under your leadership, or will you reassert the Department of 
Commerce's statutory responsibility to manage the Federal Government's 
use of spectrum?
    Answer. As someone with more than 27 years of experience in the 
private sector, I understand accountability is important for 
successfully running an organization. If confirmed as Secretary, I will 
work with NTIA as it strives to meet its commitment to effectively 
manage Federal spectrum use so that commercial and government entities 
have sufficient spectrum to meet their needs.

    Question 4. I am concerned that the estimates for relocating 
Federal Government systems may not be realistic and can unnecessarily 
impede movement of Federal systems. For example, in the past the 
Department of Defense estimated it would cost $4.6 billion to clear the 
1755-1850 MHz band. Now, NTIA estimates the cost will be $18 billion. 
What steps will you take to get an accurate estimate of these costs?
    Answer. I appreciate your concern about the accuracy of agency 
estimates for the cost of relocation of their systems from the 1755-
1850 MHz band and will work with NTIA to ensure that agencies utilize 
the best practices and most accurate approaches to relocation cost 
estimates. I understand that the Commerce Department is in a unique 
position of having both technical and economic expertise in a way that 
other agencies do not have, but, as plans for relocation and sharing 
change, the estimates will vary. In fact, Government Accountability 
Office (GAO) officials recently testified that agency estimates of 
relocation costs for relocation to another band were lower than the 
actual costs. I know that NTIA is working closely with the Commerce 
Spectrum Management Advisory Committee (CSMAC) comprised of commercial 
and government stakeholders to look closely at this band to make this 
spectrum available as rapidly and efficiently as possible. If 
confirmed, I will continue to work with NTIA as is strives to fulfill 
the President's goal of making an additional 500 MHz of spectrum 
available for wireless broadband.
    As reported by NTIA in its March 2012 report, ``An Assessment of 
the Viability of Accommodating Wireless Broadband in the 1755-1850 MHz 
Band,'' this band includes the operations of twenty Federal agencies, 
including the Department of Defense. In its report, NTIA estimated that 
relocating all twenty agencies' systems from the band would cost 
approximately $18 billion; of that amount, approximately $13 billion 
was attributed to relocating military systems. The report relied upon 
current estimates from the Federal agencies that use the 1755-1850 MHZ 
band. I understand the $4.6 billion DOD figure was their estimate from 
2001.
Fisheries
    Question 5. If confirmed, you will Chair the Gulf Coast Ecosystem 
Restoration Council. Can I get your commitment that you will work with 
the State of Florida to ensure the fullest and quickest recovery of our 
resources and for our state
    Answer. If confirmed, as Chair of the Gulf Coast Ecosystem 
Restoration Council, I will work with all of the Gulf States, including 
the State of Florida, for a swift recovery.

    Question 6. What is your short-term and long-term vision for 
fisheries management in the United States?
    Answer. If confirmed, I will work with Congress, NOAA, the fishing 
industry and other stakeholders towards healthy fish stocks that can 
support healthy fishing industries around the country that drive 
coastal economies. I also understand that the law guiding Federal 
fisheries management is up for reauthorization, and I look forward to 
working with Congress as a bill is developed and debated.

    Question 7. As you may know, we are having significant issues with 
the Federal management of our red snapper fishery in the Gulf of 
Mexico. What is your plan for this specific fishery?
    Answer. I believe that good management decisions are based on the 
best available information. In the case of fisheries management, I 
believe that the best available science, strong communication and 
collaboration will help all parties navigate the complexities 
associated with maintaining healthy fish stocks and fisheries. I'm not 
familiar with the specifics of the red snapper fishery, but I 
understand its importance, especially to the recreational fishing 
industry in your region. If confirmed, I look forward to learning about 
this fishery's challenges and speaking with you further about its 
management.

    Question 8. Recently, NOAA listed several coral species under the 
Endangered Species Act. I have grave concerns over the implications of 
this listing. Can you commit to work with my office as you continue to 
review and potentially implement this listing?
    Answer. If confirmed, I commit to working with your office on all 
issues important to you and the State of Florida.
Education/Skills Gap
    Question 9. Millions of Americans do not have the skills necessary 
for today's 21st century economy, and our Nation's skills gap is a 
fundamental obstacle to economic progress. How can the business 
community help to address the skills gap, and what role can you play as 
Commerce Secretary?
    Answer. I have spent significant time focused on the skills gap in 
our country, and agree that it is one of our most pressing economic 
challenges. I helped launch Skills for America's Future, an initiative 
that promotes partnerships between employers and community colleges to 
address the skills mismatch.
    I look forward, if confirmed as Commerce Secretary, to continuing 
to work with the business community and other stakeholders on 
addressing the skills gap. In order for businesses to continue to 
thrive in this country, they need a well trained and talented 
workforce. Likewise, it's vitally important that Americans have the 
resources and skills needed to benefit from the economic opportunities 
of the future.
    The Commerce Department can play an important role in making sure 
business workforce needs are well understood by policymakers, and that 
the business community has a strong voice in the Administration.
Census
    Question 10. One endeavor that you will oversee will be the 
planning for the 2020 Census. The costs of this constitutionally-
mandated activity have continued to increase. One potential area for 
cost savings would seem to be mapping. The Census Bureau's maintains 
its own mapping function, but today, there is a very robust private 
sector mapping industry. In fact, many other government agencies 
realize the value of commercially available maps, as they choose to 
utilize the maps available through the private sector rather than use 
the maps available from the Census Bureau. Given the budgetary 
pressures that the Department is under, would you agree that the Census 
Bureau should look to buy at lower cost that which it creates for 
itself at higher cost? Will you commit to examining cost savings 
opportunities as the Department prepares for the 2020 census?
    Answer. As a business leader with 27 years of business experience, 
I believe I have a solid foundation to manage the Department of 
Commerce. If confirmed, I will be deeply committed to acting as a 
responsible steward of taxpayer dollars and plan on engaging with 
employees and stakeholders on ways to achieve greater efficiency within 
our Department.
    Like you, I believe that controlling cost for the 2020 Census is 
essential. I know the Administration is committed to conducting the 
2020 Census at a lower cost per household than the 2010 Census while 
maintaining high-quality results.
    I understand the Census Bureau has embarked on a research and 
testing program focused on containing costs by making it easier for 
people to respond to the Census and through other reforms.
    If confirmed, I will look into the specific issues you have raised 
further.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                             Penny Pritzker
Fisheries
    Question 1. I have been very concerned that NOAA is not doing 
everything it can to make sure we maintain fishing jobs in the 
Northeast. We are facing unprecedented cuts to critical fish stocks and 
our small boat industry in New Hampshire is being hit the hardest. 
Currently, fishing year 2013 catch limits for Gulf of Maine (GOM) cod 
are 78 percent lower than they were in 2012. This is unworkable for New 
Hampshire and warrants further review in an effort to find a compromise 
that will allow our fishing industry to survive.
    As you know, NOAA is charged with sustaining both fish stocks and 
fishing communities. Fishermen depend on healthy fish stocks and these 
interests should not be conflicting. In January, I wrote twice to 
Acting Secretary Blank urging approval of the New England Fishery 
Management Council's request for interim measures for the 2013 fishing 
year, but to date NOAA has opposed this compromise.
    Fishing is an historic and honorable trade that has been in many 
New Hampshire families for generations and sustains the livelihood of 
fishing communities across New England. What actions are you prepared 
to take in 2013 to sustain our fishing jobs in New Hampshire? Would you 
be willing to reconsider interim measures for the 2013 fishing year?
    Answer. I understand how culturally, personally, and economically 
important fishing is to New England fishermen and communities, and I 
understand that these years have been difficult years for the industry 
in your region. If confirmed, I look forward to working with you and 
NOAA to identify ways to help your fishing communities through this 
difficult time.
Spectrum
    Question 2. The Administration has stated a goal of freeing up 500 
MHz of spectrum within 10 years. To do this, government spectrum will 
have to be repurposed for commercial usage. I have been working closely 
with Members of this Committee, key House Commerce and Intelligence 
Committee colleagues, the FCC and the Pentagon CIO to identify which 
spectrum bands can be repurposed for commercial use and how best to do 
it. This is a difficult balancing act. What steps do you plan on taking 
to achieve this goal and what role do you plan on playing in working 
with the defense community, the FCC, Members of Congress and industry 
to help the supply for spectrum meet the rapidly increasing demand?
    Answer. I believe your question speaks to an important challenge, 
which is meeting the demand for spectrum for wireless broadband while 
ensuring that our Federal agencies can continue to meet their mandated 
missions. NTIA is working hard to meet the President's directive to 
make 500 megahertz available for wireless broadband use and has already 
identified 115 megahertz of spectrum that can be made available for 
that purpose. It has brought industry and government together to review 
the 1755-1850 MHz band and initiated efforts on another 195 megahertz 
for possible use for unlicensed devices like WiFi. NTIA is working with 
the FCC to identify the 500 megahertz the President has called for, and 
is well on the way to doing so. If I am confirmed as Secretary, I will 
work closely with NTIA to meet the demand for spectrum for wireless 
broadband while ensuring that Federal agencies can continue to meet 
their mandated mission.
Census
    Question 3. Over the past decade, private sector mapping industry 
has grown into a worldwide industry, delivering products and services 
that we as consumers use every day. The Census Bureau budgets hundreds 
of millions in taxpayer dollars to collect data used for the census. 
Some argue that this is duplicative to the work being done using 
essentially the same geographic data by private mapping companies.
    In a 2012 Senate HSGAC hearing, former Census Director Robert 
Groves said that the Census Bureau was in some ways working with the 
private sector and that he hoped it would continue. Further, he said, 
``Our budget pressures are such that we are reexamining everything we 
do and that will continue I suspect for some years. That's a healthy 
environment to consider new arrangements.''
    Considering the Census Bureau is using scarce tax dollars, and 
private sector investments represent jobs in the U.S., should the 
Census Bureau be seeking to save money by utilizing these cutting edge 
commercially-available maps? What are the pitfalls with this approach?
    Answer. It is my understanding that the Census Bureau has begun 
working with private sector mapping sources. If confirmed, I will be 
happy to look into this issue further.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                             Penny Pritzker
    Question 1. Ms. Pritzker, this administration has not always been 
seen as the most outgoing towards the business community. In Nevada, we 
are still digging our way out of the recession from 2008. We have led 
the Nation in unemployment, we have seen over 400,000 foreclosure 
filings and our tourism industry has taken a significant hit. There are 
signs of recovery, but much more needs to be done, how would you as 
Commerce Secretary utilize your background to ensure that we move in 
the right direction to improve Nevada's economy, especially in dealing 
with the business community?
    Answer. If confirmed, my priority will be working with the business 
community to accelerate our economic recovery, in Nevada and across the 
country. We can always do more to help businesses create jobs here at 
home, and to make the United States a place companies want to do 
business.
    The President has asked me to be a bridge between his 
Administration and the business community, and that's a role I look 
forward to playing on his economic team. If confirmed, I expect to 
build on my lifetime of business experience to making sure the business 
community's perspective is heard in Washington.
    I also understand the importance of the travel and tourism industry 
to Nevada--and the entire U.S. economy--and I believe there is a 
tremendous opportunity to create jobs in that important sector of our 
economy.
    I support the Administration's travel and tourism strategy, and if 
confirmed, look forward to leveraging my more than 27 years of 
experience in the hospitality industry to promote America as the top 
tourist destination in the world.

    Question 2. Ms. Pritzker, spectrum is an important tool towards 
continued economic growth. The technology and communications industry 
was the only area of growth after 2008. Ensuring that we continue to 
meet the needs of consumers who are using more wireless bandwidth is an 
important goal. One issue is clearing spectrum for government use, 
including spectrum used by DOD. What role if any are you planning on 
playing to encourage more government agencies move off of spectrum they 
may not be using so that it can be taken to market through an auction?
    Answer. Making more spectrum available for wireless broadband is a 
key to continuing the incredible pace of innovation and growth on the 
Internet and in wireless mobile devices. It is vital to promoting 
economic growth. NTIA is working hard to meet that goal by working with 
the FCC and a wide range of other government agencies to find ways to 
move and share their spectrum, so that more spectrum can be made 
available for wireless broadband. Thus far, NTIA has identified 115 
megahertz of spectrum that can be made available for wireless broadband 
uses. It has brought industry and government together to review the 
1755-1850 MHz band and initiated efforts on another 195 megahertz for 
possible use for unlicensed devices like WiFi. NTIA is working with the 
FCC to identify the 500 megahertz the President has called for, and is 
well on the way to doing so.
    If I am confirmed as Secretary, I will work closely with NTIA as it 
strives to meet the demand for spectrum for wireless broadband while 
ensuring that our Federal agencies can continue to meet their mandated 
missions.

    Question 3. While, it is not under this Committee's jurisdiction, I 
would like to discuss patent reform. Patent infringement litigation is 
impacting innovation and subsequently the speed in which new 
technologies are reaching the customers. Do you have any plans to 
address this issue? Do you have any recommendations or insight for 
ensuring that the true owners of patents are protected from patent 
trolls?
    Answer. Many of the changes from the America Invents Act, signed in 
2011, only went into effect earlier this year, so it is early to have a 
strong opinion on the impact of those changes to existing practice. 
However, I know that President Obama has raised concerns about the 
increasing amount of litigation around software patents in particular.
    I understand that the U.S. Patent and Trademark Office (PTO) 
continues to engage the patent community on ways to improve patent 
examination. Earlier this year, PTO began a series of ``Software Patent 
Roundtables'' to gather ideas related to patent examination and patent 
quality and to build solutions.
    If confirmed as Secretary of Commerce, I pledge to work with the 
Congress and the patent community to find solutions to these important 
problems.

    Question 4. How do you envision working with the Census Bureau, 
especially with respect to implementing an accurate, cost efficient 
Census 2020?
    Answer. As a business leader with 27 years of business experience, 
I believe I have a solid foundation to manage the Department of 
Commerce. If confirmed, I will be deeply committed to acting as a 
responsible steward of taxpayer dollars and plan on engaging with 
employees and stakeholders on ways to achieve greater efficiency within 
our Department.
    An important part of preparing for an accurate, cost efficient 2020 
Census is encouraging the Census Bureau to research and test new 
designs today in order to simultaneously reach our growing, 
increasingly diverse, and often hard-to-reach populations and contain 
costs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                             Penny Pritzker
    Question 1. A number of media outlets have characterized your 
appointment as an effort to ``smooth ties between the Administration 
and the business community.'' Do you think a divide between the 
Administration and the business community exists? If so, why?
    Answer. The President has asked me to be a bridge between his 
Administration and the business community, and that is a role I look 
forward to playing on his economic team. There is always room for 
improvement in the relationship between the Federal Government and the 
business community.
    Having served on the President's Council on Jobs and 
Competitiveness and Economic Recovery Advisory Board, I intend to be a 
strong voice for businesses of all sizes within the Administration, and 
I bring a lifetime of business experience to this role. In general, I 
believe it is important that the business community and the Federal 
Government have good, open lines of communication--and I know the 
President believes that, too.

    Question 2. Indiana is a manufacturing state, and Hoosiers across 
our state depend on a level playing field in order to compete in the 
global marketplace. The Department of Commerce has responsibility for 
ensuring that this playing field is level, especially in the areas of 
antidumping and countervailing duties, and Hoosiers are looking to you 
to be a strong advocate for fairness and in favor of the laws.
    A strong manufacturing industry is critical to job growth and the 
long term prosperity of Indiana and the United States. How do you plan 
to ensure that a level playing field exists?
    Answer. If confirmed, I will be committed to tough trade 
enforcement and strengthening the U.S. manufacturing base to create 
jobs and economic growth in the United States. If confirmed, I will 
make enforcing our trade laws and agreements a top priority. American 
companies and American workers are the best in the world. U.S. firms 
and workers can compete and win in the global marketplace when we have 
a level playing field. As you noted, countervailing duty and anti-
dumping laws provide us with important and transparent mechanisms to 
address unfair and market distorting trade practices. Our trade remedy 
laws give us the levers we need to protect our domestic industry from 
these practices. I can assure you that, if I am confirmed as Secretary, 
the Commerce Department will vigorously enforce our trade laws, 
including our antidumping and countervailing duty laws that address 
unfair dumping and subsidies.

    Question 3. As you may know, the Department of Commerce used a 
methodology commonly known as ``zeroing'' to calculate dumping margins. 
The World Trade Organization (WTO) has held, despite strong objections 
from both the Bush and Obama Administrations, that zeroing generally 
violates our WTO obligations. Can you share what your views are on 
negotiating a solution to this issue and restoring our right to use 
zeroing?
    Answer. I understand that this is a very important issue, and that 
Commerce believes that the WTO Appellate Body went beyond its mandate 
in creating new obligations that do not appear in the text of the WTO 
Antidumping Agreement. It is also my understanding that Commerce has 
consistently signaled that its implementation of the various WTO 
Appellate Body decisions on ``zeroing'' were done out of recognition 
and respect for our international commitments, despite the view that 
the WTO Appellate Body overstepped its authority. I understand the 
United States has consistently flagged its intention to continue to 
pursue this issue. The United States is of the view that prior 
international agreements permitted zeroing, and has signaled its intent 
to work hard to reaffirm the ability to use this practice through the 
negotiations. I assure you that, if confirmed, I will review all of the 
options for raising this issue with our trading partners at the WTO.

    Question 4. As you know, the President thinks the department is 
unresponsive to the needs of business, has a number of duplicative 
functions, and is unnecessarily complex. In fact he proposed a massive 
reorganization of the department in 2012. This waste in the department 
as identified by the President combined with the fact that we're now in 
sequestration should offer you some easy opportunities to find savings 
at the department. As a successful businesswoman I can't imagine you 
would take on the responsibility of leading an organization like the 
Department of Commerce without doing substantial due-diligence into the 
challenges the organization faces.
    As you've gone through and reviewed the department's operations, 
what areas have you identified early on for reorganization, 
consolidation, and elimination in order to provide savings to the 
taxpayer?
    Answer. If confirmed, I will be deeply committed to acting as a 
responsible steward of taxpayer dollars. The President has made it very 
clear that he wants his cabinet to eliminate wasteful spending in every 
agency and department, and I share his goal.
    With respect to the President's reorganization proposal, I support 
the President's request for consolidated authority. Until Congress 
grants the President that authority, I am eager and committed to 
leading the Commerce Department as it is currently configured. Should I 
be confirmed, I will look for every opportunity to achieve greater 
efficiency through the reduction of duplicative efforts within the 
Department.
    From my conversations with Dr. Blank, I know that the Department 
has made excellent strides in reducing administrative costs and travel 
and conference spending. If confirmed, I will continue to focus on 
efficiently using the taxpayers' dollars by engaging with employees and 
stakeholders on ways to achieve greater efficiency.

                                  [all]
</pre></body></html>
